<html>
<title> - UNACCOMPANIED CHILDREN AT THE BORDER: STAKEHOLDER PERSPECTIVES ON THE WAY FORWARD</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]



                   UNACCOMPANIED CHILDREN AT THE BORDER: 
                     STAKEHOLDER PERSPECTIVES ON THE WAY
                     FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     BORDER SECURITY, FACILITATION,
                             AND OPERATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2021

                               __________

                            Serial No. 117-8

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________                               
                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-671 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                          
                                 ------                                

     SUBCOMMITTEE ON BORDER SECURITY, FACILITATION, AND OPERATIONS

             Nanette Diaz Barragan, California, Chairwoman
J. Luis Correa, California           Clay Higgins, Louisiana, Ranking 
Emanuel Cleaver, Missouri                Member
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Andrew S. Clyde, Georgia
    officio)                         John Katko, New York (ex officio)
                  Vacancy, Subcommittee Staff Director
          Emily Trapani, Minority Subcommittee Staff Director
                    Zachary Wood, Subcommittee Clerk
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California, and Chairwoman, Subcommittee on 
  Border Security, Facilitation, and Operations:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Clay Higgins, a Representative in Congress From the 
  State of Louisiana, and Ranking Member, Subcommittee on Border 
  Security, Facilitation, and Operations:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Prepared Statement.............................................     9

                               Witnesses

Mr. Aaron Reichlin-Melnick, Policy Counsel, American Immigration 
  Council:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
The Honorable Robert Garcia, Mayor, City of Long Beach, Long 
  Beach, California:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18
Ms. Jennifer Podkul, Vice President for Policy and Advocacy, Kids 
  In Need of Defense (KIND):
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Ms. Lora Ries, Director of the Center for Technology Policy, 
  Senior Research Fellow for Homeland Security, The Heritage 
  Foundation:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                             For the Record

The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California, and Chairwoman, Subcommittee on 
  Border Security, Facilitation, and Operations:
  Letter From the Coalition for Humane Immigrant Rights (CHIRLA).    53
  Statement of Susannah Cunningham, Advocacy Manager, Lutheran 
    Immigration and Refugee Service..............................    54
  Letter From Catholic Charities USA (CCUSA).....................    58
  Letter From Amnesty International USA..........................    58
  Statement of First Focus on Children...........................    64
  Statement of the Young Center for Immigrant Children's Rights..    66

 
 UNACCOMPANIED CHILDREN AT THE BORDER: STAKEHOLDER PERSPECTIVES ON THE 
                              WAY FORWARD

                              ----------                              


                        Tuesday, April 27, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                          Subcommittee on Border Security, 
                              Facilitation, and Operations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:01 p.m., via 
Webex, Hon. Nanette Diaz Barragan [Chairwoman of the 
subcommittee] presiding.
    Present: Representatives Barragan, Correa, Cleaver, Green, 
Clarke, Jackson Lee, Thompson (ex officio), Higgins, Guest, 
Bishop, and Clyde.
    Ms. Barragan. The Subcommittee on Border Security, 
Facilitation, and Operations will come to order.
    The subcommittee is meeting to hear stakeholder 
perspectives on addressing unaccompanied children at the U.S.-
Mexico border.
    The challenge posed by children arriving at our border is 
not new. Unaccompanied children from Mexico, Central America, 
and elsewhere have long sought refuge in the United States. 
This is also not the first time we have seen increased numbers 
of unaccompanied children at our Southern Border. There were 
similar increases in 2014 and 2019.
    Northern Triangle countries suffer from unspeakable 
violence, corruption, and poverty. Last November, the region 
was hit by 2 devastating hurricanes that destroyed homes and 
wiped out critical infrastructure, worsening the situation and 
prompting more desperate families and children to flee.
    Migrant children are undertaking the arduous, dangerous 
journey because conditions at home are so dire. Many hope to 
reunite with family living in the United States. Like many of 
my colleagues, this breaks my heart, seeing them waiting to be 
reunited.
    The increased number of child migrants is certainly a 
challenge, but the U.S. Government must provide these children 
with protections guaranteed to them under law. These 
protections ensure that children are quickly transferred from 
Customs and Border Protection, CBP, custody, from there into 
the Department of Health and Human Services, or HHS, which is 
much better equipped to handle these children and to care for 
them, as well as unite them with their families or sponsors.
    The Biden administration is rapidly building capacity to 
provide proper care for migrant children after President Trump 
dismantled the system. I have heard a number of my colleagues 
urge the current administration to reimpose policies incredibly 
harmful to children, particularly unaccompanied children, like 
expelling kids under Title 42.
    Under Title 42, the Trump administration sent young 
children back to the very dangerous conditions they are 
fleeing, scared and alone. This is unconscionable and we cannot 
go back.
    Under the last administration, the Department of Homeland 
Security also neglected to prepare for an increase in migration 
that was long-predicted. DHS saw the warning signs in mid-2020 
of another increase. It chose not to build the capacity needed 
to process and care for vulnerable migrants.
    Now is not the time to score political points. We must work 
together to improve our asylum system and border policies and 
do so respecting the humanity and unique needs of child 
migrants.
    I am encouraged that President Biden committed to 
reinstitute humane border policies. The law requires we treat 
unaccompanied children humanely and allows children to apply 
for asylum. It is simply the right thing to do legally and 
morally.
    Like many Members, I recently traveled to the Rio Grande 
Valley to conduct an oversight visit. I toured the Donna 
Processing Facility where many of the children are held until 
they are transferred to HHS care. I spoke to little girls from 
El Salvador, Guatemala, and Honduras, girls who look just like 
I did at their age.
    While CBP processing facilities are no place for children, 
the facility conditions have improved tremendously compared to 
what I saw under the previous administration. No doubt there is 
still more to be done. For example, I met too many children 
that did not know they could use the phone to call their 
families.
    The number of kids in Border Patrol custody has fallen 
dramatically in recent weeks, and the average time for children 
in custody is now well under the 72-hour threshold mandated by 
the Trafficking Victims Protection Reauthorization Act of 2008. 
This is due in large part to the stand-up of new emergency 
intake sites and influx care facilities to facilitate and 
expedite the movement of children out of the hands of Border 
Patrol and into the custody of child welfare specialists.
    In fact, HHS has opened an emergency intake site at the 
Long Beach Convention Center just outside my district here in 
California. I am pleased to be joined today by the mayor of 
Long Beach to discuss that effort.
    My district does include North Long Beach, and I am proud 
to represent such a welcoming community and work with a leader 
like Mayor Garcia.
    The progress we have seen over the last few weeks are 
initial steps to improve conditions and the process addressing 
children at our border. Federal agencies are not alone in 
providing care to unaccompanied minors. Rather, this is a 
whole-community approach where civil society, service care 
providers, pro bono lawyers, NGO's and many others supplement 
the efforts of the Federal Government.
    Protecting vulnerable children is an American value, and I 
look forward to hearing the witnesses' perspectives on the 
administration's response and recommendations on how to move 
forward from here.
    [The statement of Chairwoman Barragan follows:]

             Statement of Chairwoman Nanette Diaz Barragan

                             April 27, 2021

    The challenge posed by children arriving at our border is 
not new. Unaccompanied children from Mexico, Central America, 
and elsewhere have long sought refuge in the United States. 
This is also not the first time we have seen increased numbers 
of unaccompanied children at our Southern Border--there were 
similar increases in 2014 and 2019.
    Northern Triangle countries suffer from unspeakable 
violence, corruption, and poverty. Last November, the region 
was hit by 2 devastating hurricanes that destroyed homes and 
wiped out critical infrastructure, worsening the situation and 
prompting more desperate families and children to flee.
    Migrant children are undertaking the arduous, dangerous 
journey because conditions at home are so dire. Many hope to 
reunite with family living in the United States. Like many of 
my colleagues, my heart breaks seeing them waiting to be 
reunited. The increased number of child migrants is certainly a 
challenge, but the U.S. Government must provide these children 
with protections guaranteed to them under law.
    These protections ensure that children are quickly 
transferred from Customs and Border Protection (CBP) custody to 
the Department of Health and Human Services (HHS), which is 
much better equipped to care for these children as well as 
unite them with their families or sponsors. The Biden 
administration is rapidly building capacity to provide proper 
care for migrant children after President Trump dismantled the 
system.
    I have heard a number of my colleagues urge the current 
administration to reimpose policies incredibly harmful to 
children--particularly unaccompanied children--like expelling 
kids under Title 42. Under Title 42, the Trump administration 
sent young children back to the very conditions they are 
fleeing, scared and alone. This is unconscionable and we cannot 
go back. Under the last administration, the Department of 
Homeland Security also neglected to prepare for an increase in 
migration that was long-predicted. DHS saw the warning signs in 
mid-2020 of another increase. It chose not to build the 
capacity needed to process and care for vulnerable migrants.
    Now is not the time to score political points; we must work 
together to improve our asylum system and border policies--and 
do so respecting the humanity and unique needs of child 
migrants. I am encouraged that President Biden committed to 
reinstitute humane border policies. The law requires we treat 
unaccompanied children humanely and allows children to apply 
for asylum. It is simply the right thing to do--legally and 
morally.
    Like many Members, I recently traveled to the Rio Grande 
Valley to conduct an oversight visit. I toured the Donna 
Processing Facility where many of the children are held until 
they are transferred to HHS care. I spoke to little girls from 
El Salvador, Guatemala, and Honduras--girls who look just like 
I did at their age. While CBP processing facilities are no 
place for children, the facility conditions have improved 
tremendously compared to what I saw under the previous 
administration. No doubt there is still more to be done. For 
example, I met too many children that did not know they could 
use the phones to call their families.
    The number of kids in Border Patrol custody has fallen 
dramatically in recent weeks, and the average time for children 
in custody is now well under the 72-hour threshold mandated by 
the Trafficking Victims Protection Reauthorization Act (TVPRA) 
of 2008. This is due in large part to the stand-up of new 
Emergency Intake Sites (EIS) and Influx Care Facilities (ICF) 
to facilitate and expedite the movement of children out of the 
hands of Border Patrol and into the custody of child welfare 
specialists.
    In fact, HHS has opened an Emergency Intake Site at the 
Long Beach Convention Center just outside my district in 
California. I am pleased to be joined today by the Mayor of 
Long Beach to discuss that effort. My district does include 
North Long Beach, and I am proud to represent such a welcoming 
community and work with a leader like Mayor Garcia. The 
progress we have seen over the last few weeks are initial steps 
to improve conditions and the process addressing children at 
our border.
    Federal agencies are not alone in providing care to 
unaccompanied minors. Rather, this is a whole-community 
approach where civil society, service care providers, pro-bono 
lawyers, NGO's, and many others supplement the efforts of the 
Federal Government. Protecting vulnerable children is an 
American value, and I look forward to hearing the witnesses' 
perspective on the administration's response and 
recommendations on how to move forward from here.

    Ms. Barragan. With that, the Chair now recognizes the 
Ranking Member of the subcommittee, Mr. Higgins of Louisiana, 
for an opening statement.
    Mr. Higgins. Thank you, Madam Chair. Thank you to our 
witnesses for being here.
    We have difficult ground to cover and we are going to 
discuss some uncomfortable things, but I would like to say at 
the outset that I have a personal conviction regarding the 
Chairwoman's compassionate determination to seek a path 
forward, and I have faith that my colleagues on both sides of 
the aisle can come together to move forward to find real 
solutions despite the fact that we will have difficult 
conversations, because it is a tough subject.
    There is a crisis on our Southwest Border with no end in 
sight. That is reality. The administration's campaign 
statements, coupled with what I believe to be an overzealous 
renunciation of the prior administration's border policies, 
which had proven to be effective ultimately, I believe these 
circumstances have invited this activity to our borders. 
Specifically, the suspension of the wall system construction 
was a major error.
    The Remain in Mexico policy should be reinstated. Asylum 
Cooperative Agreements should be continued and enhanced. Some 
of these policies, coupled with enabling of the catch-and-
release practice, restricting immigration enforcement, and the 
refusal to equally apply Title 42 across the board, these 
decisions have exacerbated the crisis at the border.
    The Secretary of Homeland himself stated that we are on 
track to see the highest number of illegal crossings in over 20 
years. However, no one in the current administration has 
stepped forward to really take a leadership role to deal with 
this crisis. The border coordinator is leaving after 3 months 
on the job. The Vice President has yet to publicly engage at 
the border and visit the border. Secretary Mayorkas continues 
to, in my opinion, ignore legitimate information requests from 
this oversight body about the operational realities on the 
ground. In good faith, perhaps they are working on it, but he 
has not provided many answers to the questions we have 
submitted.
    Last month, Customs and Border Protection encounters 
surpassed 172,000 at the Southwest Border, and we all know that 
that is a percentage of the actual crossings, because we never 
touch 100 percent. That is reality. So the truth is the number 
was greater than 172,000, if you are looking for the number of 
actual illegal crossings.
    The administration continues to claim that single adults 
and family units are being expelled under Title 42 public 
health emergency authority. However, DHS's own statistics show 
this to be false. In March, only 60 percent were denied entry.
    Border Patrol facilities and temporary processing centers, 
the same ones used by the Trump administration, remain over 
capacity. My colleagues, respectfully, on the other side of the 
aisle slammed conditions in 2019, and now are referring to the 
same facilities under the Biden administration as more humane. 
May I argue that more crowded does not equal more humane. This 
is just another example of the incredible things that happen in 
the bizarre realm of the District of Columbia.
    This subcommittee and the committee as a whole must have 
the courage to honestly engage and to find solutions, because 
the American people see through political posturing. A new 
Washington Post-ABC News poll shows that a majority of 
Americans disapprove of the Biden administration's handling of 
the situation at the Southwest Border. That is just reality.
    Less than 20 percent of the crossings make a credible fear 
claim. Now, this is important to note because that is the first 
step in the process for asylum at the land border. Now, this 
doesn't mean that more didn't seek it as a defense against 
removal later on, but we should not state or suggest that 
everyone at the border is seeking asylum, because that is just 
not true and we know that to be not true. We must push through 
the political posturing and seek truth and resolution to these 
situations.
    The Biden administration's decision to use prosecutorial 
discretion in the RGV sector, the Rio Grande Valley sector, 
most people not able to be immediately expelled are released en 
masse, some without ever being entered into removal 
proceedings.
    Border Patrol agencies on the ground told us, and told me, 
that the Federal Government has become the largest facilitator 
of human smuggling at the border. That is the perception of the 
boots on the ground largely when you talk to those guys, that 
their law enforcement mission has been transformed into 
facilitators of illegal crossings. That should be a wake-up 
call for Congress, and we should work together, again, toward 
solutions.
    Another persistent issue at our border concerns the 
activities of TCOs, the cartels. Months-old babies and toddlers 
don't just appear at the Southwest Border on their own. They 
are smuggled to our border by cartels who don't care about 
their safety or well-being, and they are not hydrated properly 
or fed properly, or if the adult holding them is related to 
them, that is very much in question.
    TCOs, they only care about cash. Cartels are making 
American cash dollars hand over fist. There have been reports 
of smugglers throwing toddlers in the Rio Grande River to 
distract Border Patrol. We have all seen the footage of 
smugglers dropping toddlers over the wall. It is horrific what 
they are doing. That is where we should be focused, on how to 
combat these cartels, the pipeline that is feeding illegal 
crossings into our Southern Border.
    The best practices of treating children at the border we 
will hear today doesn't matter to the cartels. Every child they 
smuggle or use to distract from their loads of drugs and sex 
trafficking makes them more emboldened. Criminal cartels are 
profiting at an unprecedented level from this administration's 
policies. That is not to mean that my colleagues on this 
committee don't have compassionate hearts in the right place. I 
am just saying we have to admit that this administration's 
policies are not working. We have to communicate with the Biden 
administration effectively and encourage real solutions.
    The decision not to expel unaccompanied minors is causing 
some parents to make the decision to self-separate.
    We have heard from Customs and Border Protection that they 
have encountered many adults claiming to be children at the 
border in hopes of not being expelled. I don't have to explain 
the dangers of putting unrelated adults in facilities with 
children. It is a recipe for disaster and, indeed, it is 
happening. There are at least 3 facilities that house 
unaccompanied minors with serious outstanding allegations of 
misconduct just in the last month. One shuttered overnight, 
with reports of children being forced into untenable positions 
with no toilets available.
    The administration's failure to properly address the border 
crisis endangers our Republic, bottom line. Failure to take 
decisive action will have an immeasurable lasting consequence. 
Inaction in the name of political expediency is not acceptable. 
I know my Chairwoman's heart is in the right place. I have 
faith we can come together.
    Madam Chairwoman, thank you for your consideration, and I 
yield.
    [The statement of Ranking Member Higgins follows:]
                Statement of Ranking Member Clay Higgins
                             April 27, 2021
    Thank you Madam Chair, and thank you to our witnesses for being 
here today.
    Make no mistake, there is a crisis on our Southwest Border with no 
end in sight.
    This administration's campaign rhetoric coupled with an over-
zealous renunciation of the prior administration's border policies 
which had proven effective, have invited this activity at our border.
    Specifically, the suspension of wall system construction, the 
Remain in Mexico policy, and Asylum Cooperative Agreements, coupled 
with the enabling of `catch and release' practices, restricting 
immigration enforcement and the refusal to equally apply Title 42 
across the board, have exacerbated the crisis.
    The Secretary of Homeland Security himself stated that we are on 
track to see the highest number of illegal crossings in over 20 years.
    However, no one in the current administration has stepped forward 
to claim a leadership role to deal with this crisis. The border 
coordinator is leaving after 3 months on the job, the Vice President 
has yet to visit the border, and Secretary Mayorkas continues to ignore 
legitimate information requests from this oversight body about the 
operational reality on the ground.
    Last month, Customs and Border Protection encounters surpassed 
172,000 at the Southwest Border. The administration continues to claim 
that single adults and family units are being expelled under Title 42 
public health emergency authority. However, DHS's own statistics show 
that to be false. In March, only 60 percent were denied entry.
    Border Patrol facilities and temporary processing centers--the same 
ones used during the Trump administration--remain over capacity. My 
colleagues on the other side of the aisle who slammed conditions in 
2019 are now referring to the same exact facilities under the Biden 
administration as ``more humane.'' This is just another example of the 
incredible things that happen in the bizarre realm of the District of 
Columbia.
    The American people see through this. A new Washington Post-ABC 
News poll shows a majority of Americans disapprove of the 
administration's handling of the situation at the Southwest Border.
    Based off publicly-available CBP data, only a small fraction of 
people crossing the border illegally are seeking asylum.
    Less than 20 percent make a credible fear claim, which is the first 
step in the process for asylum at the land border. That doesn't mean 
more didn't seek it as a defense against removal later on, but let's be 
clear not to suggest that everyone at the border is seeking asylum.
    Because of the Biden administration's decision to use prosecutorial 
discretion in the Rio Grande Valley Sector, most people not able to be 
immediately expelled are released en masse, some without ever being 
entered in removal proceedings. Border Patrol Agents on the ground told 
us that the Federal Government has become the largest facilitator of 
human smuggling at the border. That should be a wake-up call for this 
Congress to put an end to the madness and work together toward a 
solution
    Another persistent issue at our borders concerns the activities of 
transnational criminal organizations (TCOs), the cartels. Months-old 
babies and toddlers don't just appear at the Southwest Border on their 
own. They are smuggled to our border by TCOs who don't care about their 
safety or well-being, if they are hydrated and fed, or if the adult 
holding them is related to them. TCOs just care about cash. There have 
been reports of smugglers throwing toddlers into the Rio Grande River 
to distract Border Patrol and we have all seen the footage of smugglers 
dropping toddlers over the wall. The best practices of treating 
children at the border we will hear today doesn't matter to them. Every 
child they smuggle or use to distract from their loads of drugs, makes 
them more emboldened. Criminal cartels are profiting greatly from this 
administration's policies.
    The decision not to expel unaccompanied minors is causing some 
parents to make the decision to self-separate.
    We have heard from CBP that they've encountered ``many'' adults 
claiming to be children at the border in hopes of not being expelled. I 
don't have to explain the dangers of putting unrelated adults in 
facilities with children.
    There are also at least 3 facilities that house unaccompanied 
minors with serious outstanding allegations of misconduct over the last 
month, with one shuttering overnight after reports of children being 
forced to use bags as toilets.
    The administration's failure to properly address the border crisis 
endangers our Republic. Failure to take decisive action will have 
immeasurable and lasting consequences. Inaction in the name of 
political expediency is inexcusable.
    Today's hearing is an opportunity to seek answers for the American 
people, examine how this administration's policies are impacting 
unaccompanied minors, understand the push and pull factors that 
resulted in 19,000 kids at the border in March, and discuss changes 
needed to address this situation.
    I look forward to the witnesses' testimony and I thank them for 
appearing before us today. I yield back.

    Ms. Barragan. Thank you, Ranking Member.
    Members are reminded that the subcommittee will operate 
according to the guidelines set out by the Chairman and Ranking 
Member in the July 8 colloquy.
    The Chair now recognizes the Chairman of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Good afternoon. I thank Chairwoman Barragan 
for holding today's hearing on unaccompanied children at the 
Southern Border and for her leadership on this important issue.
    Despite some of the rhetoric about the situation at the 
Southern Border, this challenge is not new. We have seen 
increased arrivals of unaccompanied children and others at the 
U.S.-Mexico border in 2014, 2018, 2019, and more in previous 
decades.
    When there was a surge of families and children at the 
border in 2018, President Trump tore children from their 
parents. In 2019, President Trump instituted a series of anti-
immigrant policies that failed to address the root causes of 
increased migration, caused thousands of children to languish 
in Government custody, and squandered millions on projects that 
failed to secure the border.
    In 2020, when arrivals started trending upwards, rather 
than preparing to address the situation, the Trump 
administration continued dismantling our immigration 
infrastructure and began expelling unaccompanied children into 
Mexico alone instead of allowing them to seek protection 
provided for under the law.
    Instead, the Biden administration is responding to the 
challenge by treating children humanely and working to fix the 
underlying causes of this situation. Federal agencies are 
working closely with local communities to provide temporary 
shelter and COVID-19 testing for the vulnerable children.
    The Biden administration is also working with non-
Governmental organizations, like Kids in Need of Defense, to 
provide and connect unaccompanied children with legal services, 
essential medical care, and educational opportunities. All of 
these efforts are designed to get kids out of CBP facilities 
and quickly reunite them with their families.
    The administration is also restarting the Central American 
Minors Program, to allow unaccompanied children to apply for 
protection in their home country and make a safe, orderly 
journey to the United States if they qualify. These are real 
actions taken to hopefully address one of the many factors 
pushing children to make the dangerous journey to our border.
    Last week, former Trump adviser Stephen Miller's 
organization filed its first lawsuit to force the Biden 
administration to begin expelling vulnerable unaccompanied 
children to Mexico again. It is simply unconscionable that some 
would try to bring back the Trump administration's inhumane 
policy of returning vulnerable children back to the dangerous 
conditions they fled. Returning to inhumane policies toward 
children should be a nonstarter.
    Border security is a priority for this committee and the 
Biden administration, but we also must not lose focus on other 
issues like domestic terrorism and critical infrastructure 
protection. We also do not have to sacrifice border security to 
treat vulnerable unaccompanied children with basic decency. We 
can do both.
    Secretary Mayorkas and the men and women of DHS have made 
good progress in addressing the situation at the border, but we 
still have a long road to really and fully repair this system.
    I am eager to hear from our witnesses today on possible 
ways Congress and the administration can help address this on-
going challenge in the short and long term, while continuing to 
uphold our values as a Nation.
    Thank you, Madam Chair, and I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 27, 2021
    Good afternoon.
    I thank Chairwoman Barragan for holding today's hearing on 
unaccompanied children at the Southern Border and for her leadership on 
this important issue.
    Despite some of the rhetoric about the situation at the Southern 
Border, this challenge is not new.
    We have seen increased arrivals of unaccompanied children and 
others at the U.S.-Mexico border in 2014, 2018, 2019, and more in 
previous decades.
    When there was a surge of families and children at the border in 
2018, President Trump tore children from their parents
    In 2019, President Trump instituted a series of anti-immigrant 
policies that failed to address the root cause of increased migration, 
caused thousands of children to languish in Government custody, and 
squandered millions on projects that failed to secure the border.
    In 2020, when arrivals started trending upward, rather than 
preparing to address the situation, the Trump administration continued 
dismantling our immigration infrastructure and began expelling 
unaccompanied children into Mexico alone instead of allowing them to 
seek protection provided for under the law.
    Instead, the Biden administration is responding to the challenge by 
treating children humanely and working to fix the underlying causes of 
this situation.
    Federal agencies are working closely with local communities to 
provide temporary shelter and COVID-19 testing for the vulnerable 
children.
    The Biden administration is also working with non-Governmental 
organizations like Kids in Need of Defense to provide and connect 
unaccompanied children with legal services, essential medical care, and 
educational opportunities.
    All of these efforts are designed to get kids out of CBP facilities 
and quickly reunite them with their families.
    The administration is also restarting the Central American Minors 
Program to allow unaccompanied children apply for protection in their 
home country and make a safe, orderly journey to the United States if 
they qualify.
    These are real actions taken to hopefully address one of the many 
factors pushing children to make the dangerous journey to our border.
    Last week, former Trump advisor Stephen Miller's organization filed 
its first lawsuit to force the Biden administration to begin expelling 
vulnerable unaccompanied children to Mexico again.
    It is simply unconscionable that some would try to bring back the 
Trump administration's inhumane policy of returning vulnerable children 
back to the dangerous conditions they fled.
    Returning to inhumane policies toward children should be a non-
starter.
    Border security is a priority for this committee and the Biden 
administration, but we also must not lose focus on other issues like 
domestic terrorism and critical infrastructure protection.
    We also do not have to sacrifice border security to treat 
vulnerable unaccompanied children with basic decency. We can have both.
    Secretary Mayorkas and the men and women of DHS have made good 
progress in addressing the situation at the border, but we still have a 
long road to fully repair the system.
    I am eager to hear from our witnesses today on possible ways 
Congress and the administration can help address this on-going 
challenge in the short and long term while continuing to uphold our 
values.
    Thank you and I yield back.

    Ms. Barragan. Thank you, Mr. Chairman.
    Not seeing the Ranking Member of the full committee, we 
will proceed on to our witnesses.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Madam Chair. I am pleased that this subcommittee is 
holding a hearing today on a topic all of us care deeply about: The 
welfare of children crossing the Southwest Border.
    Some of these children arrive alone and afraid, with nothing but 
the clothes on their backs. Others arrive with loved ones, hoping for a 
better life in the United States. Many children making the dangerous 
journey to the United States face tragic circumstances of abuse, 
illness, violence, and trafficking along the way. Often, drug cartels 
use children as pawns to distract Border Patrol agents as illicit drugs 
are smuggled across the border, as we recently saw in troubling footage 
of 2 young toddlers being dropped over a section of the border wall.
    I recently returned from my second trip to the Southern Border in 
the span of a few weeks. The stories my colleagues and I are hearing 
from the front-line men and women of DHS about the dueling 
humanitarian, security, and public health crises are incredibly 
disturbing. With CBP encountering nearly 20,000 unaccompanied children 
at the Southwest Border in March 2021 alone--more than 6 times the 
number encountered during the same month last year--an already strained 
workforce continues to face a lack of capacity and resources to 
effectively manage this crisis.
    Additionally, I am troubled that the Biden administration has 
removed important protections related to vetting the sponsors to whom 
unaccompanied children are released, while also waiving background 
check requirements for caregivers at migrant care facilities. These 
troubling changes in policy are doubly concerning amongst recent 
reports of abuse at these facilities.
    I hope that this hearing today will be an honest examination of the 
conditions facing these children on the ground, as well as the 
challenges facing the front-line men and women of DHS working amidst 
dire circumstances. I thank our witnesses for appearing before the 
committee today, and I yield back the balance of my time.

    Ms. Barragan. I now have the pleasure of welcoming our 
panel of witnesses. First, we have Mr. Aaron Reichlin-Melnick. 
He is policy counsel at the American Immigration Council, a 
nonprofit, nonpartisan organization that examines the American 
immigration system. Mr. Reichlin-Melnick works primarily on 
immigration court issues and the intersection of immigration 
law and policy.
    Dr. Robert Garcia is an educator and the 28th mayor of Long 
Beach, California. He strongly supports comprehensive 
immigration reform and leads a community that welcomes 
immigrants. As mayor, he worked with the Long Beach City 
Council, HHS, FEMA, and local NGO's and advocates to lease the 
Long Beach Convention Center as an emergency intake site for 
migrant children.
    Our next witness, Jennifer Podkul, is vice president for 
policy and advocacy from Kids in Need of Defense, or KIND, an 
NGO devoted to the protection of unaccompanied and separated 
children. Ms. Podkul is an international human rights lawyer 
and a National expert on issues affecting immigrant children.
    Lora Ries, our next witness, is director of the Center for 
Technology Policy and senior research fellow at The Heritage 
Foundation. Prior to her current position, she served in 
various positions at the Department of Homeland Security during 
the Trump administration, as a lobbyist for Homeland Security 
contractors, and as counsel on the Judiciary Committee.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Reichlin-Melnick.

 STATEMENT OF AARON REICHLIN-MELNICK, POLICY COUNSEL, AMERICAN 
                      IMMIGRATION COUNCIL

    Mr. Reichlin-Melnick. Chairwoman Barragan, Ranking Member 
Higgins, and distinguished Members of the committee and 
subcommittee, my name is Aaron Reichlin-Melnick and I am policy 
counsel at the American Immigration Council, a nonpartisan 
organization dedicated to ensuring that the United States 
provides a fair process for all immigrants, including those 
seeking protection.
    I am grateful for the opportunity to speak today to provide 
some perspective on unaccompanied children at the border and to 
emphasize that the challenge we face today is not about 
reducing numbers but about resolving long-standing deficiencies 
in our humanitarian processing system.
    From the 1980's through the 2000's, the Border Patrol 
routinely apprehended upwards of 100,000 children a year. 
Concerns about their treatment led to protections for migrant 
children, which were expanded on a bipartisan basis in the 
Trafficking Victims Protection Reauthorization Act of 2008.
    Congress declared that the goal of the TVPRA was: 
``Preventing the trafficking of unaccompanied children found in 
the United States by ensuring that they are not repatriated 
into the hands of traffickers or abusive families and are well-
cared-for.''
    This goal of ensuring that children are not deported into 
abusive conditions got its first big test in 2014. Tens of 
thousands of unaccompanied children and families came to our 
borders and sought protection, making headlines and revealing 
an ill-equipped and outdated humanitarian protection system.
    So what happened to those children when the media spotlight 
went away? Well, recently-published Department of Homeland 
Security data reveals a key truth. Most won their cases. Since 
2013, 57 percent of unaccompanied children with completed court 
cases have been granted the right to stay. This vital fact 
underscores the dire conditions from which children are 
fleeing.
    That brings us to today. After the pandemic hit, the Trump 
administration began expelling all migrants under a policy 
known as Title 42. Regardless of whether they were asylum 
seekers or unaccompanied children and even if they had tested 
negative for COVID-19, CBP expelled them to Mexico or deported 
them to their home countries alone.
    Despite Title 42, the number of people coming to the border 
has been rising steadily since last spring. By September of 
last year, border apprehensions were already at levels not seen 
in 15 years, driven primarily by large numbers of single adults 
being apprehended and expelled multiple times, as well as 
people's inability to obtain safety while waiting at the 
border.
    The number of unaccompanied children also kept rising. In 
total, nearly 16,000 unaccompanied children were expelled under 
Title 42 before a judge blocked the practice last November as 
illegal. By December, shelters for unaccompanied children were 
already at 67 percent capacity.
    So when the steady increases accelerated in January, all 
remaining bed space quickly filled up and a bottleneck formed 
at the border, leading to unacceptably high numbers of children 
locked in overcrowded Border Patrol cells for days or weeks at 
a time, just as we saw in 2014 and 2019.
    In response, the Biden administration began standing up a 
network of emergency shelters to clear the bottleneck. Over the 
last month, this effort has paid off. The number of children in 
Border Patrol custody has dropped 80 percent since late March, 
and as of this morning, the average time in Border Patrol 
custody for unaccompanied children is below 48 hours.
    However, unlicensed emergency influx shelters must not 
become the new norm. Migrant children belong in the care of 
family and loved ones, not the Government, which is why the 
focus now is on getting children out of shelters more quickly. 
Thankfully, here as well, the Biden administration's efforts 
have begun to pay off. Last Thursday, for the first time since 
reporting began, more children left U.S. custody than entered 
it.
    Despite claims to the contrary, the U.S. border is not 
open. The ports of entry remain closed to those seeking asylum, 
and more than 40,000 families have been expelled back to Mexico 
since January. Some of those parents, faced with the dangers of 
waiting in Mexico and the impossibility of returning to the 
violence they fled, have made the agonizing decision to send 
their children across the border alone. These self-separations 
will undoubtedly continue until the Biden administration ends 
Title 42.
    Today, we are seeing once again how decades of deterrence-
based policies have not worked. The primary goal moving forward 
should not be reducing numbers. Instead, it should be to build 
a fair, efficient, and, above all, safe system for those 
seeking our help, whether single adults, families, or 
unaccompanied children.
    We have been here before and we will be here again unless 
we invest in a robust humanitarian protection system, one which 
can respond flexibly to extraordinary migration events. The 
American Immigration Council looks forward to helping work with 
the committee on these solutions, and thank you for your time.
    [The prepared statement of Mr. Reichlin-Melnick follows:]
Prepared Statement of Aaron Reichlin-Melnick, Policy Counsel, American 
                          Immigration Council
                             April 27, 2021
    Chairman Thompson, Chairwoman Barragan, Ranking Member Higgins, and 
distinguished Members of the committee and subcommittee: My name is 
Aaron Reichlin-Melnick and I serve as the policy counsel for the 
American Immigration Council, a nonpartisan organization dedicated to 
the belief that immigrants are part of our National fabric and to 
ensuring that the United States provides a fair process for all 
immigrants, including those who are seeking protection at the border. 
The Council works to strengthen America by shaping how America thinks 
about and acts toward immigrants and immigration and by working toward 
a more fair and just immigration system that opens its doors to those 
in need of protection and unleashes the energy and skills that 
immigrants bring.
    The Council has long brought attention to ways in which the 
Department of Homeland Security (``DHS'') has responded to migrants at 
the border--including children--through research, advocacy, and 
litigation. In 2015, we helped bring a successful lawsuit against the 
Border Patrol's Tucson Sector challenging unconstitutional conditions 
of confinement for adults and children,\1\ and we are currently suing 
Customs and Border Protection (``CBP'') for its unlawful policy of 
turning away asylum seekers, including unaccompanied children, at ports 
of entry, in part through a practice known as ``metering.''\2\
---------------------------------------------------------------------------
    \1\ American Immigration Council, ``Challenging Unconstitutional 
Conditions in CBP Detention Facilities,'' https://bit.ly/2PhdT0z.
    \2\ American Immigration Council, ``Challenging Customs and Border 
Protection's Unlawful Practice of Turning Away Asylum Seekers,'' 
https://bit.ly/32Eo4z5.
---------------------------------------------------------------------------
    I am grateful for the opportunity to be here today to help provide 
some historical perspective on the current situation at the border and 
the ways in which we got here. I want to begin with the bipartisan 
Trafficking Victims Protection Reauthorization Act of 2008.
    Included in that law was an amendment that increased protections 
for unaccompanied children--distinct from children apprehended with 
their legal guardians--from non-contiguous countries, providing among 
other things a right to a hearing in immigration court. The amendment 
was put forward by a bipartisan group of Senators and passed through 
the Senate Judiciary Committee on a 17-2 vote. Congress declared that 
the purpose of the provision was ``Preventing the trafficking of 
unaccompanied [noncitizen] children found in the United States by 
ensuring that they are not repatriated into the hands of traffickers or 
abusive families and are well cared for.''\3\ In making that change, 
the TVPRA recognized that our duty as a Nation was to ensure that we 
did not cause more harm to children through repatriation and 
deportation.
---------------------------------------------------------------------------
    \3\ House Report 101-430, ``William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2007,'' at 35.
---------------------------------------------------------------------------
    The TVPRA was not the first attempt to respond to the treatment of 
children at the border. In the 1990's and through the early 2000's, the 
Border Patrol routinely apprehended around 100,000 children a year, 
primarily from Mexico (see Figure 1). Concerns about their treatment 
led to the passage of the Trafficking Victims Protection Act of 2000, 
which first codified heightened protections for unaccompanied children, 
including access to Special Immigrant Juvenile Status. Similar concerns 
about the treatment of children in the custody of the former 
Immigration and Naturalization Service led Congress to define the term 
``unaccompanied alien child'' in the Homeland Security Act of 2002 and 
transfer care of those children to the Department of Health and Human 
Services, Office of Refugee Resettlement (``ORR'').
   Figure 1: Apprehensions of Children and Adults, fiscal year 2001-
                                2021\4\
---------------------------------------------------------------------------
    \4\ Customs and Border Protection, Stats and Summaries, Sector 
Profiles fiscal year 2000 to 2019, available at https://www.cbp.gov/
newsroom/media-resources/stats?title=Border+Patrol; Customs and Border 
Protection, ``Southwest Land Border Encounters,'' https://www.cbp.gov/
newsroom/stats/southwest-land-border-encounters. Estimates of the 
number of children apprehended in fiscal years 2020 and 2021 are 
generated by first applying a .518 multiplier to family unit 
apprehensions (the multiplier for fiscal year 2019) and then adding 
unaccompanied children apprehensions.
    Source.-- U.S. Customs and Border Protection.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In 2014, the United States first experienced a significant increase 
in unaccompanied children and asylum-seeking families at the border, 
with 68,541 unaccompanied children taken into Border Patrol custody 
that fiscal year. The Obama administration responded to this in ways we 
are familiar with today: Emergency influx shelters for unaccompanied 
children and crackdowns on asylum-seeking families.
    Advocates documented severely inadequate conditions of confinement 
in Border Patrol facilities designed primarily for single adults from 
Mexico. These conditions included children and adults being forced to 
sleep on cold concrete benches in overcrowded jail cells.\5\
---------------------------------------------------------------------------
    \5\ See Human Rights Watch, ``In the Freezer: Abusive Conditions 
for Women and Children in US Immigration Holding Cells,'' February 28, 
2018, https://www.hrw.org/report/2018/02/28/freezer/abusive-conditions-
women-and-children-us-immigration-holding-cells.
---------------------------------------------------------------------------
    2014 revealed that the U.S. Government has severe deficiencies in 
its ability to process unaccompanied children safely and efficiently at 
the border. But despite the opportunity to use 2014 as a lesson, the 
Government instead doubled down on deterrence-based policies for asylum 
seekers and failed to adequately prepare for the arrival of more 
unaccompanied children.
    This cycle has repeated itself several times since then, including 
in 2016 and 2019. More unaccompanied children and families come to the 
border, Border Patrol is caught off guard, ORR is forced to stand up 
emergency influx shelters, and politicians rattle sabers. Then 
inevitably the spike ends, apprehensions go back down, and we continue 
to avoid the difficult work of finding permanent solutions to the 
deficiencies in the U.S. humanitarian protection system.
    But even when the media spotlight on unaccompanied children goes 
away, the children themselves continue to go through their immigration 
cases. Recent data from the DHS Office of Immigrant Statistics 
published in December revealed an incredibly important fact: 
Unaccompanied children generally win their cases. When considering all 
non-Mexican unaccompanied children who have arrived at the border since 
2013, 57 percent of those whose cases were completed by mid-2020 were 
given permission to remain in the United States.\6\ This vital fact 
underscores the dire conditions from which children are fleeing.
---------------------------------------------------------------------------
    \6\ Department of Homeland Security Office of Immigration 
Statistics, ``Enforcement Lifecycle Reports,'' https://www.dhs.gov/
immigration-statistics/special-reports/enforcement-lifecycle.
---------------------------------------------------------------------------
    In 2020, after the COVID-19 pandemic hit, the Trump administration 
put in place what has become known as the Title 42 policy. Under Title 
42, the Border Patrol began expelling all migrants arriving at the 
border asserting National security concerns based on public health, 
regardless of whether they were families seeking asylum or 
unaccompanied children--or indeed whether or not they were infected 
with COVID-19. Unaccompanied children could not be expelled to Mexico 
and were instead put on planes and deported to their home countries, 
often after they had tested negative for COVID-19, a prerequisite for 
deportation to some countries.\7\
---------------------------------------------------------------------------
    \7\ Dara Lind and Lomi Kriel, ``ICE Is Making Sure Migrant Kids 
Don't Have COVID-19--Then Expelling Them to `Prevent the Spread' of 
COVID-19,'' ProPublica, August 10, 2020, https://www.propublica.org/
article/ice-is-making-sure-migrant-kids-dont-have-covid-19-then-
expelling-them-to-prevent-the-spread-of-covid-19.
---------------------------------------------------------------------------
    More than 13,000 unaccompanied children were expelled under Title 
42 before November 18, 2020, when a Federal judge ruled that the 
practice was illegal.\8\ On January 29, after a Federal appeals court 
briefly put that decision on hold, the Biden administration chose not 
to resume expelling unaccompanied children and the Centers for Disease 
Control and Prevention (``CDC'') issued an order formally exempting 
them from Title 42.
---------------------------------------------------------------------------
    \8\ Hamed Aleaziz, ``Border Officials Turned Away Unaccompanied 
Immigrant Children More Than 13,000 Times Under Trump's Pandemic 
Policy,'' Buzzfeed News, October 28, 2020, https://
www.buzzfeednews.com/article/hamedaleaziz/border-officials-turned-away-
unaccompanied-immigrants.
---------------------------------------------------------------------------
    Despite Title 42, the number of people coming to the border, 
including unaccompanied children, began rising steadily after lockdowns 
lifted across Mexico and Central America in May 2020. This rise 
followed shocks to the region caused by severe economic instability due 
to the pandemic, escalating violence in places like the Mexican states 
of Michoacan and Guerrero, devastation caused by Hurricanes Eta and 
Iota, and long-term problems such as corruption, violence, impunity, 
and climate change.
    Beginning in spring 2020, the number of single adults coming to the 
border seeking to enter the United States began rising rapidly, from a 
low of 14,754 in April 2020 to 62,041 in December 2020. Under Title 42, 
single adults would be rapidly processed at the border and sent right 
back to Mexico where they could try to cross again the same day. The 
rate at which people crossed the border multiple times rose from 7 
percent in March 2020 to 40 percent by October 2020. This increase in 
repeat attempts was in part driven by people's inability to obtain 
safety while waiting at the border for the United States to begin 
accepting asylum requests again, and the growing backlog of people 
waiting for months, if not years, for the resumption of humanitarian 
processing at the border.
    By September 2020, border apprehensions had already reached levels 
for a September not seen since 2006 (see Figure 3). This trend 
continued through the fall, and October 2020, November 2020, and 
December 2020 were all the highest apprehension totals for those months 
since 2006.\9\
---------------------------------------------------------------------------
    \9\ Customs and Border Protection, ``U.S. Border Patrol Monthly 
Apprehensions (Fiscal Year 2000--Fiscal Year 2019),'' https://
www.cbp.gov/sites/default/files/assets/documents/2020-Jan/
U.S.%20Border%20Patrol%20Monthly%20Apprehensions%20%28FY%202000%20%20FY%
- 202019%29_1.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    By December 2020, apprehensions of unaccompanied children had hit 
levels last seen in fall 2019 and ORR was already at 67 percent 
capacity.\10\ Despite the clear trends, the Trump administration made 
no effort to expand shelter capacity until January 15, just 5 days 
before President Biden took office.\11\ When significantly more 
unaccompanied children and families began coming to the border in late 
January, insufficient bed space in ORR shelters led once again--as it 
did in 2014 and 2019--to high numbers of unaccompanied children stuck 
in Border Patrol custody.
---------------------------------------------------------------------------
    \10\ Dara Lind, `` `No Good Choices': HHS Is Cutting Safety Corners 
to Move Migrant Kids Out of Overcrowded Facilities,'' ProPublica, April 
1, 2021, https://www.propublica.org/article/no-good-choices-hhs-is-
cutting-safety-corners-to-move-migrant-kids-out-of-overcrowded-
facilities.
    \11\ Julia Ainsley, Jacob Soboroff, and Laura Strickler, `` 
`Sitting on their hands': Biden transition officials say Trump 
officials delayed action on child migrant surge,'' NBC News, March 24, 
2021, https://www.nbcnews.com/politics/immigration/sitting-their-hands-
biden-transition-officials-say-trump-officials-delayed-n1261934.
---------------------------------------------------------------------------
    The increase in unaccompanied children is also driven by policies 
kept in place by the Biden administration, including the closure of 
ports of entry to asylum seekers and the practice of expelling families 
back to Mexico under Title 42. Some families forced back to Mexico have 
made the agonizing decision to send their children across the border 
alone,\12\ making the decision that Moses' mother made thousands of 
years ago--better to send your child into the arms of a kind stranger 
than risk death by remaining where they are now.
---------------------------------------------------------------------------
    \12\ Dianne Solis, ``Parents face decision to send migrant children 
alone across border in rising numbers,'' Dallas Morning News, April 9, 
2021, https://www.dallasnews.com/news/immigration/2021/04/09/parents-
face-decision-to-send-migrant-children-alone-across-border-in-rising-
numbers/.
---------------------------------------------------------------------------
    Over the past 3 months, the Biden administration has begun standing 
up an extensive network of emergency influx shelters to reduce the 
bottleneck in CBP custody. This effort has proven successful in 
reducing the number of children held in CBP custody. Over the last 
month, the number of unaccompanied children in CBP custody has dropped 
from a high of 5,767 on March 28 to a low of 1,741 on April 22 (see 
Figure 4).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    While influx shelters are necessary given the current situation at 
the border, we must not accept them as a new norm. Emergency influx 
shelters are exempt from State licensing requirements and there have 
been prior reports of abuse carried out by insufficiently vetted influx 
shelter staff.\13\ Given the concerns raised about conditions in these 
shelters, ORR should ensure that no child is held in an influx center 
for longer than the absolute minimum amount of time required to place 
the child with a sponsor.
---------------------------------------------------------------------------
    \13\ Monique O. Madan, ``Sex abuse claims revealed at Homestead 
shelter, where staff was not vetted for child abuse,'' Miami Herald, 
July 15, 2020, https://www.miamiherald.com/news/local/immigration/
article244244402.html.
---------------------------------------------------------------------------
    Data also suggests that we have already hit at least a temporary 
peak in the arrival of unaccompanied children. Despite predictions that 
the number of unaccompanied children encountered at the border would 
continue rising in April,\14\ current data suggests a drop in 
unaccompanied children of roughly 10-15 percent from March to 
April.\15\ This will hopefully give the Biden administration breathing 
room to begin the long-overdue process of restoring access to 
humanitarian protections at the border for all, not just unaccompanied 
children, and ensuring that asylum seekers are treated in a safe, 
humane, and efficient manner.
---------------------------------------------------------------------------
    \14\ Stef W. Knight, ``Scoop: Kids' border surge expected to last 
7+ months,'' Axios, March 28, 2021, https://www.axios.com/border-
crisis-record-number-migrant-kids-89cd0b23-a588-4f01-9547-
d6f04b262542.html.
    \15\ Nick Miroff, ``Border crossings leveling off but remain near 
20-year high, preliminary April data shows,'' Washington Post, April 
23, 2021, https://www.washingtonpost.com/national/mexico-border-
crossings-april/2021/04/23/31206e82-a459-11eb-8a6d-
f1b55f463112_story.html (``About 550 teens and children have been 
crossing the border without parents each day in recent weeks, data 
show, down 10 to 15 percent from late March.''
---------------------------------------------------------------------------
    Despite claims to the contrary, the U.S. border is not open. Even 
those seeking asylum at ports of entry are turned away nearly 
universally. Halfway through the fiscal year, just 945 unaccompanied 
children have been processed at ports of entry across the U.S.-Mexico 
border, compared to 4,614 in the entire fiscal year 2019 and 8,624 in 
the entire fiscal year 2018. CBP claims these restrictions on 
processing asylum seekers at ports of entry are necessary to protect 
the Nation from COVID-19. But while restrictions on non-essential 
travel remain in place at ports of entry, nearly 290,000 people cross 
the border every day from Mexico, with no testing requirements in 
place.\16\
---------------------------------------------------------------------------
    \16\ Department of Transportation, Monthly Border Crossing Data, 
https://www.bts.gov/browse-statistical-products-and-data/border-
crossing-data/border-crossingentry-data.
---------------------------------------------------------------------------
    Because asylum seekers waiting in Mexico cannot begin the asylum 
process at the ports of entry, some have become desperate and chosen to 
cross the border between ports of entry and hope they will be allowed 
to seek protection that way. The Department of Homeland Security has 
long been aware that its practice of choking off access to asylum at 
ports of entry will drive some to cross improperly between ports of 
entry,\17\ yet it continues to keep restrictions in place with no 
apparent plan to process those who have been waiting according to 
current Government policies.
---------------------------------------------------------------------------
    \17\ See, e.g., Department of Homeland Office of Inspector General, 
``CBP Has Taken Steps to Limit Processing of Undocumented Aliens at 
Ports of Entry,'' October 27, 2020, https://www.oig.dhs.gov/sites/
default/files/assets/2020-10/OIG-21-02-Oct20.pdf.
---------------------------------------------------------------------------
    As we are seeing once again, a failure to make long-term 
investments in our humanitarian protection systems has led to repeated 
cycles of self-inflicted chaos. Decades of deterrence-based policies 
have not produced anything beyond short-term declines in the number of 
people seeking asylum, which reverse once push factors in people's home 
countries become too high. If there is one thing we can learn from our 
experience with asylum seekers and unaccompanied children in recent 
years, it is that the solution is not to turn families and children 
away and send them back to harm in their home countries.
    Solutions to the current situation at the border should not have 
``reducing numbers'' as their primary goal, but instead to ensure the 
creation of a unified humanitarian approach for all groups--whether 
single adults, families, or children--so that asylum seekers can access 
protection without falling into the hands of the cartels or being 
treated like security threats by CBP. Some steps toward that end 
include:
  <bullet> Building a new border infrastructure that allows for the 
        efficient and humane processing of children that is flexible 
        enough to address extraordinary migration events.
  <bullet> Stop blocking access to asylum at ports of entry through 
        metering, which drives migrants, including unaccompanied 
        children, into the hands of the cartels.
  <bullet> Embed ORR staff into every step of the border processing 
        system, allowing them to begin the sponsorship process for 
        unaccompanied children immediately after apprehension and 
        process non-parental relatives such as grandparents as sponsors 
        immediately, avoiding family separations.
  <bullet> Expand access to licensed child welfare workers at the 
        border.
  <bullet> Ensure that no child goes through the immigration court 
        process without a lawyer.
    The American Immigration Council looks forward to working with the 
committee on these solutions.

    Ms. Barragan. Thank you for your testimony.
    With that, I would now move to recognize Mayor Robert 
Garcia to summarize his statement for 5 minutes.

  STATEMENT OF ROBERT GARCIA, MAYOR, CITY OF LONG BEACH, LONG 
                       BEACH, CALIFORNIA

    Mr. Garcia. Good afternoon, Chairwoman Barragan, Ranking 
Member Higgins, and distinguished Members of the subcommittee. 
My name is Robert Garcia. I am the mayor of Long Beach, 
California, and I am here today to address the subcommittee 
about our city's support of what is really a humanitarian 
mission, and that is establishing a Federal migrant shelter 
here at the Long Beach Convention Center.
    Now, Long Beach is approximately home to about half a 
million people of all backgrounds. We are in southern 
California, and we have a rich history of welcoming immigrants 
from around the world, in particular Cambodian refugees that 
fled persecution.
    Now, my personal history is also one of an immigrant. I 
came to this country when I was 5 years old from Peru and under 
different circumstances, but still poor and without many 
services. I became a U.S. citizen when I was 21. It was the 
proudest day of my life. So I come to the subcommittee with the 
lived experience of an immigrant also seeking a better life.
    Now, the Long Beach Convention Center is currently set up 
to host a total of a thousand migrant children at any time from 
5 to 17. I want to be very clear, these facilities should be 
temporary and the goal should be quick family reunification.
    Now, the city's role in this humanitarian effort is to 
provide the facility and to connect HHS with local service 
providers while HHS operates the site. The goal is quick family 
reunification and our temporary shelter is through August 2, 
2021.
    Now, every child that comes to the Long Beach facility is 
provided with the best of care. HHS is very dedicated to this. 
These children are welcomed. We are grateful that they are 
shown kindness, similar to other immigrants and even myself 
when I came to the United States, from many people around the 
community.
    These children are provided 3 meals a day with snacks 
prepared by our convention center staff. Classrooms are set up. 
They get education for multiple hours a day from folks from 
around the community and the surrounding area.
    Now, the Long Beach facility also offers outdoor space and 
activities for children to enjoy. There are indoor recreational 
activities and outdoor, including books, video games, and 
movies.
    Important services are being provided by HHS and partner 
agencies to every child, most importantly medical service. UCLA 
Medical Center actually has a full-size clinic with diagnostic 
and immediate care that is provided. The utmost care to each 
child's needs is being met within the center.
    In addition, there are other services: Social workers, 
mental health care, legal representation, and resources to 
manage their needs. We have tried to pair also our HHS partners 
with local organizations to help in this endeavor to make the 
Long Beach shelter as much of a success as possible.
    Now, it is important enough that these children have come 
from the border. Most arrive alone without parents or family, 
and bringing them to shelters like ours is certainly more 
humane than leaving them at the border.
    Now, HHS is focused on quick family reunification. It is 
important to note that temporary sites like the Long Beach 
Convention Center are necessitated by this humanitarian 
mission, but these sites should not replace immigration 
reforms.
    Now, it breaks my heart that we have an immigration system 
that is broken. It has been decades since we have had any type 
of immigration reform, and strong immigration reform that is an 
investment to our neighbors, humanitarian missions, and 
diplomacy are needed to address current migration of children 
and others.
    Now, central to any immigration reform effort, as we all 
know, must be a clear and fair pathway for citizenship for all 
those that are undocumented in this country. That includes 
support for Dreamers and those in the military. They should go 
to the front of the line. A strong guest worker program that 
must be developed with support of our neighboring countries. We 
must provide additional aid and support to Mexico and Central 
American countries.
    Now, these reforms are not only necessary but would be 
transformational to our economy, National security, and 
millions of families. But we must also expand resources for 
asylum seekers, so the unaccompanied children at the border 
have access to legal counsel, interpretation, and other 
critical services.
    We should be looking at rescinding Title 42 and fully 
restoring access to asylum at our borders. We must ensure that 
children are not held at border facilities, which, honestly, 
are no place for children. We need to care for children in 
facilities that are scaled to meet their needs, and we must 
partner with local agencies on the ground to help get resources 
as fast as possible to these children.
    Now, our top priority should be to address the underlying 
reasons why these temporary facilities are needed in the first 
place. With additional resources and immigration reform 
efforts, we can prevent the need for these types of shelters, 
period.
    Now, I want to thank you for welcoming me to address the 
subcommittee. We are grateful to be able to help in this 
humanitarian mission, and I look forward to any questions. 
Thank you.
    [The prepared statement of Mr. Garcia follows:]
                  Prepared Statement of Robert Garcia
                             April 27, 2021
    Good afternoon Chairwoman Barragan, Ranking Member Higgins, and 
distinguished Members of the subcommittee.
    My name is Robert Garcia, and I am the mayor of Long Beach, 
California. I am here today to address the subcommittee about our city 
supporting what really is a humanitarian mission--helping to establish 
a Federal migrant children emergency shelter at the Long Beach 
Convention Center.
    Long Beach is home to approximately half a million people of all 
backgrounds. Located in Southern Los Angeles County, our city has a 
rich history of welcoming immigrants and refugees from around the 
world. In particular, refugees from Cambodia that fled persecution are 
an important part of our community.
    My personal history is also one of an immigrant. I came to this 
country from Peru when I was 5 years old. I came under different 
circumstances than the children we are hosting, but still poor and 
without many services. I became an American citizen when I was 21 years 
old, and it was the proudest day of my life. I come to this 
subcommittee hearing today with the lived experience of an immigrant 
seeking a better life and the American dream.
    The Long Beach Convention Center is currently set up to host a 
total of 1,000 migrant children at any given time, ranging from ages 5 
to 17. I want to be very clear that these facilities should be 
temporary and that the top goal needs to be quick family reunification. 
This partnership with HHS was approved unanimously by the Long Beach 
City Council because our city believes it was the right and 
compassionate thing to do. The city's role in this humanitarian effort 
is to provide the facility and to connect HHS with local service 
providers, while HHS operates the site. The mission of the facility is 
quick family reunification, using the space temporarily through August 
2, 2021.
    Every child that comes to the Long Beach facility is provided with 
the best of care. It's very important to me that these children are 
welcomed and cared for in every way--much like those who showed my 
family and me kindness when we came to the United States.
    They are provided with 3 meals a day and snacks prepared by our 
convention center catering staff. Multiple classrooms are set up, and 
every child is provided with hours of class time a day, with teachers 
from Long Beach and the surrounding area.
    The Long Beach facility also offers outdoor space and activities 
for children to enjoy. In addition, there are indoor recreational 
activities, including books, video and board games, and movies.
    Important services are being provided by HHS and partner agencies 
to every child--most importantly, medical service. In partnership with 
UCLA medical center, the Long Beach site has a full-size clinic where 
diagnostic and immediate care is provided. The utmost care is being 
taken to look after each child's medical needs to ensure their safety 
and the safety of those around them. This is in addition to other 
services, including social workers, mental health care, legal 
representation and resources to manage their needs.
    We have paired the Federal Government in Long Beach with local 
organizations and providers to help in this endeavor. This is a whole-
of-Long-Beach approach to make this shelter a success.
    These children have come directly from the border. Most arrive 
alone without parents or family. Bringing them to shelters like ours is 
a more humane approach to caring for children than keeping them at the 
border. HHS is focused on quick family reunification. Temporary sites 
like the Long Beach Convention Center are necessitated by this 
humanitarian mission, but we must ensure that these sites do not 
replace lasting immigration reforms. These sites should not become the 
norm.
    It breaks my heart that we have an immigration system today that is 
broken. It's been decades since we've had any kind of immigration 
reform. Strong immigration reform, investment in our neighbors, 
humanitarian missions, and diplomacy are needed to address the current 
migration of children and others.
    Central to any immigration reform effort needs to be a clear and 
fair pathway to citizenship for those who are undocumented in our 
country.
    DREAMERS and those who have served in the military should go to the 
front of the line. And a strong guest worker program must be developed 
with input and support from neighboring countries. We must also provide 
additional aid and support to Mexico and Central American countries. 
These reforms are not only necessary but would be transformational for 
our economy, National security, and millions of families.
    We must also expand resources for asylum seekers, so that 
unaccompanied children arriving at the border have access to counsel, 
interpretation, and other critical services. We should be looking at 
rescinding Title 42 and fully restoring access to asylum at our 
borders. We must ensure children are not held at border facilities, 
which are no place for children. We need to care for children in 
facilities that are scaled to meet their needs. And we must work with 
HHS and local partners to identify sponsors and resources for these 
children as fast as possible.
    Our top priority should be to address the underlying reasons why 
these temporary facilities are needed in the first place. With 
additional resources and immigration reform efforts, we can prevent the 
need for emergency intake sites period.
    Thank you for welcoming me today to address this subcommittee. I 
look forward to your questions.

    Ms. Barragan. Thank you for your testimony, Mayor Garcia. 
Much appreciated.
    Now we will move on to our next witness. I would like to 
recognize Ms. Podkul to summarize her statement for 5 minutes.

  STATEMENT OF JENNIFER PODKUL, VICE PRESIDENT FOR POLICY AND 
            ADVOCACY, KIDS IN NEED OF DEFENSE (KIND)

    Ms. Podkul. Thank you, Chairwoman Barragan, Ranking Member 
Higgins, and distinguished Members of the subcommittee. My name 
is Jennifer Podkul. I am the vice president of policy and 
advocacy at Kids in Need of Defense. KIND is a preeminent U.S.-
based non-Governmental organization devoted to protection of 
unaccompanied and separated children.
    KIND envisions a world in which every unaccompanied child 
on the move has acces to legal counsel and has their rights and 
well-being protected as they migrate alone in search of safety. 
Since its inception, KIND has received referrals for more than 
21,000 cases and now serves over 5,000 children annually.
    I am grateful the subcommittee is holding today's hearing 
to explore the ways we can transform our protection system into 
one that fully upholds children's rights and well-being as they 
migrate alone in search of safety. There have been high numbers 
of children, both unaccompanied as well as those traveling with 
their parents or legal guardians, coming to our border asking 
for protection for almost a decade. This has been due to the 
perpetually high levels of violence, including sexual and 
gender-based violence, abuse, and impunity, that have 
devastated many countries in Central America. These dangers 
have only been exacerbated by the COVID pandemic and 2 recent 
devastating hurricanes.
    Despite many attempts by prior administrations to deter 
kids from making the journey and seeking protection in the 
United States, they have continued to flee here. This is 
because you can't deter away a refugee situation.
    Not only have the drivers of migration worsened, but the 
use of Title 42 authority against children, in violation of the 
Trafficking Victims Protection Reauthorization Act, created an 
artificial build-up of kids languishing in Northern Mexico, who 
had no choice but to request protection again. Thousands of 
children were simply told the United States was closed for 
business and then they were summarily dumped on the other side 
of the border, with no concern for their safety, exposing them 
to a heightened risk of trafficking or other grave harm.
    For example, 3 children between the ages of 3 and 9 were 
traveling with their mother to the U.S.-Mexico border. 
Tragically, the mother died. When the children were orphaned, 
they were taken in by the taxi driver who drove the mother to 
the hospital. They lived with this stranger until they were 
finally allowed to present to U.S. officials.
    Each child asking for protection at the border has a story. 
Too many have suffered this kind of unimaginable trauma which 
has brought them to our doorstep.
    The Biden administration has already made important strides 
in restoring access to protection and due process for 
unaccompanied children. They have put policies in place to 
expedite reunification so children do not needlessly languish 
in Government custody, such as eliminating the information-
sharing agreement between DHS and HHS and streamlining sponsor 
requirements. They are restarting the Central American Minors 
Program, to allow children to apply for protection closer to 
their country of origin so that some may not even have to make 
the dangerous journey. Finally, they have made a commitment to 
investing in sending countries to finally address the root 
causes of migration so that children never have to leave their 
homes.
    These initial commitments will go a long way. However, we 
need systematic change that will ensure we are not here time 
and again having to scramble to put children in unlicensed, 
make-shift facilities, and to make sure children do not have to 
wait years for the resolution of their applications for 
humanitarian aid.
    We need to establish a fundamentally humanitarian reception 
model at the border that includes CBP hiring child welfare 
professionals to screen and care for children, and have an HHS 
staff collocated at the reception centers to expedite the 
transfer of children to licensed facilities and expedite family 
reunifications.
    ORR must move away from running influx facilities and 
instead expand capacity in family-based and small-scale 
shelters that can be more responsive to migration trends.
    Finally, we need to ensure children's cases are considered 
fairly and efficiently and that a child always has an attorney 
to support them through the complex process. We all win when we 
do right by these kids.
    Let me just close with a quote from a KIND client who 
joined the U.S. Marines after winning his asylum case. He said: 
I will always be deeply grateful for those who helped me along 
the way. I am only here now because of them, and I pledge to 
help others as this country has helped me. I will defend the 
values of freedom, liberty, and justice for all as only one who 
has been denied those fundamental rights can.
    Thank you.
    [The prepared statement of Ms. Podkul follows:]
                 Prepared Statement of Jennifer Podkul
                             April 27, 2021
    Chairwoman Barragan, Ranking Member Higgins, and Members of the 
subcommittee, thank you for the opportunity to discuss the way forward 
to a humanitarian protection system that safeguards unaccompanied 
children throughout their migration journey.
    My name is Jennifer Podkul, and I serve as vice president of policy 
and advocacy for Kids in Need of Defense (KIND). Kids in Need of 
Defense (KIND) is the preeminent U.S.-based non-Governmental 
organization devoted to protection of unaccompanied and separated 
children. KIND envisions a world in which every unaccompanied child on 
the move has access to legal counsel and has their rights and well-
being protected as they migrate alone in search of safety. In 2008, 
KIND was founded by the Microsoft Corporation and UNHCR Special Envoy 
Angelina Jolie to address the gap in legal services for unaccompanied 
minors. KIND now has offices across the United States and in Mexico 
that provide unaccompanied children with holistic care that includes 
legal assistance and social services. Through strategic partnerships, 
we provide pro bono legal representation for refugee and migrant 
children across the country. Since its inception, KIND has received 
referrals for more than 21,000 cases and now serves over 5,000 children 
annually in partnership with nearly 700 law firm, corporate, law 
school, and bar association partners. In addition, through our 
comprehensive social services programming, KIND complements its legal 
efforts by bringing a truly holistic approach to protecting children 
after their arrival in the United States. We have connected thousands 
of children--and their caretakers--with essential medical care, mental 
health care, educational opportunities, and crisis intervention to 
ensure their safety and well-being.
    Beyond U.S. borders, KIND's Mexico-based offices and its 
programming in Central America works with partners on the ground to 
address the root causes of migration, protect children during 
migration, and connect repatriated children to essential services. 
Through its European Initiative, KIND and partners in Belgium, France, 
Greece, Ireland, and the United Kingdom work to ensure access to high-
quality pro bono legal assistance for unaccompanied children in Europe.
    Each of these efforts informs KIND's robust State, National, and 
international advocacy and public education work to champion policies 
and laws that protect unaccompanied children on the move no matter 
where they are in their migration journey.
    KIND's experience yields a unique vantage into the challenges 
facing the large numbers of unaccompanied children currently seeking 
protection in the United States. It is important to underscore that 
these children are one of the world's most vulnerable groups. Without a 
parent or legal guardian, they have fled hundreds or thousands of miles 
to the United States to escape dangers including severe violence, 
abuse, and human trafficking. KIND has observed how increases in 
arrivals of unaccompanied children during prior administrations brought 
into relief the need for fundamental reforms that would ensure--both 
during and outside of influx periods--the safety and well-being of 
those children along with the operational efficacy of the Government 
agencies charged with their fair and humane treatment. Unfortunately, 
many of those reforms have gone unadopted. Today's hearing presents an 
opportunity to address how the Biden administration and this Congress 
can chart a different course, and by doing so, transform our protection 
system into one that fully upholds children's rights and well-being as 
they migrate alone in search of safety.
  recent increase in unaccompanied children seeking protection at the 
                          u.s. southern border
    Over the past decade, significantly increased numbers of 
unaccompanied children have fled to the United States in pursuit of 
humanitarian protection. In fiscal year 2014, CBP encountered 59,692 
unaccompanied children at the U.S. Southern Border.\1\ That figure 
climbed to 72,875 in fiscal year 2019 \2\--a 1-year record. More 
recently, encounters of unaccompanied children began rising in April 
2020, then continued into the current year.\3\ In March 2021, over 
18,500 unaccompanied children were encountered at the U.S. Southern 
Border--the highest total of any month.\4\ At present, unaccompanied 
children continue to request protection at the U.S. Southern Border on 
a large scale, though in recent weeks arrivals have declined.\5\
---------------------------------------------------------------------------
    \1\ See Congressional Research Service, ``Unaccompanied Alien 
Children: An Overview'' (Oct. 9, 2019); https://fas.org/sgp/crs/
homesec/R43599.pdf.
    \2\ Id.
    \3\ American Immigration Council, ``Facts About the Current 
Situation at the Border'' (Mar. 23, 2021); https://
www.americanimmigrationcouncil.org/news/facts-about-current-situation-
border.
    \4\ Julia Ainsley ``Record number of unaccompanied children crossed 
the border in March'' NBC News (Apr. 2, 2021); https://www.nbcnews.com/
politics/immigration/record-number-unaccompanied-children-crossed-
border-march-n1262901.
    \5\ Nick Miroff, ``Border crossings leveling off but remain near 
20-year high, preliminary April data shows'' Washington Post (Apr. 23, 
2021); https://www.washingtonpost.com/national/mexico-border-crossings-
april/2021/04/23/31206e82-a459-11eb-8a6d-f1b55f463112_story.html.
---------------------------------------------------------------------------
    As in the past, the high number of unaccompanied children currently 
seeking humanitarian protection reflects a host of intersecting 
factors. Chief among them is the on-going humanitarian crisis in the 
northern Central American nations of El Salvador, Guatemala, and 
Honduras: The countries of origin of most unaccompanied children 
arriving at the U.S.-Mexico border. Wide-spread gang violence; sexual- 
and gender-based violence; corruption; poverty; natural disasters; and 
other dangers plague the region.\6\ In key respects, the COVID-19 
pandemic and the devastation caused by Hurricanes Iota and Eota 
intensified these perils.\7\ As a consequence, many children have no 
choice but to escape their countries of origin and seek safety abroad.
---------------------------------------------------------------------------
    \6\ See Paula Dupraz-Dobias; ``No easy solutions for tackling the 
Central American roots of the migration crisis'' The New Humanitarian 
(Apr. 21, 2021); https://www.thenewhumanitarian.org/analysis/2021/4/21/
tackling-root-causes-of-migration-crisis-in-central-america.
    \7\ Nicole Narea, ``Migrants are heading north because Central 
America never recovered from last year's hurricanes'' Vox (Mar. 22, 
2021); https://www.vox.com/policy-and-politics/2021/3/22/22335816/
border-crisis-migrant-hurricane-eta-iota.
---------------------------------------------------------------------------
    Rather than strengthen foreign assistance to the region to address 
these root causes of forced child migration, the Trump administration 
reduced that aid.\8\ It also weakened or dismantled in-region 
protection mechanisms, like the Central American Minors Refugee/Parole 
(CAM) program,\9\ that enabled certain vulnerable children to relocate 
to safety without a dangerous trek north. These and other actions only 
heightened the forces compelling children to flee to the United States 
for protection.
---------------------------------------------------------------------------
    \8\ Lesley Wroughton, Patricia Zengerle, ``As promised, Trump 
slashes aid to Central America over migrants'' Reuters (Jun. 17, 2019); 
https://www.reuters.com/article/us-usa-immigration-trump/as-promised-
trump-slashes-aid-to-central-america-over-migrants-idUSKCN1TI2C7.
    \9\ David Nakamura, ``Trump administration ends Obama-era 
protection program for Central American minors'' Washington Post (Aug. 
16, 2017); https://www.washingtonpost.com/politics/trump-
administration-ends-obama-era-protection-program-for-central-american-
minors/2017/08/16/8101507e-82b6-11e7-ab27-1a21a8e006ab_story.html.
---------------------------------------------------------------------------
    Additional Trump administration policies created an artificial 
bottleneck at the U.S.-Mexico border that has contributed to the 
increase in unaccompanied child arrivals this year. In March 2020, 
invoking a rarely used public health law under Title 42 of the U.S. 
Code, the administration issued an order broadly suspending the entry 
of protection seekers, including unaccompanied children, into the 
United States.\10\ Though the Trump administration characterized this 
``Title 42'' policy as a necessary public health response to the COVID-
19 pandemic, independent public health experts have made clear that it 
lacks a valid public health rationale and that the U.S. Government is 
fully capable of upholding our humanitarian laws and values while also 
protecting public health and safety.\11\ Pursuant to Title 42, the 
Trump administration ``expelled'' over 15,000 unaccompanied children 
\12\--swiftly returning them to Mexico, Central America, and other 
countries--and to the very dangers they fled.
---------------------------------------------------------------------------
    \10\ Centers for Disease Control and Prevention, 85 Fed. Reg. 17060 
(March 20, 2020).
    \11\ Priscilla Alvarez, ``Health experts slam Trump 
administration's use of public health law to close border'' CNN (May 
18, 2021); https://www.cnn.com/2020/05/18/politics/border-closure-
public-health/index.html.
    \12\ Camilo-Montoya-Galvez, Adam Verdugo, ``Nearly 19,000 
unaccompanied children entered U.S. border custody in March--an all-
time high'' CBS News (Apr. 2, 2021); https://www.cbsnews.com/news/
immigration-unaccompanied-children-border-custody-record-19k/.
---------------------------------------------------------------------------
    These expulsions violated the Trafficking Victims Protection 
Reauthorization Act of 2008 (TVPRA) by stripping children of vital 
legal safeguards and ultimately any meaningful opportunity to seek 
humanitarian relief.\13\ As a result, expelled children faced a 
heightened risk of human trafficking, persecution, and other grave 
harm--precisely the outcomes that the TVPRA was intended to prevent. 
For instance, by eliminating screenings of these children at the border 
for trafficking concerns, Title 42 meant that CBP failed to observe and 
respond to any evidence that children were trafficked into the United 
States for commercial sex or forced labor or would have faced return 
into trafficking situations.\14\ Moreover, by abandoning the legal 
definition of ``unaccompanied alien child'' provided for in the 
Homeland Security Act \15\ in the course of expulsions, the Trump 
administration incentivized the rapid return of children to Mexico 
together with unscreened adults who could have posed a danger to them. 
Expelled children were also deprived of intakes and assessments by 
attorneys and social workers specially trained to identify protection 
needs among this vulnerable population following their transfer to ORR 
custody and release to sponsors. Far from deterring or disrupting human 
trafficking, Title 42 increased the risk that children would face 
exploitation and harm by unlawfully and callously disregarding anti-
trafficking safeguards codified by Congress.\16\
---------------------------------------------------------------------------
    \13\ KIND Policy Brief, ``Sending Children Back to Danger,'' (Oct. 
8, 2020); https://supportkind.org/wp-content/uploads/2020/10/Updated-
Expulsions-at-US-MX-border-10.8.- 20.pdf.
    \14\ Id.
    \15\ Pub. L. 107-296.
    \16\ KIND Policy Brief, ``Border Closure Exposing Children to 
Heightened Risk of Trafficking and Exploitation'' (Apr. 28, 2020); 
https://supportkind.org/wp-content/uploads/2020/05/UC-Expulsion-and-
Trafficking-5.19.pdf.
---------------------------------------------------------------------------
    In the process, thousands of children expelled at the border were 
left with no viable means of obtaining protection amid perilous 
conditions exacerbated by the pandemic and natural disasters in the 
region. Facing the same or worse dangers that initially compelled their 
flight to the United States in search of safety, many of these children 
had no other option but to request protection at the border once more 
when the Biden administration exempted unaccompanied children from 
Title 42,\17\ helping ensure that policies governing the treatment of 
these children complied with Federal law.
---------------------------------------------------------------------------
    \17\ Camilo Montoya-Galvez, ``U.S. will not expel unaccompanied 
migrant children under Trump-era policy now being reviewed'' CBS News 
(Feb. 3, 2021); https://www.cbsnews.com/news/migrant-children-biden-
administration-will-not-expel-trump-policy/.
---------------------------------------------------------------------------
 current challenges at the u.s. southern border and in the orr shelter 
                                 system
    Despite the 2014 and 2019 upturns in unaccompanied children seeking 
protection at the U.S. Southern Border, previous administrations failed 
to introduce changes necessary to ensure that the border and shelter 
systems for unaccompanied children met those children's safety needs 
and maintained operational efficacy, whether during or outside of 
emergency situations. The large numbers of recently arrived children, 
combined with a border model and ORR network long in need of 
fundamental reform, have therefore presented significant challenges to 
the welfare of those children and the functionality of those systems.
    Over multiple administrations, for example, DHS has persisted in 
upholding a predominantly ``law enforcement'' framework at the border--
rooted in policies of deterrence instead of protection--that neglects 
the vulnerabilities of children, jeopardizes their safety, and 
violates, rather than enforces, long-standing laws. Reflecting this 
approach, DHS vests CBP law enforcement personnel, rather than child 
welfare professionals, with responsibility for overseeing children's 
care in CBP detention facilities and conducting sensitive protection 
screenings of traumatized children, despite these personnel's lack of 
expertise in trauma-informed interviewing and children's emotional, 
physical, and developmental needs. This model has spawned perennial 
violations of TVPRA requirements. In 2015, for example, the Government 
Accountability Office documented extensive noncompliance by CBP agents 
and officers with TVPRA screening protocols for unaccompanied children 
from Mexico.\18\ Despite these systemic problems, DHS has failed to 
fulfill Congress's directive in fiscal year 2021 appropriations report 
language \19\ to hire specially-trained child welfare professionals at 
all southern land CBP facilities who would perform children's 
protection screenings and oversee their care.
---------------------------------------------------------------------------
    \18\ GAO, ``Unaccompanied Alien Children: Actions Needed to Ensure 
Children Receive Required Care in DHS Custody'' (Jul. 14, 2015); 
https://www.gao.gov/assets/680/671393.pdf.
    \19\ H.R. Report 116-458.
---------------------------------------------------------------------------
    Nor has the Federal Government adopted reforms that would allow HHS 
personnel with child welfare expertise to co-locate in CBP facilities. 
Under this arrangement, those HHS staff could accelerate the sponsor 
vetting process for unaccompanied children who arrive with trusted 
caregivers. And for many years CBP has detained children in manifestly 
unfit facilities characterized by substandard conditions that damage 
their physical and psychological health and limit access to 
counsel.\20\
---------------------------------------------------------------------------
    \20\ See, e.g., University of Chicago Law School--Global Human 
Rights Clinic, et al, ``Neglect and Abuse of Unaccompanied Immigrant 
Children by U.S. Customs and Border Protection'' (May 2018); https://
chicagounbound.uchicago.edu/cgi/viewcontent.cgi?article=1001&context=- 
ihrc.
---------------------------------------------------------------------------
    Prior administrations also failed to take up essential ORR reforms. 
ORR has long relied on large-scale congregate care settings unsuitable 
for vulnerable children, without sufficiently expanding capacity in 
smaller-scale shelters and family-based care settings better aligned 
with domestic child welfare laws, such as the bipartisan Families First 
Prevention Services Act of 2018,\21\ and that serve children's best 
interests. Not only that, but many ORR facilities have failed to 
maintain proper conditions. On-going facility problems include the 
incidence of sexual abuse of children by facility staff, inadequate 
and/or misguided mental health treatment, and a lack of suitable 
accommodations for particularly vulnerable children. Additionally, 
under the Trump administration, ORR entered into an information-sharing 
agreement with DHS \22\ that discouraged potential sponsors from coming 
forward, delaying the release of unaccompanied children from ORR and 
their reunification with loved ones.
---------------------------------------------------------------------------
    \21\ Enacted as part of Public Law (Pub. L.) 115-123.
    \22\ KIND, A Timeline: How the Trump Administration is Rolling Back 
Protections for Children (Jul. 2020); https://supportkind.org/wp-
content/uploads/2020/07/A-Timeline_Updated-July-2020-1.pdf.
---------------------------------------------------------------------------
    Consequently, DHS and ORR were poorly positioned to manage the 
recent rise in arrivals of unaccompanied children at the U.S. Southern 
Border. On March 27, CBP held 5,767 unaccompanied children in its 
custody--the highest recorded total in the agency's history.\23\ 
Despite the TVPRA's requirement that DHS transfer unaccompanied 
children into ORR custody within 72 hours, many of these children 
languished in CBP detention facilities for well over 100 hours.\24\ CBP 
law enforcement personnel, rather than child welfare professionals 
trained in children's unique needs and challenges, have directed their 
care and conducted their protection screenings.
---------------------------------------------------------------------------
    \23\ Prisclla Alvarez, ``Number of unaccompanied migrant children 
in Customs and Border Protection custody falls 45 percent'' CNN (Apr. 
12, 2021); https://www.cnn.com/2021/04/12/politics/border-migrant-
children/index.html.
    \24\ Id.
---------------------------------------------------------------------------
    Children in ORR custody have also faced substantial challenges, as 
has ORR itself. The capacity of ORR's network of licensed children's 
shelters was already limited due to COVID-19 based occupancy 
restrictions that many of these congregate care facilities have 
operated under during the pandemic.\25\ The large numbers of arriving 
children further strained that capacity. In response, ORR activated an 
``influx facility'' in Carrizo Springs, Texas.\26\ ORR's on-line Policy 
Guide defines an influx facility as ``a type of care provider facility 
that opens temporarily to provide emergency shelter and services for 
UAC during an influx or emergency'' and sets forth standards governing 
such facilities' operations.\27\ Due partly to challenges in rapidly 
standing up new infrastructure, ORR has since established a number of 
emergency intake sites (EISs) where it is temporarily housing 
unaccompanied children.\28\ The Policy Guide does not define EISs, 
distinguish them from influx facilities, or identify minimum standards 
or other policies associated with these sites. However, an April 2, 
2021 Department of Health and Human Services (HHS) Fact Sheet 
delineates program responsibilities relating to EISs, states that these 
sites ``must provide basic standards of care to ensure the child's 
physical safety, access to legal services information, and access to 
emergency clinical services'' and acknowledges that, ``[d]ue to their 
emergency nature, EIS may not be able to provide a full range of 
services to UC . . . ''\29\
---------------------------------------------------------------------------
    \25\ Priscilla Alvarez, ``Biden administration tells facilities for 
migrant children to reopen to pre-pandemic levels'' (Mar. 5, 2021); 
https://www.cnn.com/2021/03/05/politics/immigration-border-crowding-
covid/index.html.
    \26\ Department of Health and Human Services, ``Carrizo Springs 
Influx Care Facility'' (Apr. 12, 2021); https://www.hhs.gov/programs/
social-services/unaccompanied-children/carrizo-springs-temporary-
influx-facility-update.html.
    \27\ ORR, Children Entering the United States Unaccompanied: 
Section 7; https://www.acf.hhs.gov/orr/policy-guidance/children-
entering-united-states-unaccompanied-section-7#7.2.
    \28\ Joel Rose, ``Fewer Migrant Children Held In Border Detention 
Facilities, But Challenges Remain'' (Apr. 15, 2021); NPR; https://
www.npr.org/2021/04/15/987615232/fewer-migrant-children-held-in-border-
detention-facilities-but-challenges-remain.
    \29\ HHS, ``Fact Sheet: Unaccompanied Children (UC) Program'' (Apr. 
2, 2021); https://www.hhs.gov/sites/default/files/uac-program-fact-
sheet.pdf.
---------------------------------------------------------------------------
    As the administration works to expedite children's release from 
emergency and licensed facilities, it will become even more critical 
that ORR provides children with post-release services, include legal 
representation and social services, to ensure due process, children's 
awareness of immigration court processes and responsibilities, and the 
safety and well-being of children in their sponsorship settings.
the way forward: improving care and treatment of unaccompanied children
    In recent years, the Trump administration sought to address the 
forced migration of unaccompanied children to the United States through 
policies centered on cruelty, punishment, and deterrence. From 
turnbacks at the border to the expulsion under Title 42 of more than 
15,000 unaccompanied children \30\ without due process or required 
protection screenings, this failed approach has only heightened the 
vulnerability of children to trafficking and other harm. The way 
forward will not be found in backward steps such as these that erode 
critical safeguards developed through decades-long bipartisan 
collaboration, but instead must be guided by the best interests, 
safety, and protection of children.
---------------------------------------------------------------------------
    \30\ Camilo-Montoya-Galvez, Adam Verdugo, ``Nearly 19,000 
unaccompanied children entered U.S. border custody in March--an all-
time high'' CBS News (Apr. 2, 2021); https://www.cbsnews.com/news/
immigration-unaccompanied-children-border-custody-record-19k/.
---------------------------------------------------------------------------
    The Biden administration has already made important strides in 
restoring access to protection and due process for unaccompanied 
children. In February, the administration exempted unaccompanied 
children from Title 42 expulsions while the policy is under review.\31\ 
This important policy change ensures that children will no longer be 
rapidly expelled to the very dangers they fled and instead will be 
processed consistent with vital anti-trafficking protections in the 
TVPRA.
---------------------------------------------------------------------------
    \31\ Camilo Montoya-Galvez, U.S. will not expel unaccompanied 
migrant children under Trump-era policy now being reviewed'' CBS News 
(Feb. 3, 2021); https://www.cbsnews.com/news/migrant-children-biden-
administration-will-not-expel-trump-policy/.
---------------------------------------------------------------------------
    The administration has also implemented a number of measures to 
safely expedite the reunification of children with family members and 
other sponsors who can care for them during their immigration 
proceedings. These efforts include the important rescission of a 2018 
information-sharing agreement between DHS and ORR that led to the use 
of sponsors' information for immigration enforcement and deterred 
family members from coming forward to care for unaccompanied 
children.\32\
---------------------------------------------------------------------------
    \32\ DHS, ``HHS and DHS Joint Statement on Termination of 2018 
Agreement'' (Mar. 12, 2021); https://www.dhs.gov/news/2021/03/12/hhs-
and-dhs-joint-statement-termination-2018-agreement.
---------------------------------------------------------------------------
    Ample opportunities remain to improve the care and safety of 
children in Government custody while simultaneously ensuring their safe 
and prompt reunification with sponsors who can care for them throughout 
their immigration proceedings. While many of these reforms can be 
undertaken and bear results in the immediate term, others reflect 
systemic changes that will require sustained commitment and cross-
agency collaboration to truly transform our immigration system into one 
that prioritizes the best interests of children at every step of the 
process. We include here recommendations for both immediate- and 
longer-term measures, and stand ready to assist Congress and the 
administration in efforts to advance the fair and appropriate treatment 
of unaccompanied children.
            A. Immediate-term reform measures
1. Hire child welfare professionals to oversee care of children in CBP 
        custody
    For decades, children have been held at the border in CBP 
facilities initially designed for single adults. These facilities are 
wholly unsuited to children's needs and appropriate care and are 
staffed by professionals trained in law enforcement, rather than the 
development, welfare, and care of children. While broader reforms are 
critical to ensure the humanitarian reception of children in child-
appropriate spaces, DHS can take immediate steps toward improving care 
of children in Government custody by hiring licensed child welfare 
professionals to oversee the care and screening of children in all CBP 
facilities along the border. These professionals, who should be 
licensed in social work and have requisite training and experience in 
children's needs and development, cannot only make sure that children's 
basic needs are provided for, but can also conduct screenings for 
protection needs as required by the TVPRA. By assuming responsibility 
for child care functions currently being performed by CBP officers, 
child welfare professionals cannot only improve conditions for children 
but ensure that CBP officers are able to dedicate their time to the law 
enforcement functions for which they have received specialized 
training.
    Congress directed DHS to hire child welfare professionals at all 
points along the Southern Border as part of both fiscal year 2020 and 
fiscal year 2021 appropriations legislation.\33\ Yet DHS has failed to 
implement this vital safeguard, sidelining both the well-being of 
children and Congressional intent to improve conditions for them at the 
Southern Border. Noncompliance with this directive directly undermines 
DHS's ability to safely process the thousands of children currently in 
CBP custody and must be immediately remedied through the hiring and 
placement of appropriate child welfare staff.
---------------------------------------------------------------------------
    \33\ H.R. Report 116-180; H.R. Report 116-458.
---------------------------------------------------------------------------
2. Co-locate DHS and HHS professionals in border facilities
    Among the high numbers of unaccompanied children arriving at the 
border are many children who traveled to the United States with family 
members or caregivers such as aunt/uncles, grandparents, or adult 
siblings who are not their parents or legal guardians. These children 
meet the legal definition of an ``unaccompanied alien child,'' as 
defined by the Homeland Security Act of 2002 and the Trafficking 
Victims Protection Reauthorization Act of 2008.\34\ Accordingly, they 
must be afforded all the procedural protections accompanying this 
status through the conclusion of their immigration proceedings. At the 
same time, however, DHS and ORR can ensure that children do not face 
prolonged custody in CBP or ORR facilities or unnecessary separation 
from loving caregivers by immediately commencing the family 
reunification process in CBP custody. Through the placement of HHS 
Federal field specialists in CBP facilities, ORR could even consider 
caregivers traveling with a child as potential sponsors and facilitate 
the simultaneous release of the child and caregiver together. HHS staff 
can also rapidly identify children with known vulnerabilities or 
special needs and ensure their initial placement in facilities best 
suited for their needs and similarly ensure that the process of 
identifying potential sponsors for all unaccompanied children begins as 
soon as possible.
---------------------------------------------------------------------------
    \34\ Pub. L. 107-296; William Wilberforce Trafficking Victims 
Protection Reauthorization Act, Pub. L. No. 110-457, 122 Stat. 5044 
(2008) (TVPRA).
---------------------------------------------------------------------------
3. Ensure children's appropriate care in and prompt and safe release 
        from ORR facilities
    Through a series of policies, the Biden administration has worked 
to address bottlenecks and barriers to swiftly and safely reunifying 
unaccompanied children in ORR custody with their families. These 
efforts are beginning to demonstrate progress in achieving the safe 
release of children from ORR as steadily high numbers of unaccompanied 
children arrive from CBP custody. Additional efforts can help ensure 
that reunifications continue apace and that ORR maintains sufficient 
capacity to house and provide required services to unaccompanied 
children.
            A. Ramp up hiring of ORR case managers
    ORR has recently streamlined sponsor vetting procedures to 
eliminate requirements that delay release without a benefit to child 
safety.\35\ While critical, these efforts will not be fully realized 
without sufficient staff to ensure the implementation of policies on 
the ground at ORR facilities. It is vital that ORR ensure it has 
sufficient case managers throughout its network of facilities, 
including at emergency intake and influx facilities to ensure 
expeditious reunifications.
---------------------------------------------------------------------------
    \35\ See Nick Miroff, ``Biden administration spending $60 million 
per week to shelter unaccompanied minors'' (Apr. 8, 2021); https://
www.washingtonpost.com/national/border-shelters-cost/2021/04/08/
c54eec3a-97bd-11eb-8e42-3906c09073f9_story.html.
---------------------------------------------------------------------------
            B. Establish standards and robust oversight and monitoring 
                    of emergency intake facilities
    Recently, ORR has created a host of ``emergency intake facilities'' 
for unaccompanied children amid high numbers of children arriving to 
the United States.\36\ These facilities, which appear to differ from 
ORR's licensed programs and influx facilities, must be held to 
standards that ensure the safety and well-being of all children in 
their care. We recommend that ORR establish and make transparent 
standards for these facilities and conduct routine monitoring and 
oversight to ensure compliance with them, while taking all measures to 
ensure children can quickly be moved to licensed facilities.
---------------------------------------------------------------------------
    \36\ Joel Rose, ``Fewer Migrant Children Held In Border Detention 
Facilities, But Challenges Remain'' (Apr. 15, 2021); NPR; https://
www.npr.org/2021/04/15/987615232/fewer-migrant-children-held-in-border-
detention-facilities-but-challenges-remain.
---------------------------------------------------------------------------
            C. Expand ORR's capacity of licensed placements
    In tandem with efforts to expedite the release of children, ORR 
must continue to prioritize the creation of capacity to care for 
children in licensed, small-scale placements, rather than large, 
congregate facilities. To date, ORR maintains licensed foster care beds 
that are not currently in use due to criteria that limit placement of 
children to those who have been determined to be eligible for legal 
relief to remain in the United States. ORR should consider broadening 
eligibility criteria for these licensed beds to maximize its ability to 
care for children in the least restrictive and most appropriate 
settings for them until they can be released to a sponsor.
    Additionally, ORR must work with its existing network of foster 
care providers to identify and activate additional beds that they may 
have available for use, as well as conduct outreach to new foster care 
providers with experience caring for children who may be interested in 
serving unaccompanied children in ORR custody.
    Naturally, the COVID-19 pandemic presents important considerations 
for ORR as it manages facilities and works to implement public health 
precautions to prevent transmission of the coronavirus. It is critical 
that these measures, and any reductions in available bedspace, be based 
on the latest and best public health information and guidance and that 
they be developed in coordination with public health experts. ORR 
should ensure that all licensed shelters ensure their compliance with 
relevant public health precautions and continually reevaluate any 
COVID-based occupancy restrictions if and as information changes.
            D. Provide post-release services to all children released 
                    from ORR
    As ORR facilitates expedited releases of children from ORR custody 
it will become increasingly important to ensure that all children are 
provided with post-release legal and social services. Many 
unaccompanied children have survived grave violence, abuse, or trauma, 
and are uniquely vulnerable in the immigration system. This 
vulnerability continues even after a child is released from ORR custody 
and reunified with a sponsor, as children must navigate transitions in 
living arrangements, language barriers, prior trauma, and immigration 
proceedings in which they must present their legal case to remain in 
the United States.
    Post-release legal services can provide children with critical 
information about their legal rights in the immigration system and 
their responsibility to attend all court hearings, and also connect 
children with screenings to evaluate their eligibility for legal 
protection. These services are indispensable in orienting children to 
the immigration system and are particularly important in the context of 
expedited releases from ORR, as children may leave Government custody 
before they have received legal orientation presentations, intakes, or 
screenings. Post-release services also serve a protective function by 
linking children with legal and social services professionals who can 
assist them with needs and refer them to support services and 
resources, from enrolling in school to working through trauma. Through 
regular contact with children, post-release providers are able to 
observe and interact with children, and in doing so, help ensure the 
safety of a child's sponsor placement.
4. Rescind the Title 42 policy and ensure processing of all 
        unaccompanied children pursuant to the TVPRA
    The Biden administration's exemption of unaccompanied children from 
the unlawful Title 42 policy represents an important step forward in 
ensuring that these children are afforded the legal protections 
Congress created for them in the TVPRA to prevent their return to 
trafficking or other harm. Currently, however, many unaccompanied 
children are unable to avail themselves of these legally-required 
safeguards as a result of COVID-related travel restrictions at ports of 
entry.\37\
---------------------------------------------------------------------------
    \37\ David Bier, ``Amid Crisis, Biden Admits 0.2 percent of Central 
American Families & Kids Legally'' Cato Institute (Apr. 13, 2021); 
https://www.cato.org/blog/amid-crisis-biden-admits-02-central-american-
families-kids-legally.
---------------------------------------------------------------------------
    Far from a mere administrative inconvenience, the denial of access 
to ports of entry can result in turnbacks or expulsions of children who 
have suffered life-threatening harm or force children to undertake more 
dangerous routes to seek protection. In one tragic case, a mother 
reached out to KIND for help in locating her child, who had gone 
missing because the child believed they could only access protection 
between ports of entry. The child was later found dead.
    The safety of children and compliance with the TVPRA demand that 
all unaccompanied children be afforded the opportunity to safely access 
protection between and at ports of entry.
    The administration must also immediately rescind the Title 42 
policy in its entirety to ensure the safe processing of all protection 
seekers at the U.S. border. Thousands of adults and families have been 
expelled to countries in which their lives and safety are at risk under 
Title 42 in recent months, with Black asylum seekers being 
disproportionately affected by this unlawful policy.\38\ U.S. and 
international asylum law do not permit the refoulement of protection 
seekers, and public health experts have underscored that the Title 42 
policy lacks a valid basis in public health.\39\ The Biden 
administration must respond with due urgency to abandon and terminate 
this unlawful measure and uphold the United States' long-standing 
commitment to due process and to extending refuge to those fleeing 
harm.
---------------------------------------------------------------------------
    \38\ Melita Seibel, ``Title 42: The Cruel Trump Policy Continuing 
Under Biden'' Human Rights First (Mar. 31, 2021); https://
www.humanrightsfirst.org/blog/title-42-cruel-trump-policy-continuing-
under-biden.
    \39\ ``Letter to Acting HHS Secretary Cochran and CDC Director 
Walensky'' (Jan. 28, 2021); https://www.publichealth.columbia.edu/
research/program-forced-migration-and-health/letter-acting-hhs-
secretary-cochran-and-cdc-director-walensky.
---------------------------------------------------------------------------
Longer-term measures
    For decades, thousands of unaccompanied children have sought 
protection at the U.S. Southern Border, fleeing persecution, abuse, and 
other harms from which their countries cannot or would not protect 
them. While critical progress has been made in advancing basic 
protections for children through the TVPRA and the Flores Settlement 
Agreement, broader policy efforts have long focused largely on measures 
to deter the flight of children rather than addressing their protection 
needs at their root. Border facilities similarly have failed to adapt 
to the specific vulnerabilities and needs of the children, and instead 
reflect law enforcement strategies and infrastructure designed 
principally for adult populations. While immediately ensuring the 
safety and well-being of all children currently in Government custody 
is paramount, the administration must simultaneously prioritize broad-
based reforms that overhaul this outmoded policy and infrastructure 
framework to usher in a system with child protection and welfare at its 
very core. This includes not only providing for child-appropriate care 
and access to protection for unaccompanied children in the United 
States, but also fortifying protection systems and pathways for 
children still in their countries of origin and on the move. We outline 
here several recommendations for meaningfully transforming the current 
system. While these changes will not happen overnight, efforts must 
begin today.
            A. Establish a fundamentally humanitarian reception model 
                    for all children
    Ushering a shift away from a law enforcement model to one that 
treats migrant and refugee children as children first and foremost will 
require dramatic changes to CBP facilities to create child-friendly 
reception. It is critical that all facilities receiving children 
provide for children's safety, be tailored to their emotional, 
developmental, and physical needs, and treat children with humanity and 
dignity. Appropriate staffing, including child welfare professionals, 
pediatric-trained medical professionals, and co-located HHS specialists 
are vitally important to oversee care that accords with standards, 
relevant laws, and trauma-informed practices. Over the longer-term, 
transforming the current system will require thinking in new ways about 
how to deliver services and care to children.
            B. Dramatically scale up ORR's capacity of family-based and 
                    small-scale placements
    Although ORR maintains a network of nearly 180 programs and 
facilities, these placements are disproportionately in larger-scale 
shelters. Best practices from the domestic child welfare system, as 
reflected in the Federal Family First Prevention Services Act,\40\ 
underscore that family-based settings are most appropriate for 
children, with facilities of 25 beds at the upper limit. To ensure 
alignment with the domestic child welfare system and the best interests 
of children, ORR must strategically plan for and rapidly expand its 
capacity of licensed foster care placements. In addition to better 
providing for children's unique needs, smaller-scale capacity can 
enable ORR's nimble response to unexpected emergencies and influx 
situations, reducing the need for reliance on institutional settings 
that are both costly and ill-suited to the care of vulnerable children. 
Through consistent and continuous outreach to and communication with 
new families and providers, ORR can bring on-board new bedspace and 
services and calibrate its capacity as needed.
---------------------------------------------------------------------------
    \40\ Enacted as part of Public Law (Pub. L.) 115-123.
---------------------------------------------------------------------------
            C. Address root causes and expand pathways to protection in 
                    the region
    Recognizing that deterrence measures are insufficient and 
inappropriate to address the flight of children from harm, the Biden 
administration has announced efforts to target the root causes of child 
migration and requested significant funding to support this work.\41\ 
These efforts must involve the creation and expansion of refugee 
processing and resettlement opportunities in the region as well as 
targeted foreign aid and development assistance to civil society 
organizations working with children and families. From KIND's work with 
unaccompanied children throughout the region and in the United States, 
we know that many children flee northern Central American countries in 
search of protection from extreme gang violence and recruitment, 
sexual- and gender-based violence, abuse, and other threats to their 
lives and well-being. Aid must target these drivers of migration 
through increased violence prevention programming, including 
programming on gender-based violence, while strengthening the capacity 
of National child welfare and protection systems throughout the region 
to extend protection to children in need.
---------------------------------------------------------------------------
    \41\ See., e.g., Carrie Kahn, Franco Ordonez, ``Biden Aims to 
Tackle Root Cause of Migrants Massing at U.S. Border'' NPR (Mar. 18, 
2021); https://www.npr.org/2021/03/18/978496031/biden-aims-to-tackle-
root-cause-of-migrants-massing-at-u-s-border.
---------------------------------------------------------------------------
    Additional measures must restore and create opportunities for 
children and families to apply for refugee status and protection 
without having to take dangerous journeys north. Recently, the Biden 
administration announced the reopening of the Central American Minors 
(CAM) program, which the Trump administration ended in 2017.\42\ CAM 
enabled children from El Salvador, Guatemala, and Honduras with a 
parent lawfully present in the United States to apply for refugee 
resettlement while still in their country of origin. The previous 
version of the program extended life-saving protection to many 
children, but due to limited eligibility could not be accessed by many 
children in search of safety. We applaud the Biden administration's 
decision to restore the CAM program, and look forward to working with 
the administration to improve CAM to ensure the greatest reach and 
effectiveness.\43\
---------------------------------------------------------------------------
    \42\ Department of State, ``Restarting the Central American Minors 
Program'' (Mar. 10, 2021); https://www.state.gov/restarting-the-
central-american-minors-program/.
    \43\ For additional recommendations, please see KIND, ``Thwarted 
Potential: The Need to Revive and Expand the Central American Minors 
(CAM) Program As a Key Path to Protection for At-Risk Unaccompanied 
Children,'' https://supportkind.org/wpcontent/uploads/2020/11/Thwarted-
Potential_CAM-Report-FINAL-3.pdf.
---------------------------------------------------------------------------
    To this end, we recommend that the program be broadened to invite 
applications from children with trusted relatives such as aunts, 
uncles, or grandparents who can care for them, without regard to their 
immigration status. Timely review and adjudication of applications is 
similarly critical to ensure that children need not remain indefinitely 
in dangerous conditions to secure U.S. protection. To maximize 
participation in the program and outcomes for children, Federal 
agencies should coordinate to make available a range of support 
services for children applying for protection--from legal services and 
language access to safe housing while they await consideration of their 
applications.
    Additional efforts should be undertaken to provide families with 
opportunities to access refugee resettlement while still in-country. 
The Protection Transfer Agreement (PTA), which has enabled the 
resettlement of children and families at immediate risk, provides a 
model for potential expansion.
            D. Ensure that all unaccompanied children have attorneys
    Despite their unique vulnerability in the immigration system and 
legal provisions in the TVPRA providing for their access to counsel, 
more than half of unaccompanied children lack an attorney to assist 
them in navigating immigration proceedings with the highest of stakes 
for their lives and safety.\44\ Government data illustrate the critical 
difference legal representation can make in a child's immigration case. 
From fiscal year 2018 through the first half of fiscal year 2019, 
unaccompanied children represented by counsel were 70 times more likely 
than unrepresented unaccompanied children to obtain legal relief.\45\
---------------------------------------------------------------------------
    \44\ KIND Fact Sheet; https://supportkind.org/wp-content/uploads/
2019/12/KIND-Fact-Sheet-January-2020.pdf.
    \45\ KIND calculated this figure based on Executive Office of 
Immigration Refugee (EOIR) data published by the Congressional Research 
Service in its report titled ``Unaccompanied Alien Children: An 
Overview,'' p. 15 (Oct. 9, 2019); https://fas.org/sgp/crs/homesec/
R43599.pdf.
---------------------------------------------------------------------------
    While ORR currently provides financial support to a network of 
nonprofit legal services providers to support legal representation for 
unaccompanied children, need far exceeds current funding and capacity. 
As numbers of unaccompanied children arriving to the United States 
reach historic levels, this due process crisis will only expand without 
sufficient support to ensure that no child faces immigration court 
alone. To ensure the provision of legal orientations, screenings, and 
legal assistance to the greatest number of children possible, it is 
critical that additional funding be appropriated for post-release legal 
services as part of fiscal year 2022 Labor, Health, and Human Services 
appropriations legislation.
    Additionally, KIND strongly supports legislative proposals that 
would provide for Government-appointed counsel for all unaccompanied 
children and dramatically improve the fairness of the current system.
                               conclusion
    The challenges now facing unaccompanied children and the Government 
agencies that engage with them are significant. But with the proper 
resolve and policies, the United States can meet those challenges, and 
in the process, transform our National and regional protection system 
into one that fully upholds children's rights and well-being throughout 
their journey to safety. Proper planning and reimagined reception will 
ensure we are not having the same challenges every few years with the 
orderly and humane reception of this vulnerable population. The 
recommendations set forth in this statement light the way forward--KIND 
urges the administration and Congress to seize it.

    Ms. Barragan. Thank you, Ms. Podkul, for your testimony 
today, and it is great to hear those stories.
    I would now like to recognize our next witness, Ms. Ries, 
to summarize her statement for 5 minutes.

 STATEMENT OF LORA RIES, DIRECTOR OF THE CENTER FOR TECHNOLOGY 
   POLICY, SENIOR RESEARCH FELLOW FOR HOMELAND SECURITY, THE 
                      HERITAGE FOUNDATION

    Ms. Ries. Thank you, Chairwoman Barragan and Ranking Member 
Higgins, for the opportunity to speak to you today about the 
current border crisis. My name is Lora Ries, and I am a senior 
research fellow for homeland security at The Heritage 
Foundation. The views expressed here are my own and do not 
reflect an institutional position for The Heritage Foundation 
or its board of trustees.
    We are witnessing record numbers of unaccompanied alien 
children, or UACs, at our Southern Border. In March, nearly 
19,000 UACs were encountered by CBP. In contrast, CBP 
encountered only 741 UACs in April 2020. This staggering 
increase has been driven by messaging and policy choices that 
have endangered lives and knowingly enriched traffickers and 
smugglers.
    In February, border traffickers reportedly were making $14 
million a day. Instead, the United States should have policies 
that prevent illegal immigration and encourage lawful 
immigration.
    How did we get here? The 2000 Unaccompanied Alien Child 
Protection Act. Its purpose was the permanent protection of 
UACs. It offered them easier and expanded immigration benefits, 
including prompt parole into the United States, taxpayer-funded 
guardians ad litem and attorneys, Special Immigrant Juvenile 
visas, an easier adjustment of status process, and exemption 
from expedited removal. It was easy to predict that more 
parents would send their children unaccompanied to the border 
to take advantage of these benefits.
    The bill ultimately passed in the 2008 Trafficking Victims 
Protection Reauthorization Act, or TVPRA. That bill states: To 
prevent trafficking in persons, the United States shall ensure 
that UACs in the United States are safely repatriated to their 
country of nationality or last habitual residence.
    But the law then distinguishes between processing UACs from 
contiguous countries, who are generally returned to their 
country, and those from elsewhere. For UACs from noncontiguous 
countries, the law requires they be placed into U.S. removal 
proceedings and receive the benefits described above.
    Predictably, the number of UACs steadily increased in the 
years that followed. In 2010, CBP encountered 18,400 UACs. That 
number grew to 24,400 in 2012. After DACA was started, UACs 
soon spiked to over 68,500 in 2014.
    The makeup of contiguous nationals as compared to 
noncontiguous nationals also changed. In 2009, children from 
Mexico accounted for 82 percent of the UAC apprehensions at the 
border, while those from Northern Triangle countries accounted 
for 17 percent. By 2019, those proportions had flipped.
    Another important pull factor for illegal immigration is 
limited immigration detention and mandatory release into the 
United States. Flores, a settlement agreement on detention 
standards for unaccompanied minors, has been expanded and when 
a single district judge ruled that unaccompanied and 
accompanied children must be released from detention within 20 
days. Because removal proceedings are not completed within 20 
days, ICE releases UACs and family units into American 
communities to comply with Flores.
    We experienced a border crisis in 2019 when CBP encountered 
over 76,000 UACs and 527 family units. The Trump administration 
implored Congress to close its TVPRA, UAC, and Flores loopholes 
to stop the flow of UACs and family units, but Congress refused 
to do so.
    With the Migrant Protection Protocols and negotiated Asylum 
Cooperative Agreements with the Northern Triangle countries, 
the numbers of illegal immigrants decreased, because would-be 
migrants learned that they would not get into the United States 
and would be sent back.
    With campaign promises to end such enforcement measures and 
to provide amnesty, smugglers encouraged more immigrants to 
make the journey north, in anticipation of Joe Biden's 
election. The new administration then quickly ended the Trump 
administration's enforcement measures and agreements, resulting 
in a more rapid increase in illegal immigration to now historic 
numbers.
    If leaders want to prevent smuggling and trafficking of 
children and restore order to our border and immigration 
system, Congress and the administration should prevent illegal 
immigration by enforcing current laws and removing incentives 
to come here unlawfully.
    This includes resuming MPP, returning to the terms of the 
Asylum Cooperative Agreements, completing the planned border 
wall construction, treating all noncontiguous nationals the 
same as contiguous nationals, removing benefits based on being 
a UAC, returning to the 1997 terms of the Flores settlement 
agreement, rescinding the February 2021 ICE priorities memo, 
ending catch-and-release, rejecting amnesty for those who broke 
our immigration laws, and applying the proper definition of UAC 
as defined in the Homeland Security Act.
    This concludes my statement, and I will respond to your 
questions. Thank you.
    [The prepared statement of Ms. Ries follows:]
                    Prepared Statement of Lora Ries
                             April 27, 2021
    My name is Lora Ries. I am the senior research fellow for homeland 
security at The Heritage Foundation. The views I express in this 
testimony are my own and should not be construed as representing any 
official position of The Heritage Foundation.
    We are witnessing record numbers of unaccompanied alien children 
(UAC) at our Southern Border. In March, nearly 19,000 UACs were 
encountered by the Customs and Border Protection (CBP).\1\ In contrast, 
the CBP encountered only 741 UACs in April 2020.\2\ This staggering 
increase has been driven by messaging and policy choices. These 
statements and policies sadly endanger the lives of those migrating 
here illegally, and knowingly enrich traffickers and smugglers. In 
February, border traffickers made $14 million a day.\3\ Meanwhile, 
traffickers and smugglers have no regard for life as they endanger, 
rape, exploit, recycle, and leave for dead children and other 
migrants.\4\ Instead, the United States should have policies that run 
such operations out of business by preventing illegal immigration and 
encouraging migrants to use lawful immigration programs.
---------------------------------------------------------------------------
    \1\ U.S. Customs and Border Protection, Southwest Land Border 
Encounters, https://www.cbp.gov/newsroom/stats/southwest-land-border-
encounters (accessed April 26, 2021).
    \2\ Ibid.
    \3\ Emma Colton, ``Human Trafficking Business Is Booming at the 
Border, with Cartels Raking in over $14M a Day in February: Report,'' 
Washington Examiner, March 22, 2021, https://
www.washingtonexaminer.com/news/criminal-organizations-trafficking-
border-14-million-a-day (accessed April 26, 2021).
    \4\ Jillian Kay Melchior, ``Biden's Border Crisis, Up Close,'' The 
Wall Street Journal, March 29, 2021, https://www.wsj.com/articles/
bidens-border-crisis-up-close-11617057522 (accessed April 26, 2021).
---------------------------------------------------------------------------
    To identify the way forward, it is important to understand how we 
got here. In 2000, Senator Dianne Feinstein (D-CA) and Representative 
Zoe Lofgren (D-CA) each introduced the Unaccompanied Alien Child 
Protection Act (UACPA), which had the stated purpose to strengthen 
policies for the permanent protection of UACs. It offered UACs easier 
and expanded immigration benefits, including ``prompt parole'' into the 
United States, taxpayer-funded guardians ad litem and attorneys, the 
rarely used Special Immigrant Juvenile visa, an easier adjustment of 
status process, and exemption from expedited removal. The bill clearly 
incentivized UACs to cross the border, which meant more parents would 
hand their children over to dangerous smugglers to enter the United 
States in the hopes to gain a family foothold here. The bill would 
endanger more children.
    The UACPA repeatedly failed to pass Congress, but the sponsors 
introduced the bill 5 Congresses in a row, until Representative Howard 
Berman (D-CA) folded the benefits of the UACPA into a bill that would 
be easier to pass: the Trafficking Victims Protection Reauthorization 
Act of 2008 (TVPRA).
    Under the heading of ``Enhancing Efforts to Combat the Trafficking 
of Children,'' section 235 of the TVPRA has the stated purpose ``to 
prevent trafficking in persons, the [U.S. Government] shall develop 
policies and procedures to ensure that unaccompanied alien children in 
the United States are safely repatriated to their country of 
nationality or of last habitual residence.'' However, the legislation 
then distinguishes between processing UACs from contiguous countries 
(they are generally returned to their home country) and those from 
elsewhere. For UACs from non-contiguous countries, the law requires 
they be placed into U.S. removal proceedings and be given the generous 
benefits described above.
    Predictably, the number of UACs encountered by the CBP steadily 
increased in the years that followed. In fiscal year 2010, the CBP 
encountered 18,400 UACs.\5\ That number grew to 24,400 UACs in fiscal 
year 2012.\6\ The pull factor of benefits for UACs grew stronger with 
the 2012 Deferred Action for Childhood Arrivals (DACA) program. 
Unsurprisingly, the number of UACs soon spiked to over 68,500 in 
2014.\7\
---------------------------------------------------------------------------
    \5\ United States Border Patrol, BP Total Monthly UACs by Sector, 
fiscal year 2010-fiscal year 2017, https://www.cbp.gov/sites/default/
files/assets/documents/2018-Jul/BP%20Total%20- 
Monthly%20UACs%20by%20Sector%2C%20FY10-FY17.pdf (accessed April 26, 
2021).
    \6\ Ibid.
    \7\ Ibid.
---------------------------------------------------------------------------
    In addition to the increasing number of UACs, the make-up of 
contiguous nationals as compared to non-contiguous nationals changed. 
In fiscal year 2009, children from Mexico accounted for 82 percent of 
the UAC apprehensions at the Southwest Border, while those from the 
``Northern Triangle'' countries of El Salvador, Guatemala, and Honduras 
accounted for 17 percent.\8\ By fiscal year 2019, the proportions had 
reversed, with Mexican nationals comprising 14 percent of the UAC 
apprehensions at the border and the 3 Central American countries 
comprising over 85 percent.\9\
---------------------------------------------------------------------------
    \8\ William A. Kandel, ``Unaccompanied Alien Children: An 
Overview,'' Congressional Research Service, October 9, 2019.
    \9\ Ibid.
---------------------------------------------------------------------------
    Another important pull factor for illegal immigration by UACs and 
family units is limited immigration detention and mandatory release 
into the United States. Reno v. Flores,\10\ a court case that started 
in the early 1980's about detention standards for an unaccompanied 
illegal alien minor turned into a 1985 class action lawsuit that 
launched more than a 3-decade court process, resulting in a far more 
expansive policy regarding when a minor alien must be released from 
detention. After a 1993 U.S. Supreme Court ruling in favor of the 
Immigration and Naturalization Service (INS), then-INS Commissioner 
Doris Meissner signed the Flores settlement agreement in 1997, 
expanding the standards the INS would follow. Under the agreement, the 
Government must release minor aliens ``without unnecessary delay'' to 
the minor's parents, legal guardians, other adult relatives, or other 
individual designated by the parent/guardian, who is in the United 
States. A Federal district judge further expanded the Flores 
requirements in 2015, ordering the Department of Homeland Security to 
release detained minors and their mothers. This added accompanied 
minors for mandatory release in addition to unaccompanied minors. The 
judge went further, interpreting the Flores settlement language 
``without unnecessary delay'' to mean no more than 20 days of 
immigration detention.
---------------------------------------------------------------------------
    \10\ Reno v. Flores, 507 U.S. 292 (1993).
---------------------------------------------------------------------------
    Because removal proceedings are not completed within 20 days, 
Immigration and Customs Enforcement released UACs and family units into 
American communities to comply with the new Flores order, resulting in 
a ``catch-and-release'' posture. Smugglers successfully market ``catch-
and-release'' to future unlawful migrants.
    These pull factors caused a border crisis in fiscal year 2019, when 
the CBP encountered over 76,000 UACs and 527,000 family units.\11\ The 
Trump administration implored Congress to close its TVPRA UAC and 
Flores loopholes to stop the flow of UACs and family units, but 
Congress refused to do so. By standing up the Migrant Protection 
Protocols (MPP) and negotiating asylum cooperative agreements with the 
Northern Triangle countries, the Trump administration significantly 
decreased the number of UAC and family unit encounters by 2020.
---------------------------------------------------------------------------
    \11\ U.S. Customs and Border Protection, Southwest Land Border 
Encounters.
---------------------------------------------------------------------------
    With campaign promises to end the Trump administration's 
immigration enforcement measures, and to provide amnesty, smugglers 
encouraged more immigrants to make the journey north in anticipation of 
Joe Biden's election. The new administration then quickly ended the 
Trump administration's enforcement measures and agreements, resulting 
in a more rapid increase in illegal immigration to now historic 
numbers.
                            the way forward
    If leaders want to prevent the smuggling and trafficking of 
children and restore order to our border and immigration system, 
Congress and the Biden administration should prevent illegal 
immigration by enforcing current laws and removing incentives to come 
here unlawfully. This includes:
  <bullet> Resuming MPP;
  <bullet> Returning to the terms of the asylum cooperative agreements 
        made under the Trump administration;
  <bullet> Completing planned border wall construction;
  <bullet> Treating all non-contiguous nationals the same as contiguous 
        nationals--with expedited removal;
  <bullet> Removing benefits based on UAC status;
  <bullet> Returning to the 1997 terms of the Flores Settlement 
        Agreement;
  <bullet> Rescinding the February 2021 ICE Priorities Memo;
  <bullet> Ending catch-and-release;
  <bullet> Rejecting amnesty for those who broke our immigration laws; 
        and
  <bullet> Applying the proper definition of UAC, as defined by section 
        462(g) of the Homeland Security Act of 2002, which is ``a child 
        who----
    (A) has no lawful immigration status in the United States;
    (B) has not attained 18 years of age; and
    (C) with respect to whom----
      (i) there is no parent or legal guardian in the United States; or
      (ii) no parent or legal guardian in the United States is 
            available to provide care and physical custody.''

    Ms. Barragan. Thank you to the witness for her testimony.
    I want to thank every witness for their testimony.
    I will remind the subcommittee that we will have 5 minutes 
each to ask questions of the panel.
    I will start by recognizing myself for 5 minutes, and then 
we will alternate between sides until we get through everybody. 
If there is an opportunity, maybe we will have a second round, 
depending on our time.
    So, with that, I will start by recognizing myself for 5 
minutes.
    Mr. Reichlin-Melnick, I want to start with you. As an 
approach to deter irregular migration, President Trump created 
and implemented the family separation policy, tearing thousands 
of families apart. After rescinding this awful practice, he 
implemented more harmful policies, such as the Migrant 
Protection Protocols, Title 42, and metering, to deny access to 
asylum.
    How would you describe the effect of the Trump-era border 
policies in slowing migration at the Southern Border?
    Mr. Reichlin-Melnick. I think what we saw with the Trump 
administration policies, such as MPP, or Remain in Mexico, and 
the so-called Asylum Cooperative Agreements, is that those 
programs fundamentally did not work. They sent tens of 
thousands of people into danger, sending them to a kidnappers' 
paradise in Mexico.
    It is possible that as many as 1 in 10 people sent back to 
Mexico under MPP were subject to kidnappings, assaults, or 
other violent acts by the cartels. So, in effect, under MPP and 
as well under Title 42, families are being turned over into the 
hands of the cartels and pushed into desperation.
    I also want to make clear that the Asylum Cooperative 
Agreements have been suspended since last year, and fewer than 
a thousand people were ever sent to Guatemala under those 
agreements. The Biden administration terminating those 
agreements had absolutely no effect on the border. Similarly, 
terminating MPP had very little effect, as just 1.2 percent of 
people have been subject to MPP since Title 42 began.
    Ms. Barragan. Thank you.
    Mayor Garcia, I am so proud that our community is stepping 
forward to help care for some of the vulnerable children 
arriving at the Southwest Border. As you know, these are 
children--they are scared and they are alone--who fled 
unthinkable dangers and shocking conditions.
    Last Thursday, the Long Beach Convention Center opened its 
doors to young girls and boys seeking safety in the United 
States. Can you tell us more about the process for establishing 
an emergency intake site at the Long Beach Convention Center?
    Mr. Garcia. Sure thing. We, of course, were reached out by 
the Biden administration to see if we would be interested in 
hosting this emergency shelter. Long Beach, with its history of 
kind-of compassionate, you know, viewpoint with refugees and 
with immigrants, brought it forward to the Long Beach City 
Council, which voted unanimously to move it forward.
    Then, of course, our city team got into many meetings with 
our partners over at HHS as well as FEMA. They toured the site 
before the children came multiple times. They brought in a full 
medical team and doctors to ensure the site was safe, and they 
brought also a bunch of social services on-site.
    One thing that was really, I think, important for us in the 
community as we talked to folks that this would be a temporary 
site, because we believe in family reunification and how that 
must be the goal, was that every child that arrives also has 
legal counsel. So there is actually an organization called 
Immigrant Defenders, who are well-respected, you know, here in 
the state and the country, providing each child with advice and 
legal counsel through that process as well. So HHS has really 
done a great job of bringing resources in on the ground.
    Ms. Barragan. Fantastic.
    I would like to have the clerk post chart A, a chart that 
was provided by our witness Reichlin-Melnick.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Barragan. This question is for you, Mr. Reichlin-
Melnick. I apologize. I have 5 minutes and we are trying to get 
to what we can here. I thought this was a really helpful and 
informative chart that you provided the committee.
    When I look at the data, I see that more migrants were 
processed into the United States in 2019 than what we are 
seeing now. We keep hearing from folks on the other side of the 
aisle that there is an open border policy, anybody can come.
    Can you please tell us if this chart helps debunk the 
narrative that President Biden has an open border policy, and 
what other key takeaways can we take from this data in your 
chart?
    Mr. Reichlin-Melnick. Thank you. I think this chart makes 
clear that fewer people are getting into the border today than 
were in 2019 under the Trump administration.
    The Biden administration has expelled tens of thousands of 
families back to Mexico, so even though there are fewer 
families coming to the border today than there are under 
President Trump in 2019. So as a result, because about a third 
of all families right now are being sent back to Mexico, 
significantly fewer families are being allowed to access asylum 
under the Biden administration than were allowed to access the 
asylum process under the Trump administration.
    Ms. Barragan. Fantastic.
    If the clerk can remove the chart here, I can also take a 
look at the timer. I see that my time is expiring. So, 
hopefully, we can get into this in the second round of 
questions so that we can definitely hear from more of our 
witnesses.
    With that, I am going to turn it over to the Ranking Member 
for his 5 minutes of questions.
    Mr. Higgins.
    Mr. Higgins. Thank you, Madam Chair.
    Regarding legal immigration, legal residency, and the 
pathway to citizenship in America, let me say that our Nation 
is a compassionate and generous country, with arguably the most 
receptive and accessible immigration policies of any prominent 
sovereign nation anywhere in the world.
    Myself and my conservative colleagues, we encourage legal 
immigration, and we refer to the simple fact that America is a 
very generous Nation. I challenge you to find another that is a 
prosperous world power with an immigration policy as receptive 
as our own.
    Ms. Ries, let's talk about some of the policy issues you 
have articulated in your statement regarding immigration 
loopholes and policies that have led to the unprecedented 
volume of unaccompanied minors we are seeing at the Southwest 
Border right now.
    The Biden administration has announced plans to spend $4 
billion of American treasure on foreign aid to address ``root 
causes'' but that still leaves us with the legal and policy 
gaps that you have laid out.
    In your opinion, what do we do first? I believe we should 
secure the border and end these policies that are pull factors, 
but what do you advise Congress should be working on right now 
to address Flores and TVPRA loopholes?
    Ms. Ries. Thank you. So the first thing that needs to be 
done is to stop the pull factors and stop putting children into 
the arms of smugglers and traffickers. That comes about a few 
different ways. One is in TVPRA, treating nationals from Mexico 
and Canada different than other countries. Even President Obama 
himself had asked that this loophole be fixed during the 2014 
crisis that he and then-Vice President Biden had faced.
    In addition, changing the Flores ruling by a single U.S. 
district court judge, where she declared that not only would 
accompanied children in addition to unaccompanied children be 
released, but they be released within 20 days.
    Everyone agrees that removal proceedings should happen more 
quickly. DHS has also shown that when aliens are detained 
during those removal proceedings, that a high percentage, 98 
percent of those folks are removed if they are not eligible for 
relief.
    So the Homeland Security Advisory Committee in 2019 had 
concluded that there was a gross inadequate amount of detention 
space for family units, and so that needs to be changed as 
well.
    Mr. Higgins. Yes, ma'am. Thank you for that. I look forward 
to speaking with you further about it.
    I introduced legislation last week to finish the sections 
of the wall system that were already appropriated for or 
obligated prior to the Biden administration's suspension of 
construction.
    Would you share with America if you recognize that the 
legitimate deterrence of a 21st-Century wall system and the 
completion of those sections, how important they are? These 
sections have been requested by Customs and Border Protection 
and Border Patrol. Do you support that legislation and do you 
recognize a wall as a deterrent?
    Ms. Ries. The planned wall construction should be 
completed. Border Patrol agents have long said they need 3 
things: They need personnel, they need technology, and they 
need infrastructure. The wall system--it is not just the wall, 
it is the access road, it is cameras, the sensors, et cetera--
is a key part of that. It buys them time. It gives them 
awareness of what is happening on the border. Congress has 
appropriated that money, and so it should be completed as 
planned.
    Mr. Higgins. I agree.
    Madam Chair, I can't see the clock right now, how much time 
I have remaining.
    Ms. Barragan. Twenty-three seconds.
    Mr. Higgins. I have one further question for Ms. Ries.
    Ms. Barragan. Twenty-three seconds.
    Mr. Higgins. Thank you, ma'am.
    Ms. Ries, would you address the accusations that the Trump 
administration essentially dismantled the asylum system? I 
don't believe that is accurate.
    Ms. Ries. It is incorrect. I mean, if you measure asylum in 
terms of grants, the Trump administration granted more asylum 
cases in its first 3 years than the highest 4 years during the 
Obama administration of an 8-year term, 2 terms.
    What the Trump administration went after was fraud in 
asylum and fraudulently using the generous program of asylum to 
come to the United States and to remain here indefinitely.
    Mr. Higgins. Exactly. Thank you for that clarification.
    Madam Chair, thank you for your consideration. I yield.
    Ms. Barragan. Thank you. TVPRA and Flores aren't gaps. They 
are protections that Congress and the courts have put in place 
to protect vulnerable children. So I am looking forward to 
continuing this conversation.
    With that, I would like to recognize for 5 minutes--well, 
let me back up for a quick second. I am getting ahead of 
myself.
    The Chair will recognize other Members for questions that 
they may wish to ask the witnesses. As previously outlined, I 
will recognize Members in order of seniority, alternating 
between Majority and Minority. Members are reminded to unmute 
themselves when recognized for questioning.
    With that, I now have the pleasure and the honor of 
recognizing the Chairman of the full committee, Mr. Thompson 
from Mississippi.
    Mr. Chairman, I believe you are still on mute.
    We still have a hard time hearing you.
    OK, Mr. Thompson, we still can't hear you. Maybe we can 
have somebody take a look at your technical issues, and we will 
move to our next Democratic colleague for the moment. I see 
that we have Representative Correa.
    Mr. Correa, you are recognized for 5 minutes.
    Mr. Correa. Thank you, Madam Chair. Can you hear me OK?
    Ms. Barragan. We hear you loud and clear.
    Mr. Correa. Yes? Thank you very much.
    First, I want to thank you, Madam Chair, for holding this 
most important hearing.
    Having children, unaccompanied children in harm's way is 
never something to be taken lightly. I, like you, have gone to 
El Paso, Texas. I have had the opportunity to speak to those 
children in their language. I also had the opportunity to meet 
Yareli and Yasmina, the 3-year-old and the 5-year-old girls 
that were thrown over the border by the smugglers. If wasn't 
for the Border Patrol that actually saw them, those young 
ladies would have perished in the middle of the desert.
    I have also had the opportunity to visit deported families 
in Tijuana, Mexico, deported under Title 42 of the health code. 
As I was sitting there looking at these families, looking at 
these children, I am reminded that this is nothing new. In 
2008, I also had the opportunity to visit similar places with 
children, similar faces, similar circumstances in California.
    This issue is nothing new. It has been going on for 30 to 
40 years. If we don't do something to address the root causes, 
it will continue for the next 20 or 30 years. It is just not 
correct for us to ignore the root causes.
    It doesn't matter how dangerous the trip is from Central 
America. It doesn't matter how expensive the trip is. A lot of 
those families are telling me they paid $15,000 to the 
smugglers. It doesn't matter how hard it is to cross the 
border. These families, if they are hungry, if they fear for 
their lives, they will take the trip north. Of course, our 
efforts cannot be day-to-day, month-to-month, but, rather, 
consistent.
    We are concluding our efforts in Afghanistan, our 
involvement in that war, 20 years. Iraq, dozens of years. Yet 
this is our backyard. We need a Marshall Plan. We need to 
stabilize Central America. That is long-term. That is where we 
need to go.
    But for today, Madam Chair, if I can, I would like to ask 
some of our witnesses, Ms. Podkul, some questions.
    Ms. Podkul, how feasible would it be to provide legal 
services to these migrant families in Central America?
    Ms. Podkul. To provide services for them once they are here 
and they are asking for protection?
    Mr. Correa. While they are still in Central America.
    Ms. Podkul. Yes. So, you know, the Biden administration has 
just committed to restarting the Central American Minors 
Program so that unaccompanied children can ask for refugee 
status while they are there. We think it is imperative for 
those children to understand the process and understand how 
they tell the story so our refugee officers can decide whether 
or not that person qualifies.
    So it is very important for them to make sure that they are 
able to get know your rights information and have an attorney 
explain to them how they should tell their story in a way that 
will make sense to an adjudicator.
    There are lots of law firms who are willing to provide 
services pro bono for free who want to work and help people so 
that they can apply for protection closer to home. We want to 
make sure that we do that and we still allow people to come to 
the border and ask for protection, in compliance with U.S. law.
    Mr. Correa. I ask this question of you because I saw in 
those faces of those children that have had a long trip, a very 
treacherous and dangerous trip. I saw a young lady 14 years old 
that had gotten raped a number of times by a number of men on 
that trip. I, as a father, as a human being, want to figure out 
what is the best way to provide asylum to these refugee seekers 
so they don't have to make this treacherous trip through Mexico 
and Central America.
    In your opinion, can we come up with a system that we can 
provide the rights, protect the rights of asylum seekers while 
they are still at home?
    Ms. Podkul. Yes, absolutely. I think expanding the Central 
American Minors Program to allow children to ask for refugee 
status closer to their country of origin, closer to home, I 
think we can do that for families.
    We already have regional protection mechanisms, and we can 
expand those so that we can do refugee processing for people 
while they are still closer to home. They can make decisions. 
It will alleviate the burden, some of the pressure at the 
border. It will ensure safety, so people don't always have to 
make a journey to ask for help.
    Mr. Correa. So, ma'am, what can we do as Congress to make 
sure that we implement this new Biden policy immediately of 
providing legal access to legal services to refugees in Central 
America? What can we do?
    Ms. Podkul. Sure. So I think appropriating funds to ensure 
that counsel can be provided and that information can be 
provided. I think funding information campaigns, like DHS and 
HHS have done in the past. I think being supportive of a 
Presidential request for refugees, so that when people make 
those applications, we have the numbers and we are able to 
support the resettlement to those who are approved.
    Mr. Correa. Would you say----
    Ms. Barragan. Mr. Correa, your time has expired.
    Mr. Correa. Thank you, Madam Chair. I yield.
    Ms. Barragan. Thank you. The gentleman yields.
    Now I will recognize Representative Guest for his 5 
minutes.
    Mr. Guest. Thank you, Madam Chairman.
    To all of our witnesses here today, I want to thank you for 
joining us to be part of this discussion on a very important 
topic for our entire country.
    I had the chance, along with other the Members of the 
Homeland Security Committee, roughly 2 weeks ago to visit the 
Southwest Border. We visited the processing center there in 
Donna, Texas, where we saw, at that time, 4,000-plus children 
in a facility that was only designated to hold 250. So I 
understand that this is an issue that Congress must address. 
This is not something that we can turn a blind eye to, and we 
must begin to address the root causes, how we are going to 
address this long-term, but also how we are going address this 
in the immediate future.
    Ms. Ries, in your written testimony, you speak of the fact 
that in March, there were 19,000 unaccompanied minor children 
which were taken in there at the border, that this was the 
largest number ever seen in recorded history. You go on in your 
report also to talk a little bit about the border crisis of 
2019.
    So what I want to ask you to do is to contrast the response 
of the administration, the previous administration, in dealing 
with the surge that we saw in 2019 versus the response that the 
current administration is taking to rectify or to intervene in 
the surge that we are seeing here today.
    Ms. Ries, I think you are on mute for me.
    Ms. Ries. Sorry about that.
    The border crisis in 2019, as well as now, involves not 
only a lot of unaccompanied alien children, but family units. 
So after the Trump administration asked Congress to close the 
loopholes that led to those types of flows, the Trump 
administration implemented the Migrant Protection Protocols, or 
Remain in Mexico program. This is something that Congress had 
passed in the 1996 law that said you can come and apply for 
asylum, but you can wait for those proceedings in Mexico.
    When future migrants learned that they could not abuse the 
asylum system to get into the United States and then disappear 
into the interior, they stopped coming. Those with valid asylum 
applications obviously then could apply. But it greatly 
decreased the number, again, preventing fraud.
    The other key aspect of it was the asylum agreements made 
with the governments of El Salvador, Guatemala, and Honduras, 
and instituting what was called the notion of safe third 
country, which is, if you are truly fleeing for your life, you 
should seek protection in the first safe country in which you 
arrive, not traverse 2, 3 countries just to apply for asylum in 
the United States. So it prevented forum shopping. It helped 
those countries build up their respective asylum systems, which 
everybody should be for, and enforcing their respective 
borders.
    Mr. Guest. Ms. Ries, you are entirely correct; much of the 
surge we are seeing today is coming from our Northern Triangle 
countries, and those immigrants are coming through Mexico. They 
are not requesting asylum in Mexico. They are being allowed for 
safe passage through Mexico and then they are coming in the 
United States and there they are requesting asylum. So you are 
exactly right; that is something that we are not addressing, 
that the public is not talking about is that Mexico is allowing 
these individuals to pass through and they are not even 
attempting to apply for asylum there.
    You also talked about the Remain in Mexico policy, and I 
think it is your testimony that you believe this was an 
effective policy. We have heard from other witnesses that they 
believe that this policy had no or very little impact.
    Would you please talk, as far as your opinion, how big of 
an impact the Remain in Mexico policy had once it was put in 
place by the administration, and now that that policy has since 
been withdrawn, what we are seeing as far as the increase in 
numbers along the Southwest Border?
    Ms. Ries. Well, [inaudible] is a very visual sign of the 
flows of illegal immigrants that were coming here in 2018, 
2019. Also, the numbers; whereas in March of this year, 19,000 
unaccompanied alien children, in April 2020, there were 741, so 
a significant difference in numbers.
    But it is also not just about the numbers. It is how are 
the people--what does the U.S. Government do with them when 
they come here? Are they simply being processed more quickly 
into the United States and released, which is a catch-and-
release posture, and it is a extremely strong pull factor for 
more future illegal immigration? Or are they quickly given an 
opportunity to seek relief from removal, and they are either 
granted or, if they are denied, then removed.
    Mr. Guest. Thank you.
    Madam Chair, I believe my time is up, so I yield back.
    Ms. Barragan. Thank you, Mr. Guest.
    The gentleman yields back.
    Just for clarification, when we say Remain in Mexico, it is 
the same as the MPP program that we are referencing. When we 
talk about concerns about cartels, it is exactly that. It put 
families into the hands of cartels.
    With that, we will go back to the Chairman of the full 
committee and see if our audio is OK. Chairman Thompson, the 
gentleman is recognized for 5 minutes.
    Mr. Thompson. Thank you very much.
    Can you hear me now, Madam Chair Lady?
    Ms. Barragan. We can hear you loud and clear, Mr. Chairman.
    Mr. Thompson. Thank you very much.
    Mayor, one of the concerns some communities have had about 
accepting unaccompanied minors in their area, can you kind-of 
describe for the committee your experience with the 
unaccompanied minors that have come to Long Beach from the 
standpoint of are they on drugs or are there criminal elements? 
So just describe to the committee what you have found.
    Mr. Garcia. Absolutely. I think what we have found is that 
the kids that are arriving are just like any other children 
that you would see in our country or anywhere else. Obviously, 
when they arrive at the border, many of them are frightened. 
Some, of course, have been through trauma, but they are 
immediately cared for, and they have the same smiles, the same 
love, the same needs that any other kid would have. There is no 
criminal activity. They are actually being treated. We ensure 
that they are all healthy.
    Most importantly, they are kids. I mean, right now, as this 
hearing is going on, we have children that are receiving care. 
They are receiving a hot meal. They are able to read books. 
They are playing with each other and, most importantly, they 
are being--the focus is on reuniting with their family. So 
these are children, regardless of where they are from, and I 
think it is important for us to take care of them as best 
possible.
    Mr. Thompson. Thank you very much.
    Now, again, say thanks to you and the people of Long Beach 
for reaching out and understanding that.
    Ms. Podkul, can you explain some of the misguided and 
perhaps unlawful policies that were created during the previous 
administration that have been done away with by the Biden 
administration?
    Ms. Podkul. Sure. I can start off with talking about Title 
42 which, you know, eviscerated the ability for children to 
even ask for help from the United States, right? That was 
really the most devastating when the United States just slammed 
the door in the faces of these kids. So having the Biden 
administration, first the courts and then the Biden 
administration say we are going to go back to complying with 
the law, complying with the Trafficking Victim Protection Act, 
and allowing children to ask for protection has been most 
important so that children are even able to ask for safety 
right now.
    You know, then there is other things that they have done 
that have been really helpful. So as I mentioned before, 
allowing for children to ask for protection closer to home to 
apply for refugee status is incredibly important. They have 
also put into place many procedures and expedited procedures to 
screen and identify the sponsors to get the kids out of 
Government custody so that when they are going through the very 
complex court process, they are able to do so while living in a 
home of a family member or a sponsor, so that when they start 
that very arduous process of going through the court system 
that we have, they are able to do so outside of Government 
custody.
    Mr. Thompson. I am glad you mentioned that. Can you explain 
the importance of having access to counsel while this process 
is going on?
    Ms. Podkul. Yes, I mean, it is hard to overstate the 
importance of counsel, especially for a child. I mean, these 
are children, very, very young in some cases, many of whom do 
not speak English. The burden is on them to prove to the 
Government that they have a case, that they have a claim for 
protection. It is not the Government's burden. So you have a 
kid, alone. They have the right to bring an attorney with them, 
but they are not always given an attorney or given a free 
attorney.
    So it is almost impossible for a kid to go through this 
system without counsel. In some instances, you have a child who 
has to go to immigration court. They have to apply for their 
visa or protection with USCIS. They might need to go to a State 
court for part of it. So we are talking about 3 different 
adjudication bodies, and expecting a child to navigate that 
complex system is next to impossible.
    So it is crucial kids have it. It is also crucial for our 
system. Right? We want to get it right. We want to get to the 
bottom of the kids' story and figure out which are the ones 
that really do need protection and need to stay here. We can 
only do that if the child has an attorney.
    Mr. Thompson. Thank you very much.
    I yield back, Madam Chair.
    Ms. Barragan. Thank you, Mr. Chairman.
    With that, seeing no other Republicans at the moment, we 
will move to the gentleman from Missouri, Mr. Cleaver, for--you 
are recognized for your 5 minutes.
    Mr. Cleaver. Thank you, Madam Chair.
    Let me raise a couple of issues based on what is going on. 
I would like one of our witnesses, any of the witnesses to 
describe what the administration is doing right now in terms of 
a long-term solution. Maybe I asked the wrong question.
    Unless--I think and I have heard here in the committee 
today that the Vice President had not been down to the border 
and so she is not working on the issues. I just wanted to make 
sure that we all are operating from the same facts, which is 
that she was not appointed to work at the border. She is 
working with the heads of a number of the Central American 
states--the Triangle that was brought up earlier.
    But what I would like for all of the witnesses to do is, 
what can you do--what do you think we can do right now as a 
major step toward dealing with the kids at the border that is 
both legal and effective?
    Ms. Podkul. I am happy to start. Thanks for that question. 
I mean, I think this is a really crucial question because we 
don't want to be here, having the same conversation year after 
year, having to stand up influx facilities.
    I think there are 2 major things. One is really thinking 
about how we are receiving them. What happens in that moment 
when the U.S. Government first comes into contact with the 
child, right? Making sure that we are doing it in a 
humanitarian way, right, so that we have child welfare 
professionals who are trained experts in talking to children, 
interviewing children in the trauma-informed way, making sure 
that we are doing appropriate screenings for them, and that we 
are quickly handing them off to the agency that is tasked with 
child welfare, ORR.
    Then ORR has to make sure that they are not caught in the 
cycle of having to stand up emergency facilities over and over. 
Right? We want children in smaller facilities, in home-based 
facilities, and in licensed care to make sure there is adequate 
standards and adequate oversight only until the child can be 
reunified. Right? Then we have to make sure our justice system 
can support efficient and quick adjudications so that the 
children's cases are resolved. We don't want a child to have to 
wait for years to find out what is going to happen to them.
    So I think if we are able to really think about this 
system, reimagine the reception, make sure we have a more agile 
ORR system and Government care until the kids can get into the 
system, and then adequately resource our judicial system so 
that we can decide the kids' cases, it will be much more 
efficient. It will be much more fair. We won't be here again in 
the long term.
    Mr. Cleaver. Thank you very much.
    I appreciate very much your response. I spoke to a judge 
here who was a State judge in State court here in Missouri, and 
then after he retired, he became one of the judges down at the 
border. I don't think we call them judges but, anyway, that is 
essentially what he was. So he requested a meeting with me to 
tell me what he thought was needed.
    He said that he believed that right now, that there was a 
need for approximately another 100 to 200 judges, so that when 
people come the system, that judge has time to listen to their 
story. He said because what is happening is that it is an 
assembly line, judicial assembly line. Because they don't have 
the time and they have so many people and they know that they 
have to get individual after individual in and out, that he 
said he is absolutely certain that they make mistakes.
    Do you see that as one of the top 5 moves that we should 
make?
    Ms. Podkul. I think an adequately-resourced judicial system 
is very important. Now, for unaccompanied children, when they 
are making applications for relief, those actually go to USCIS. 
So we also need to make sure that the Department of Justice is 
allowing immigration judges to manage their dockets in a way 
where they say this child doesn't need to keep coming before me 
because I am waiting for my colleagues over here at DHS to 
decide on the visa application. So I am just going to put this 
child's case on hold until DHS can do it. That way judges can 
conserve the resources, so that even though we do need to hire 
more, if they can manage their own dockets and have a little 
bit more flexibility than they did before the Trump 
administration, I think we will see a lot of efficiencies 
realized that way as well.
    Mr. Cleaver. All right. Thank you.
    Thanks, Madam Chair.
    Ms. Barragan. Thank you for the questions. The gentleman 
yields back.
    The gentleman from Texas, Mr. Green, is recognized for your 
5 minutes.
    Mr. Green. Thank you very much, Madam Chair.
    Madam Chair, I sincerely believe that there are some people 
who see the solution as just keep the problem on the other side 
of the border. As long as they are over there, doesn't matter 
what the circumstances happens to be in the city that they are 
in; just keep it on the other side of the border. I am not one 
of them.
    We have a humanitarian crisis in the Triangle, as we are 
calling it, but in Central America, and we have to do something 
about it. I just don't believe that the solution is fence them 
out. Someone drops a baby over the border, I don't think they 
will say toss the baby back. But there seems to be a belief 
that the baby shouldn't have fallen over. I am not one of those 
people. I want to help the people in Central America.
    My belief is that President Biden has a good idea to fund a 
plan to help stabilize Central America, and possibly to help 
other countries as well. Mexico should be helped. They have 
taken on a huge amount of responsibility when persons were just 
getting to the wall, stacking up. Mexico doesn't have a better 
economic order than we have, but we were perfectly content to 
just let them stay on the other side of the wall in Mexico. I 
am not one of those people.
    So now, regardless of what happens to me, I believe the 
good samaritan asked the question, what is going to happen to 
that person if I don't help, not what is going to happen to me 
if I try to help.
    So let me just ask you this, Ms. Podkul. Ma'am, these 
mothers, fathers, they know that what they are paying to have 
their children come, thousands of dollars, is too much. They 
know they shouldn't put their children in the hand of a 
stranger. Yet they do it. They know of the dangers along the 
way. Yet they send them.
    My assumption is that you have talked to some of these 
children. What do the children tell you that parents tell them 
when they embrace them for the last time and say, ``Be on your 
way? I will come and get you at some point, but you need to go 
now.'' What do they tell their children?
    Ms. Podkul. Thank you for that question. I am a parent 
myself, and so being in that position is completely 
unimaginable, having to make those kinds of decisions.
    I think what is remarkable is that we think about, you 
know, we are sometimes sitting in a place of judgment and 
really trying to put ourselves in their shoes, how difficult 
that must be. You know, a parent would only ever, ever do that 
if they felt that, even though they know it is so dangerous and 
there is so many things that could happen to their child, that 
what is happening to them in that moment is worse, right, than 
the risks that they would send their child on. So no parent 
makes that decision lightly.
    I will also say, talking to these children, a lot of times 
children are making the decision on their own to protect their 
families. Right? I spoke to an 11-year-old once who the gangs 
started to recruit him, and he was worried that they were going 
to harm his younger siblings because to try to convince him to 
join the gang. So he left without even telling his mother, and 
that is what broke his heart the most is that he didn't get to 
stay goodbye to her, but he did it to protect her and to 
protect his younger siblings and he was only 11.
    Mr. Green. Well, I was at the border. I think the child was 
5 years old, screaming for her older brother that traversed 
this distance with her. When the brother arrived, the brother 
was 8 years old, a 5-year-old and an 8-year-old. This is not 
just about numbers, thousands of children showing up at the 
border. This is about children and about decency and about who 
we are as a country.
    So either we are going have a heart and say to people, we 
will help because we know you need help. It is not as though 
they don't need it. They are not thinking it. Our intelligence 
tells us that they need it.
    I thank you for your answer.
    I will yield back the balance of my time.
    Ms. Barragan. I thank the gentleman.
    The gentleman yields back.
    Now we will recognize the gentlewoman from New York, Ms. 
Clarke. You are recognized for 5 minutes.
    Ms. Clarke. First of all, thank you, Chairwoman Barragan 
and Ranking Member Higgins, for holding this timely hearing 
today and to address the issue of unaccompanied minors at the 
border.
    I thank all of our witnesses for appearing before us, 
albeit virtually today.
    We are in a critical moment to address the impact of what I 
believe was a cruel and ineffective immigration policy of the 
Trump administration, policies that ripped thousands of kids 
from their parents, leaving many still not yet reunited with 
their loved ones. It is time that we assess the current state 
of U.S. immigration policies and support the Biden 
administration's efforts to increase capacity to shelter these 
unaccompanied children in a humane way.
    With that, I will now move on to my questions.
    Ms. Podkul, migration trends at the Southern Border have 
changed dramatically over the last decade. Yet it still appears 
that our border policies are outdated, as they are originally 
developed with single adults in mind instead of unaccompanied 
minors.
    What immediate actions should DHS, HHS, and Congress take 
to resolve the gaps that exist between our border policies and 
our recent migration trends?
    Ms. Podkul. Thank you for that question, Congresswoman. I 
think there is a few things that could be done immediately. I 
think ensuring that Customs and Border Protection hires child 
welfare professionals, right, to care for and screen the 
children that they are encountering. Right? We want to make 
sure we have trained professionals engaging with them and so we 
can get our law enforcement agents back out, doing law 
enforcement work and not taking care of children.
    We also think that there would be a lot of efficiencies 
realized if Health and Human Services could be co-located in 
Customs and Border facilities where children are being held and 
screened, because right immediately then HHS officials could be 
starting to consider extended family members as potential 
sponsors so that children may even not even have to go to ORR 
custody. They could really identify what is going to be the 
best placing if they do have to send a child to Government 
custody, where would that be, so that they can get the child to 
a sponsor right away and that you are not losing any time when 
you are starting to identify and screen the sponsor.
    I think the other thing too is ensuring that Government is 
funding counsel for children. As I said before, that is going 
to--we are going to see a lot of efficiencies in the judicial 
system if kids are represented, because they will understand 
how to go through the process and we can make sure they know 
how to comply with the entire court process and we can get to 
the bottom of their story.
    Ms. Clarke. These were great suggestions. I think they are 
common-sense suggestions. But what should be done over the 
longer term, in your estimation?
    Ms. Podkul. You know, so I think, you know, a lot of people 
have talked about how do we address these root causes, right? 
That is a long-term solution. Right? I think these are going to 
take time, but it is important to start the investments now and 
show these countries that we are serious, and really focus our 
fiscal support and training support and educational support to 
these countries on really addressing issues of child adversity. 
Right? What is it that is making these kids leave in the first 
place? Really focus our aid and support to those kinds of 
solutions.
    Then I think also ORR, you know, they are struggling right 
now with the numbers of kids being referred to them by CBP. So 
there is kind-of the short-term trying to open up the 
facilities like the mayor is running, but what they need to do 
is really pivot in the long term and think about how can we 
make sure that we don't have to rely on these kinds of 
facilities. So making sure that they are matching what Congress 
has already said for the domestic child welfare system is 
appropriate, not large, congregate care. Put kids in homes. Put 
them in smaller group homes. Make sure that ORR is mimicking 
that for this population of kids so that we are treating all 
children the same and we are getting kids to family members and 
sponsors as quickly as possible.
    Ms. Clarke. Would you talk to the sort-of the plight of the 
Black migrant that is seeking asylum? Can you speak to how 
Trump-era border policies, such as family separation and Title 
42 disproportionately affect Black migrants and their children, 
and what should be done to address this problem?
    Ms. Podkul. Yes, absolutely. I mean, first of all, I think 
we are spending a lot of time talking about Central American 
children. Right? We are serving kids who are coming from 
Africa, that are coming from Caribbean countries, from all over 
the world. Right? So there are a lot of Black migrants who are 
being disproportionately affected, both because it is the 
reason--it is because of their race that they are being 
targeted and felt like they had to leave in the first place, 
but then also, for example, Title 42, right, the way it 
affected Haitian asylum seekers and Haitian families has been 
terrible. They weren't able to be put in MPP, right, so they 
weren't part of the unwinding of MPP, but then also deportation 
flights were continuing at a time when there was incredible 
instability in Haiti.
    So I think we really need to take a close look at that and 
think about how do we make sure that our policies are not 
discriminatory and that we are also taking into account 
discrimination based on race, and how can we make sure that we 
are protecting those individuals.
    Ms. Clarke. Thank you, Madam Chair. I yield back the 
balance of my time.
    Ms. Barragan. Thank you.
    The gentlewoman yields back.
    We will have a second round of questioning, and I will 
recognize myself for questions.
    Mr. Reichlin-Melnick, we have heard today during today's 
testimony a number of arguments that are being made about the 
TVPRA causing increase in migration, being these pull factors. 
We are hearing about these arguments that the Flores agreement 
is the cause for an increase and there has been expansion. What 
is your response to those arguments?
    Mr. Reichlin-Melnick. I think you hear a lot about push 
factors and pull factors. It is important to note that the push 
factors are the why people are leaving, whereas the pull 
factors are often why now.
    For people in emergency situations, they have to leave 
immediately. We saw for years that Central American minors in 
particular were affected by the violence in those countries. 
Honduras and El Salvador were 2 of the most violent countries 
in the world and, in fact, we have seen when violence is 
dropped in El Salvador over the last few years, fewer 
unaccompanied children are coming to our borders, making clear 
this is a direct result of instability in people's home 
countries.
    As for Flores, there is no evidence whatsoever that the 
Flores settlement agreement's change had any impact on 
unaccompanied children.
    Similarly, unaccompanied children were exempt from their 
Remain in Mexico, or MPP, program. Title 42 was the first and 
only program at the border specifically targeting unaccompanied 
children, and yet the number of unaccompanied children coming 
to our borders rose every single month while Title 42 was in 
place, even as the Trump administration was expelling thousands 
of children back to their home countries.
    Ms. Barragan. Thank you.
    Mayor Garcia, it has been really amazing to kind-of see the 
reception from our community in the accepting these children 
that are fleeing violence. Can you talk a little bit about how 
you have received--let me back up a little.
    Have you received much outreach from nonprofits or 
community organizations that want to help? Can you also help 
describe what the community's reception has been to 
establishing this emergency facility in Long Beach?
    Mr. Garcia. Yes, I mean, the overwhelming response has been 
really positive. Obviously, there is a huge amount of 
overwhelming support as it relates to assisting the children. I 
think for most folks in our community this is not a political 
issue; this is about helping kids, about being compassionate, 
about being kind. We have already in just a few days have 
received thousands of books and toys that have been donated by 
the community. We have community groups that have assisted to 
volunteer. We have had a lot of folks just come in and just 
really want to help.
    Obviously, there is also a lot of conversation, like any 
effort. There is a conversation about the future of immigration 
policy. There is a lot of folks in our community that want 
immigration reform done now and that our shelter is not a 
substitute for strong immigration policy. That is something 
that we have heard and that I support. But the support has been 
really strong and, it is evident in both the council's 
unanimous vote but also vast majority of the messages we have 
received have been overwhelmingly positive.
    Ms. Barragan. Well, thank you.
    Mr. Reichlin-Melnick, one of the things that really struck 
me in your testimony, which I went through and starred when I 
was reading it, was this concept that unaccompanied children 
generally win their cases in immigration court or they are 
allowed to stay in the United States.
    I represented a child from Guatemala and, while asylum may 
be hard, there are things that were withholding of removal and 
that child got to stay here. Can you--is there anything that 
you--else that you want to share with this committee or, you 
know, combat some of the myths out there that we keep hearing, 
drowning out what is really happening and the dire conditions 
that these children that are coming legally to seek refuge here 
and asylum here for protections?
    Mr. Reichlin-Melnick. Thank you for the opportunity. So I 
think that the first thing I want to make clear is that seeking 
asylum is legal. Right now, the only way for families and 
unaccompanied children to seek asylum is to cross between ports 
of entry, because the ports of entry remain closed to all those 
seeking asylum, even at a time when 340,000 people cross at 
legal ports of entry every day going from Mexico into the 
United States for traffic, shopping, or whatever.
    Importantly, when you actually look at long-term outcomes 
of unaccompanied children's cases, over the last few years 
since 2013, most children did end up winning their cases or 
being granted the right to stay. When we talk about families 
and other asylum seekers, the previous administration often 
made false claims that those people wouldn't show up in court. 
But a study done by the American Immigration Council that 
looked at 2.8 million hearings from 2008 to 2018 found 
immigrants appear overwhelmingly [inaudible] 83 percent of the 
case. Those few that missed their hearings usually missed their 
hearings because of Government error and not because they are 
intentionally failing to appear.
    So that is why we need to access case management services 
that help people go through a confusing court process and not 
simply say that those few who do miss court are somehow bad 
actors. People know that if they want to have a chance at 
staying in the United States legally, they have to go through a 
process. We should make sure that process is easier to go 
through so that people don't fall through the cracks through no 
fault of their own.
    Ms. Barragan. Thank you.
    My time has expired. I will now move on to Mr. Guest.
    Mr. Guest, you are recognized for 5 minutes.
    Mr. Guest. Thank you, Madam Chairman.
    To any of the witnesses in particular, just one question I 
had deals with reunification. I know we have talked about 
reunification being a goal of the unaccompanied minors who come 
into the country. For those individuals that do not have family 
members in the United States, what should our long-term policy 
be as far as placement of these children?
    Ms. Podkul. I can start. So for about--traditionally, about 
10 percent of the unaccompanied children don't have anyone, any 
family member, anyone who is able to sponsor them when they 
arrive. So what happens is they stay in Government custody 
through the duration of their case. So at the end of their 
case, they either win their case. If they win legal status, 
they are eligible for the Unaccompanied Refugee Minor Program, 
which is a Federal foster care program where they can stay 
until they are 21 because they have their green card and they 
will be on their path to citizenship. If they lose their case, 
then they are removed by the Government just like anyone else 
would be removed by ICE.
    Mr. Guest. Let me ask you, Jennifer. I think maybe you told 
the story about the 11-year-old child who came to the United 
States without even consulting with his family. Assuming that 
he had family in his home country who wanted him back, who 
wanted to care for him and love for him and allow him to live 
in their home, should that be taken into consideration as to 
where the best placement for the child is?
    I am thinking of many times, as we deal with minor children 
here in United States and we are looking at things such as 
custody and what parent should get custody and where the best 
place for the children to grow up, and I often hear and in our 
chancery or family law court we talk about reunification, 
placing them back with parents, grandparents, with aunts and 
uncles.
    Are those matters taken into consideration? If not, should 
they not be taken into consideration as to where there are 
close family members where these children can reside and live 
in those homes?
    Ms. Podkul. That is a great question. You know, we don't 
have the consideration of the best interests of the child in 
U.S. law. Right? So there is different elements. You know, in 
some forms of relief, in some considerations, you can talk 
about what might be in that child's best interest. But there 
really isn't a legal standard here that we are applying in our 
U.S. immigration system for these children. Right? We think it 
is very important, right, just like you do, that we are taking 
into account all the considerations about this child's life and 
what is really going to be in their best interest.
    I also think it is important, when we are talking about why 
aren't people asking for protection in Mexico, right, Mexico 
has a law in which they are required to consider the best 
interest of the child. Right? It is important for the Mexican 
government to be able to talk to the U.S. Government and say, 
hey, for example, we have a child here in Mexico who is 
considering applying for asylum but their mom lives in Chicago. 
Right? Should we--if they have support there, is the child 
eventually going to wind up--want to end up with her? Does it 
make more sense for the United States to adjudicate this 
application for asylum?
    So I think it is really important not just for the United 
States to consider the best interest of the child, but for us 
to be talking about it in a regional way with countries in the 
region to make sure that we are doing right by these kids and 
families.
    Mr. Guest. Would you agree that that should be--I know it 
is not but it should be one of the things the courts should 
look at as the best interest of the child, whether that child 
remain in the United States, whether that child live in Mexico 
with family members, or return back to their country of origin? 
Should that not be at least one of the factors that the court 
addresses as we are dealing with, you know, unaccompanied 
minors who in some cases would have to go into some sort of 
foster care family or foster care system here versus being able 
to return to family members who would like them to be in their 
homes in other countries?
    Ms. Podkul. Yes. So many factors need to be taken into 
account and, most important, is where that child would be the 
safest. Right? So it is who can care for them, where does the 
family live, and where would they be most safe. Those should 
all certainly be things that the Government considers.
    Mr. Guest. So you would say that that should be a factor we 
should consider?
    Ms. Podkul. Where they have family? Yes, where they have 
family, where they have support system, absolutely, but the 
priority also has to be, which is already under U.S. law, where 
they are going to be safe. Right? So we can't just----
    Mr. Guest. Can people be safe outside the United States? I 
understand we may not return them to their country of origin. 
But if they had family in Mexico or they had family somewhere 
else and those family members wanted those children, should 
that not be taken into consideration?
    It seems to me the argument has been that everyone who 
comes into the United States, regardless of where they are 
going to be placed, should remain here. I believe that many 
should, but I also believe that there are certain circumstances 
where you have family members, particularly the 11-year-old boy 
who left his family, I think those parents should have some 
say.
    If my child left at 11, as a parent, I have legal rights in 
the United States that my child can't make that decision. As a 
parent, I get to be involved. It seems to me that that should 
be something that we should have in our court system, and it 
seems to me to be something that is lacking and has not been 
part of the conversation.
    Madam Chair, I know I am out of time, so at this time I 
yield back.
    Ms. Barragan. Thank you, Mr. Guest.
    You raised an interesting point that, frankly, I have been 
to the border many, many times, I have spoken to family 
members, and I don't generally see this situation. It is quite 
opposite. It is where the parents are sending the kids because 
of the violence, because they have already lost a kid, or 
because they are trying to protect them. Also, the number of 
family members that we have that actually have come and 
sponsored a child, that number is very high of kids who have 
family in the United States.
    But thanks so much for your questioning and for the points 
that you have made.
    I will now recognize the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Madam Chair.
    Madam Chair, I have been to the border, and I have also 
been across the border. I had a constituent, Mr. Escobar. He 
was reporting to ICE. He reported pursuant to agreements, and 
he had his American-born wife and American-born child with him. 
He was removed from his family without the kind of notice that 
we would like to have, and he was sent to El Salvador--San 
Salvador with the clothes on his back and about $20 in his 
pocket. It took us more than 2 years, I believe, to get him 
home.
    But in the process, I went there to see him, and I went to 
San Salvador and I went to a repatriation center. One of the 
things that concerned him greatly was when people are brought 
back into the country, they are literally people who will wait 
for them, waylay them, harm them. It is really not a pretty 
picture when you have an opportunity to see it up close and how 
these people are fearful of leaving the repatriation center.
    I believe one of our speakers, Mr. Reichlin-Melnick, sir, 
you talked about the harm. I want you to just revisit that. 
There are some things that bear repeating. Tell us about what 
could happen to people when we send them back to harm's way.
    Mr. Reichlin-Melnick. Thank you very much for that 
question. We saw the problems that this caused in particular 
under the Remain in Mexico program and continue to occur under 
Title 42, when people were sent back to Mexico, multiple 
people, hundreds if not thousands of people were kidnapped 
within minutes or hours after they were sent back to Mexico, 
sometimes right after their court hearings.
    When Congress held a hearing on MPP 2 years ago, we 
submitted a statement for the record about one mother who had 
crossed the border for a court hearing with her 7-year-old, 
nonverbal, disabled child. After asking not to be sent back to 
Mexico because of the danger, the previous administration 
ignored her pleas and sent her back to Mexico, and within 5 
minutes she was kidnapped at knifepoint, held, assaulted with 
her and her daughter, and ultimately ended up ordered deported 
for missing a court hearing because she was in the hands of her 
kidnappers when that court hearing was scheduled to occur.
    Even today, the cartel station people outside the ports of 
entry, waiting for the United States to send people back. As 
you said, this occurs in San Salvador as well, but it is most 
particularly egregious in Mexico right at the border. The State 
Department says that the Mexican State of Tamaulipas where many 
people are returned is a Level 4 security risk, comparable to 
Yemen, Syria, and Afghanistan, where no one should go. Yet we 
are still sending families back there every single day.
    We have to keep those risks in mind when we talk about 
sending people back and making them wait in Mexico, because, as 
we know, those situation are not safe, especially for migrants 
and especially for Black migrants who are particularly at risk 
in Mexico where there is often frequent discrimination against 
them.
    Mr. Green. With reference to the gentleman that I mentioned 
earlier, sir, Mr. Escobar, he had to stay at home most of the 
time. He was accosted when he left. Mind you, he was dropped 
off at the airport. Hadn't been to El Salvador in 15 years. 
Dropped off at the airport. Just a few dollars in his pocket. 
He and some others had to get together, pool their resources, 
and try to get a vehicle to get them outside of the city to a 
safe place before it got too dark. They had to literally try to 
escape from the airport to avoid harm.
    This is not a pretty picture. You have to actually see the 
people and how they fear for their lives to appreciate what is 
happening to them. There is a lot of fear, and my hope is that 
what you have said will have some meaning to us about just 
sending people back to harm's way. I appreciate your 
commentary.
    Madam Chair, I thank you for the second opportunity. I just 
pray that this will have a better ending than it seems that we 
are headed for.
    I yield back.
    Ms. Barragan. Thank you, Mr. Green, for sharing with us and 
for yielding back.
    That is all we--that is all we have for questions for 
Members.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions.
    The Members of the subcommittee may have additional 
questions for the witnesses, and we ask that you respond in 
writing. Without objection, the committee record shall be kept 
open for 10 days.
    I also want to ask unanimous consent to submit for the 
record letters from CHIRLA, the Lutheran Immigration and 
Refugee Service, Catholic Charities, Amnesty International, 
First Focus on Children, and Young Center for Immigrant 
Children's Rights, their submitted testimony.
    Hearing no objection, we will include those as well.
    [The information follows:]
     Letter From the Coalition for Humane Immigrant Rights (CHIRLA)
                                    April 27, 2021.
Chair Nanette Diaz Barragan,
Committee on Homeland Security, Subcommittee on Border Security, 
        Facilitation, and Operations, Washington, DC 20515.
Ranking Member Clay Higgins,
Committee on Homeland Security, Subcommittee on Border Security, 
        Facilitation, and Operations, Washington, DC 20515.
Chair Bennie Thompson,
Ranking Member John Katko,
Committee on Homeland Security, Washington, DC 20515.
Re: Hearing ``Unaccompanied Children At The Border: Stakeholder 
Perspectives On The Way Forward''

    Dear Chairs Barragan & Thompson & Ranking Members Higgins & Katko: 
On behalf of the Coalition for Humane Immigrant Rights (CHIRLA), the 
largest State-wide immigrant rights organization in California, I 
submit this statement for the record for today's hearing entitled 
``Unaccompanied Children At The Border: Stakeholder Perspectives On The 
Way Forward.'' CHIRLA is such a stakeholder, both as a steadfast 
advocate for the immigrant community at large as well as for the 
children who have recently arrived in southern California and for their 
families with whom they must be reunited without delay. Below is our 
perspective on what we as an organization are doing to help with this 
process and what can be done more generally.
                  chirla's role in southern california
    As an organization serving the immigrant community for the past 35 
years, we have worked to gain and maintain both trust and credibility 
as a reliable source of accurate information. To that effect, we field 
numerous inquiries from both our own members and the broader community 
every single day.
    For the unaccompanied minors and their families, we therefore 
opened up our toll-free National hotline specifically to family members 
seeking information about their children's whereabouts. We did so as 
soon as the first buses starting arriving to the Long Beach Convention 
Center--the second Emergency Intake Site (EIS) opened under the 
auspices of the Federal Department of Health and Human Services (HHS) 
in California after the one in San Diego--and we expect to continue 
doing so when the Pomona Fairplex opens up its doors and if other 
cities do so as well.
    California in 2021 is now a pro-immigrant State, and we are 
grateful to the city of Long Beach, the County of Los Angeles and 
Pomona as well as non-profit partners like Immigrant Defenders (who 
will be providing legal services to the children) for rising to this 
occasion. Beyond the children's physical and mental health and the 
immediate search for their family members, this has, for example, 
extended to the current on-going book and toys drive organized by the 
city of Long Beach, which we are supporting.
    Last Thursday April 22, I toured the Long Beach Convention Center 
with Mayor Robert Garcia, Representative Lowenthal, Chair Barragan's 
office and others. I saw how this all-hands-on-deck approach from 
California assists HHS and helps ensure that the well-being of the 
children is front and center of this essential mission. CHIRLA commits 
to continuing its partnership with all other stakeholders at the local, 
State, and Federal levels to help reunite these children with their 
families.
                chirla's perspective on policy solutions
    Aside from the on-going multi-year process, led by the Biden 
administration and Vice President Kamala Harris, of dealing with the 
root causes that compel the children and their families to migrate, we 
believe there are immediate actions that the Federal Government can 
take to improve the situation. These include:
    1. End the Use of Title 42 to Expel Immigrants Arriving at the 
Border.--While this has been ended for children, it has not for 
families arriving together or for single adults. For families, this is 
particular harmful and risk leading to unnecessary family separation, 
where a family member is faced with a Hobson's Choice of allowing a 
minor to face danger while waiting in Mexico or seeing that minor enter 
the United States alone.
    2. HHS Personnel Must be Co-Located at All CBP Facilities.--When 
the Title 42 is ended, this is essential so that children who arrive 
with non-parental caregivers can be quickly reunited with each other 
following processing by HHS and CBP.
    3. Increase the Use of Intensive Case Management and Assist 
Children, including with transportation costs, so they can be reunited 
with their families once located.
    Finally, from addressing root causes to modernizing our broken 
immigration system including the asylum processing destroyed by the 
previous adminstration, CHIRLA believes that the U.S. Citizenship Act 
(H.R. 1177 and S. 348) as well as other immigration legislation that 
offers permanent relief need to be passed by Congress and sent to 
President Biden's desk forthwith.
    Thank you for considering CHIRLA's statement. Please contact our 
policy counsel, Carl Bergquist, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="23404146514452564a505763404b4a514f420d4c5144">[email&#160;protected]</a>, should you 
have any questions.
            Sincerely,
                                            Angelica Salas,
Executive Director, Coalition for Humane Immigrant Rights (CHIRLA).
                                 ______
                                 
     Statement of Susannah Cunningham, Advocacy Manager, Lutheran 
                    Immigration and Refugee Service
                             April 27, 2021
    cbp data shows the rise of unaccompanied children under title 42
    LIRS has decades of experience in policy and programming with 
children who come into the immigration enforcement system in the United 
States. We are a solutions-oriented organization that works closely 
with our Federal partners and a National network of local affiliates to 
ensure every child who enters the United States is treated with the 
dignity and care that we would wish for our own children.
                              introduction
    Mounting evidence indicates that the historic number of arrivals of 
unaccompanied children at the Southern Border is the result of a 
specious ``public health order,'' Title 42--a Trump-era U.S. policy 
that can and should be reversed.
    Evoked in March 2020, the regulation halted asylum access for 
families and individuals presenting themselves at southern ports of 
entry, while the border remained open to hundreds of thousands of 
people crossing daily for non-essential travel. When legal challenges 
arose, Federal courts found reason to make exception for unaccompanied 
children and President Biden chose to keep the carve-out in place--
making unaccompanied children among the select few individuals 
permitted access to life-saving refuge. This policy functionally forced 
families to decide to stay together amid unsafe conditions in Mexico or 
to separate in the hopes of safeguarding their children.\1\
---------------------------------------------------------------------------
    \1\ David Bier, ``Immediate Solutions for Migrant Children,'' Cato 
Institute, March 17, 2021, https://www.cato.org/publications/immediate-
solutions-migrant-children#release-children-nonparental-adult-family.
---------------------------------------------------------------------------
    While the impact of 2 devastating hurricanes and regional 
instability have pushed migrants out of the Northern Triangle in 
Central America, many of these asylum seekers and migrants are also 
pulled by the hope of safe haven, the assurances of seasonal work (i.e. 
agriculture), and annual weather patterns that make the route to the 
border more survivable. These colliding factors, timed with pent-up 
demand from delayed travel during the 2020 pandemic, have driven a 
cyclical migration influx that we have seen in previous years, 
including each year of the 1980's and as recently as 2014 and 2019.\2\ 
As many have noted, what is unusual this year is the historic number of 
arrivals of unaccompanied children at the border, which could be 
decreased if the Biden administration were to end Title 42.
---------------------------------------------------------------------------
    \2\ Refugee Council USA ``No Justification: The Administration's 
Crusade to Ban All Refugees,'' July 19, 2019, https://rcusa.org/
resources/strongno-justification-the-administrationsnbspcrusade-to-ban-
all-refugeesnbspstrong/.
---------------------------------------------------------------------------
                           what is title 42?
    On March 20, 2020, the Trump White House--in collaboration with 
then-Acting Secretary Chad Wolf--directed a new order, stipulating that 
those ``introducing'' themselves at Southern ports-of-entry to apply 
for asylum should be turned away and ``expelled'' back to Mexico or 
their home countries.\3\ This directive functionally suspended the 
long-guaranteed right to seek asylum for individuals who arrive at our 
Southern Border and ask for protection. The expulsions were carried out 
by Customs and Border Protection (CBP) under the evocation of a little-
known provision of U.S. health law, section 265 of U.S. Code Title 42. 
Despite being billed as a public health order at the time, the Center 
for Disease Control's (CDC) own scientists disputed the public health 
merit of the order while the United States still permitted robust 
commerce and non-essential travel across the border, and CDC officials 
refused to sign it.\4\ Originating from the West Wing and then-Acting 
Secretary Chad Wolf's agency, the order would remain in effect despite 
wide-spread criticism by leading public health officials.\5\
---------------------------------------------------------------------------
    \3\ Dara Lind, ``Democratic Senators Demand Answers on Trump's 
Secretive Border Expulsions,'' ProPublica, April 8, 2020, https://
www.propublica.org/article/democratic-senators-demand-answers-on-
trumps-secretive-border-expulsions. And ``Acting DHS Secretary Wolf 
Speaks to Reporters,'' C-SPAN, March 20, 2020, https://www.c-span.org/
video/?470541-101/dhs-secretary-wolf-limiting-cross-border-travel-
coronavirus-crisis.
    \4\ James Bandler et al, ``Inside the Fall of the CDC,'' Pro 
Publica, October 15, 2020, https://www.propublica.org/article/inside-
the-fall-of-the-cdc.
    \5\ ``Public Health Experts Urge U.S. Officials to Withdraw Order 
Enabling Mass Expulsion of Asylum Seekers,'' Columbia University 
Mailman School of Public Health, May 18, 2020, https://
www.publichealth.columbia.edu/public-health-now/news/public-health-
experts-urge-us-officials-withdraw-order-enabling-mass-expulsion-
asylum-seekers.
---------------------------------------------------------------------------
    CBP would subsequently report that 90 percent of expulsions in May 
2020 were under the Title 42 Order.\6\ Subsequent investigations found 
that CBP had controversially and possibly illegally expanded the 
jurisdiction of the original Title 42 order to apply beyond those 
``introducing'' themselves to the United States, deciding that the 
order extended authorization to also expel those who had already 
crossed into the United States.\7\
---------------------------------------------------------------------------
    \6\ Rafael Bernal, ``90 percent of People Apprehended at Border 
Expelled under New Coronavirus Order,'' The Hill, May 7, 2020, https://
thehill.com/latino/496632-90-percent-of-people-apprehended-at-border-
expelled-under-new-coronavirus-order?rl=1.
    \7\ United States District Court for the District of Columbia, 
``PJES v. Chad Wolf, Case 1:20-cv-02245-EGS-GM U.S. District Court for 
the District of Columbia,'' November 18, 2020, https://www.dropbox.com/
s/plbuv0knoth1623/PJES%20opinion.pdf?dl=0.
---------------------------------------------------------------------------
               who is crossing the border under title 42?
    Hundreds of thousands of people cross the U.S.-Mexico border on a 
daily basis, mostly for commerce and non-essential travel.\8\ Sixteen 
million individuals crossed the U.S.-Mexico border in March 2021 
alone.\9\ However, a combination of the previous administration's 
Remain in Mexico program as well as the Title 42 order has ensured that 
shamefully few of those millions of individuals crossing monthly are 
those seeking life-saving asylum.
---------------------------------------------------------------------------
    \8\ ``Border Crossing/Entry Data,'' Bureau of Transportation 
Statistics, April 26, 2021, https://www.bts.gov/browse-statistical-
products-and-data/border-crossing-data/border-crossingentry-data.
    \9\ ``Border Crossing/Entry Data,'' Bureau of Transportation 
Statistics, April 26, 2021, https://www.bts.gov/browse-statistical-
products-and-data/border-crossing-data/border-crossingentry-data.
---------------------------------------------------------------------------
    Recent analysis by the American Immigration Council indicates, 
``last month, 72 percent of all people encountered at the border were 
sent back to Mexico or expelled to their home countries. And while 
unaccompanied children and some families at the border have been 
allowed to come into the country and challenge their deportation in 
immigration court, they represent a fraction of overall entrants.''\10\
---------------------------------------------------------------------------
    \10\ ``Facts About the Current Situation at the Border,'' American 
Immigration Council, March 23, 2021, https://
www.americanimmigrationcouncil.org/news/facts-about-current-situation-
border.
---------------------------------------------------------------------------
    what evidence is there that title 42 is creating the influx of 
                        unaccompanied children?
    CBP officials have reported the phenomenon publicly. Brian 
Hastings, who leads the busiest Border Patrol sector in the United 
States reported, ``what we are seeing, more and more, is the families 
are self-separating in Mexico.''\11\ From February 24 to March 23, 
2021, Border Patrol documented 435 incidents in just one sector (in the 
south Texas region) where children were apprehended crossing the border 
alone after previously being expelled with their family under the Title 
42 order. When the unaccompanied children arrive at ports of entry or 
are found alone by Border Patrol, they are first placed in the custody 
of CBP--most of them held in in-take facilities that we have seen 
images of in the news, with children laying in overpacked pods, wrapped 
in mylar blankets behind plastic screens. The children are then 
transferred to the custody of Health and Human Services--most after 
spending an average of 122 hours in CBP custody, despite mandates that 
they be transferred within 72 hours.\12\
---------------------------------------------------------------------------
    \11\ Geneva Sands, ``Families are `self-separating' in Mexico after 
being expelled from the US, Border Patrol says,'' CNN, April 6, 2021 
https://www.cnn.com/2021/04/06/politics/families-self-separating-
mexico-border-patrol/index.html.
    \12\ Priscilla Alvarez, ``How the Biden Administration is 
Responding to a Record Number of Unaccompanied Children at the US-
Mexico Border,'' CNN, April 23, 2021, https://www.cnn.com/interactive/
2021/04/politics/biden-administration-border-crisis/.
---------------------------------------------------------------------------
    In March, Border Patrol apprehended 18,656 unaccompanied minors at 
the Southwest Border, a record since at least October 2009. This is 
about twice as many apprehensions as in February and continues an 
upward trend dating back to last fall, according to the agency's 
data.\13\
---------------------------------------------------------------------------
    \13\ Priscilla Alvarez, ``How the Biden administration is 
responding to a record number of unaccompanied children at the US-
Mexico border,'' CNN, April 23, 2021, https://www.cnn.com/interactive/
2021/04/politics/biden-administration-border-crisis/.
---------------------------------------------------------------------------
                        we have seen this before
    In January 2020, under the Trump administration's Remain in Mexico 
program, which forced asylum applicants to wait in Mexico pending their 
asylum hearings, we saw record numbers of unaccompanied minors arriving 
after Border Patrol officials had initially encountered them with 
family members and deported them.\14\ How they separated from their 
family members varies, but reports suggest both concerning 
disappearances of family members as well as self-separation of families 
that decided that the squalid and unsafe conditions in Mexico were too 
dangerous for their children.\15\
---------------------------------------------------------------------------
    \14\ Priscilla Alvarez, ``At least 350 children of migrant families 
forced to remain in Mexico have crossed over alone to US,'' CNN, 
January 24, 2020, https://www.cnn.com/2020/01/24/politics/migrant-
children-remain-in-mexico/index.html.
    \15\ Priscilla Alvarez, ``At least 350 children of migrant families 
forced to remain in Mexico have crossed over alone to US,'' CNN, 
January 24, 2020, https://www.cnn.com/2020/01/24/politics/migrant-
children-remain-in-mexico/index.html.
---------------------------------------------------------------------------
                      other important implications
    An additional implication of Title 42 is its unjustified and 
immoral use to deport Black Haitian immigrants to Mexico or back to 
Haiti without asylum proceedings or access to legal representation, 
violating codified U.S. law forbidding refoulement.\16\ Given that many 
of the expulsions and deportations of immigrants back to Mexico were 
based on agreements with the Mexican government related to Central 
American asylum seekers, its use to violate American law and deport 
Haitian asylum seekers back to Haiti is unconscionable. As Tom Ricker, 
policy director with the Quixote Center, points out, ``the entire 
justification for the Title 42 policy is the claim that the United 
States lacks the capacity to safely detain people. Yet, the United 
States is holding people for weeks . . . How do you deny someone asylum 
who has been placed in detention--with no legal representation at all--
based on the argument that there is no capacity to detain them?''
---------------------------------------------------------------------------
    \16\ Dara Lind, ``Leaked Border Patrol Memo Tells Agents to Send 
Migrants Back Immediately--Ignoring Asylum Law,'' Pro Publica, April 2, 
2020, https://www.propublica.org/article/leaked-border-patrol-memo-
tells-agents-to-send-migrants-back-immediately-ignoring-asylum-law.
---------------------------------------------------------------------------
                          rescinding title 42
    For the reasons stated above, Lutheran Immigration and Refugees 
Service joins UndocuBlack Network, Southern Border Communities 
Coalition, the National Council of Churches, the CATO Institute, and 
186 other groups and leaders in calling for the end of the meritless 
Title 42 policy.\17\ Rescinding Title 42 would create a path forward 
for families who wish to remain together as they seek safety, one that 
is consistent with our values as a Nation and would end the continuance 
of a deeply shameful policy of family separation under the Trump 
administration.
---------------------------------------------------------------------------
    \17\ David Bier, ``Immediate Solutions for Migrant Children,'' Cato 
Institute, March 17, 2021, https://www.cato.org/publications/immediate-
solutions-migrant-children#release-children-nonparental-adult-family.
---------------------------------------------------------------------------
               lutheran immigration and refugee services
    For 80 years, Lutheran Immigration and Refugee Service has assisted 
forcibly uprooted people from round the globe. As the largest faith-
based organization focused on serving migrants and refugees, we seek to 
provide assistance and protection to vulnerable populations when they 
can no longer safely remain in their home countries. Informed by a 
Lutheran legacy of welcoming the stranger, the sanctity of family, and 
decades of experience with migrants and refugees, we have empowered 
more than 500,000 families and individuals fleeing conflict, 
persecution, and war. We provide a host of services, which include:
Migrant Services
    LIRS coordinates services for asylum seekers at the Southern 
Border, departing immigration detention, and at their final 
destinations, including the provision of necessities such as food, 
clothing, and hygiene supplies, medical triage and basic care, Know 
Your Rights counseling, emergency housing, and case management 
services.
Safe Release Support Services
    Safe Release Support sites perform background checks on potential 
guardians to ensure that children are reunited into safe and secure 
homes. Safe Release staff identify various needs of the family such as 
pro bono legal counsel, food banks, counseling services, English 
classes, job training, and medical care, and connect them to these 
services. During the 2018 family separation crisis, LIRS was 1 of only 
2 agencies working to reunite families.
Transitional Foster Care for Unaccompanied Children
    The Transitional Foster Care program provides safe and caring 
foster homes to particularly vulnerable children who will be reunified 
with their families. The program specializes in serving minors under 
the age of 12, pregnant/parenting youth, youth with disabilities, and 
sibling groups while their families are located. All children in 
transitional care receive individualized assessments, acculturation and 
adaptation services, case management, education, weekly group and 
individual counseling, legal support, mental and medical health care, 
and access to religious services.
Long-Term Foster Care for Unaccompanied Children
    Unaccompanied children without family reunification options but who 
have the possibility of receiving legal immigration protections are 
placed in Long-Term Foster Care where they receive on-going case 
management support as they integrate into their new communities. 
Children in Long-Term Foster Care are placed with loving foster 
families until their immigration case is resolved and typically will 
transition into the Unaccompanied Refugee Minors program.
Home Study and Post-Release Services
    For particularly vulnerable unaccompanied children, LIRS offers 
community-based case management services. These include inspection of 
home environments once the child and the caregiver are together in the 
home, connecting families to community resources, and empowering 
families with the resources and knowledge they need to make informed 
decisions about schooling, legal representation, medical health, mental 
health, and recreational and religious services.
                                 ______
                                 
               Letter From Catholic Charities USA (CCUSA)
                                    April 27, 2021.
The Hon. Nanette Barragan,
Chairwoman, U.S House of Representatives, Subcommittee on Border 
        Security, Facilitation, and Operations, 2246 Rayburn House 
        Office Building, Washington, DC 20515.
The Hon. Clay Higgins,
Ranking Member, U.S House of Representatives, Subcommittee on Border 
        Security, Facilitation, and Operations, 572 Cannon House Office 
        Building, Washington, DC 20515.
    Dear Chairwoman Barragan and Ranking Member Higgins: I write on 
behalf of Catholic Charities USA (CCUSA), the national office for 167 
Catholic Charities agencies across the country and the U.S. 
territories, to express our appreciation for the opportunity to submit 
our written statement for the record about unaccompanied children along 
the Southern Border.
    Our border agencies are actively working to assist all migrants 
along the Southern Border, including families and unaccompanied 
children. We are in regular communication with Federal agencies to 
identify services our network of agencies can provide to meet the needs 
of these children. Last year, Catholic Charities agencies provided over 
160,000 migrants with shelter and respite care. We have over 100 years 
of experience serving and responding to the needs of newcomers. Each 
day Catholic Charities agencies witness first-hand both the unique 
hardships faced by migrant communities and the incredible contributions 
they continue to make to our country.
    We are encouraged to hear policy discussions and a renewed focus on 
the root causes of migration. Our agencies hear incredible stories of 
struggles from the migrants we serve. They have been forced to leave 
their homelands due to a range of perilous issues: Devastating 
hurricanes that destroyed entire villages, caused crop failures and 
washed away homes; gang violence that is a constant threat to daily 
life; and high levels of poverty. Many arrive at our border as a means 
of survival. Hearing of the root causes that compel families to make 
the difficult decision of sending their children to our country in the 
hope that they may reunite with family members simply to survive should 
cause all Americans to pause and contemplate such a decision. Their 
situation could not be more dire. CCUSA urges Congress, the 
administration, and Homeland Security agencies to treat all migrants 
humanely when arriving in the United States and along our borders. We 
also encourage serious debate on comprehensive immigration reform for a 
more just and humane immigration system.
    CCUSA stands ready to work with Congress in support of just 
immigration policies and will continue in our ministry of assisting 
those in need.
            Sincerely,
                                      Sister Donna Markham,
                                          OP, PhD, President & CEO.
                                 ______
                                 
                 Letter From Amnesty International USA
                                    April 26, 2021.
Representative Nanette Barragan,
Chair, Homeland Security Subcommittee on Border Security, Facilitation, 
        & Operations.
Representative Clay Higgins,
Ranking Member, Homeland Security Subcommittee on Border Security, 
        Facilitation, & Operations.
Re: Amnesty International USA Statement for Hearing: Unaccompanied 
Children at the Border: Stakeholder Perspectives on the Way Forward

    Dear Chairperson Barragan, Ranking Member Higgins, and Members of 
the Subcommittee: On behalf of Amnesty International USA and our 
members and supporters in the United States, we submit this statement 
for the record on the treatment of unaccompanied children at the U.S. 
Southern Border.\1\
---------------------------------------------------------------------------
    \1\ Amnesty International is an independent, Nobel Peace Prize-
winning, global human rights movement of more than 10 million people. 
Amnesty International USA is the movement's U.S.-based section.
---------------------------------------------------------------------------
    As the Biden administration continues to welcome children seeking 
safety at the U.S. Southern Border, we call on the Government to take 
bold action to transform how it welcomes children--and all people--into 
this country and ensure their human rights.
    The Biden administration has inherited a chaotic, punitive system 
that does not prioritize the well-being of people seeking safety in the 
United States--including unaccompanied children. The consequences are 
playing out now on the U.S. Southern Border, where the gross negligence 
from the previous administration--a lack of planning and resources 
invested in facilities to welcome children seeking safety--is creating 
challenges for processing. COVID-19 precautions have also constrained 
capacity.
    In 2018 and 2019, Amnesty International USA visited the temporary 
influx facilities for unaccompanied children at Tornillo and Carrizo 
Springs in Texas, and the notorious Homestead facility in Florida, as 
well as permanent facilities for children in Florida and Texas.\2\ 
Advocacy groups such as ours sounded the alarm, calling for 
accountability for human rights violations at Homestead in particular. 
We demanded an end to the cruel policies that had necessitated the use 
of these facilities at all--forcibly separating families and using 
children as bait to deport their potential sponsors through the 
Department of Homeland Security (``DHS'') and the Office of Refugee 
Resettlement (``ORR'').\3\
---------------------------------------------------------------------------
    \2\ Amnesty International USA, No Home for Children: The Homestead 
`Temporary Emergency' Facility (July 2019), available at 
www.amnestyusa.org/reports/no-home-for-children-us-government-
detention-of-children-at-homestead-facility-cruel-and-unlawful/.
    \3\ Women's Refugee Commission and National Immigrant Justice 
Center, Children as Bait: Impacts of the ORR-DHS Information-Sharing 
Agreement (March 2019), available at https://immigrantjustice.org/
sites/default/files/content-type/research-item/documents/2019-03/
Children-as-Bait.pdf.
---------------------------------------------------------------------------
    While the immediate context necessitating the use of temporary 
influx facilities is different, the Biden administration is still 
obligated to hold children in conditions that meet international human 
right standards and U.S. standards that support their best interests. 
No matter the situation or who is heading the administration, the 
Government must uphold its human rights obligations.
    The Government is taking responsive steps and a holistic approach 
to move children from Customs and Border Protection (``CBP'') 
facilities to Office of Refugee Resettlement (``ORR'') facilities 
quickly, but it needs to do more and faster. Children must be held in 
conditions that meet their best interests and safely reunified with 
families and sponsors much more quickly.
    Now is the time for transformation. As the administration adapts to 
current challenges, it must concurrently set in motion the systemic 
changes needed for reforming the border reception and ORR systems for 
unaccompanied children, so children are held in CBP facilities for 
minimal time; the need for influx facilities in the future is 
eliminated; the use of detention is not assumed; and children's safe 
and speedy release and reunification with parents, caregivers, and 
other sponsor is prioritized, as both U.S. and international human 
rights law require.
  human rights standards governing the detention of immigrant children
    Under international human rights standards, all actions concerning 
children should be guided by the best interests of the child.\4\ Under 
that ``best interests'' principle, the U.N. Committee on the Rights of 
the Child has underscored that ``protection and care'' should be 
provided that ensures ``the child's `well-being' and development. 
Children's well-being, in a broad sense includes their basic material, 
physical, educational, and emotional needs, as well as needs for 
affection and safety.''\5\ The United States has incorporated this 
principle at the Federal and State levels. Congress has incorporated 
the best interests of the child standard into multiple immigration law 
provisions respecting children.\6\ All 50 States, the District of 
Columbia, and U.S. territories require consideration of a child's best 
interests in decisions about the child's custody.\7\
---------------------------------------------------------------------------
    \4\ U.N. Convention on the Rights of the Child (``CRC''), Art. 3(1) 
(November 20, 1989), available at www2.ohchr.org/english/law/pdf/
crc.pdf. The United States signed the CRC in 1995, though it is the 
only country that has yet to ratify it. As a signatory to the CRC, the 
United States is prohibited under customary international law from acts 
that would defeat its object and purpose.
    \5\ Committee on the Rights of the Children, General Comment No. 
14, 71 (2013), available at www2.ohchr.org/English/bodies/crc/docs/GC/
CRC_C_GC_14_ENG.pdf.
    \6\ See, e.g., 8 U.S.C.  1101(a)(27)(J); Immigration and 
Naturalization Service, Guidelines for Children's Asylum Claims 
(December 10, 1998), at 2, 6, 9. Federal agencies that take 
unaccompanied children into custody must place them in the least 
restrictive setting that is in their best interests. 8 U.S.C.  
1232(c)(2).
    \7\ See Child Welfare Information Gateway, Determining the Best 
Interests of the Child (2012), available at www.childwelfare.gov/
pubPDFs/best_interest.pdf.
---------------------------------------------------------------------------
    Children should not be detained, whether unaccompanied or 
accompanied, as it is not in their best interests.\8\ If children are 
detained, they must only be detained as a last resort for the shortest 
possible time and in the least restrictive setting possible, in a 
facility that is appropriate to the child's needs and complies with 
both international and U.S. standards.\9\ Whenever a child is detained, 
they should be treated ``in a manner that takes into account the needs 
of persons of his or her age.''\10\
---------------------------------------------------------------------------
    \8\ See International Covenant on Civil and Political Rights 
(``ICCPR''), Art. 9(3); U.N. High Commissioner for Refugees 
(``UNHCR''), UNHCR's Position Regarding the Detention of Refugee and 
Migrant Children in the Migration Context, January 2017, at 2, 
available at http://www.refworld.org/docid/5885c2434.html.
    \9\ See CRC, Art. 37; see also General Comment from UNHCR on ICCPR 
Art. 9; Joint General Comment No. 3 (2017) of the Committee on the 
Protection of the Rights of All Migrant Workers and Members of Their 
Families and No. 22 (2017) of the Committee on the Rights of the Child 
on the general principles regarding the human rights of children in the 
context of international migration, Art. 32(f) (November 16, 2017).
    \10\ CRC, Art. 37(c)129.
---------------------------------------------------------------------------
    The Flores Settlement Agreement (``Flores Agreement'') lays out 
standards for the detention, release, and treatment of immigrant 
children--whether unaccompanied or accompanied.\11\ The Flores 
Agreement is based on 2 principles: The best interests of the child and 
family unity. It requires the Government to release immigrant children 
as quickly as possible, and to hold them in the least restrictive 
setting possible--generally, in a non-secure facility licensed by a 
State child welfare entity. It provides for exemptions to the care and 
oversight of children ``in the event of an emergency or influx of 
minors into the United States.''\12\ The Trafficking Victims Protection 
Reauthorization Act of 2008 (``TVPRA'') similarly requires that 
children be placed in the ``least restrictive setting that is in the 
best interest of the child,'' and notes that children ``shall not be 
placed in a secure facility absent a determination that the child poses 
a danger to self or to others.''\13\
---------------------------------------------------------------------------
    \11\ Flores v. Lynch, No. CV 85-04544 DMG (Ex), Central District of 
California (August 21, 2015,) available at www.aila.org/File/Related/
14111359p.pdf [hereinafter Flores Agreement].
    \12\ Flores Agreement.
    \13\ William Wilberforce Trafficking Victims Protection 
Reauthorization Act (TVPRA)  235(c)(2); 8 U.S.C.  1232(c)(2), Pub. L. 
No. 110-457, 122 Stat. 5044 (2008).
---------------------------------------------------------------------------
                response at the border and a way forward
    The administration is taking a whole-of-Government approach to 
welcome children more in line with its obligations. It has revoked the 
dangerous agreement between DHS and ORR that endangered children and 
their sponsors--which advocacy groups like ours fought for years.\14\
---------------------------------------------------------------------------
    \14\ www.cnn.com/2021/03/12/politics/biden-rescinds-trump-
immigration-migrants-minors/index.html.
---------------------------------------------------------------------------
    Mobilizing FEMA for emergency intake sites is helping to swiftly 
and humanely address children's welfare by moving them out of border 
facilities. CBP facilities are no places for families or children to 
stay a moment longer than absolutely necessary.
    Putting creative processes into place to get children out of ORR 
shelters faster right now--from reducing quarantine time to paying for 
transportation of children and sponsors--will not only release children 
more quickly and create more capacity, but it also charts a path for 
reform.
    Nonetheless, the administration must move faster to get children 
out of CBP stations more quickly, while taking immediate steps that 
will lead to long-term reforms, so the Government is not here in the 
same situation in another year.
    At the border, ORR should start the sponsor-vetting process rather 
than at a later stage. This would potentially allow for release of 
children to their parents, families, and other sponsors from the 
border. Additionally, ORR and CBP should test not only children but 
also their sponsors for COVID-19 to enable quicker release and even 
potentially allow children to quarantine with their sponsors, who are 
often parents and family members.
    Beyond the border, the administration must start right now to 
expand its network of ORR facilities. The facilities should be 
permanent, licensed, and small scale. Children should not be warehoused 
in facilities with 500 beds as if they are in a processing plant. 
Detention should not be assumed as the model, and foster care options 
must be expanded.
    This expansion process will take time, and that is why the 
administration must act urgently. The United States must not continue 
using temporary influx facilities because of a lack of planning or 
investment in the infrastructure to care for unaccompanied children. In 
emergency situations, influx facilities are an imperfect stopgap 
measure. The Government must move away from their use.
    While these facilities are in use, the Biden administration must 
ensure stringent safeguards are in place to care for children. Unlike 
before, the use temporary facilities should have the same services and 
standards of care as permanent ones. Children's rights should not be 
short-changed because of where they are held; the Government is 
obligated to uphold their rights equally. Children be released as 
quickly as possible from them to parents and other sponsors. The 
Government must also ensure regular access to these facilities for 
independent monitors, child welfare experts, and attorneys to ensure 
children's welfare and oversight and accountability. Influx facilities 
are not appropriate for prolonged use, and they should be de-activated 
as quickly as possible.
    In addition to expanding system capacity, the sponsor-vetting 
process must be streamlined and case management services immediately 
and heavily invested in so children can have a place to call home. 
Efficiencies do not mean compromising thoroughness; the well-being of 
the child is always paramount. There must need immediate investment in 
processing sponsorship applications much more quickly as well as 
increasing post-release services to ensure children's welfare. Most 
unaccompanied children have families and sponsors waiting to welcome 
them, and that's where they belong--the Government is not a parent.
    Challenges bring opportunities for change, and systemic reform must 
begin now to stop this cycle of urgent response at the border for the 
reception of unaccompanied children and release to their parents, 
caregivers, and other sponsors. The United States has the capacity, and 
must marshal the political will, to act.
                      stop the misuse of title 42
    The exemption of unaccompanied children from Title 42 is welcome 
and was long overdue, as it conflicts with the TVPRA and human rights 
obligations.
    However, continuing to apply Title 42 to adults and families is 
unlawful, not based on science, and perpetuates the systemic racism 
permeating the United States' punitive immigration enforcement system. 
It also creates family separation and endangers children when parents 
expelled under Title 42 and placed in a desperate situation, allow 
their children to travel to the United States alone to ask for 
protection.
    The misuse of Title 42 violates the United States' obligations 
under international and domestic law to uphold the right to seek asylum 
and not forcibly return individuals to a place where they would face 
persecution. Since Title 42 it has resulted in the summary expulsion of 
over 500,000 immigrants and asylum seekers.\15\ Title 42 has 
particularly affected Black immigrants and asylum seekers, who have 
been summarily returned to the countries they fled because the Mexican 
government is largely only receiving immigrants and asylum seekers from 
the northern countries of Central America who are expelled under Title 
42.\16\ Over the course of Black History Month in February 2021 and 
then in March 2021, the Biden administration expelled over 1,200 
Haitians to danger in Haiti, including children, infants, and 
families.\17\
---------------------------------------------------------------------------
    \15\ U.S. Department of Homeland Security, Customs and Border 
Protection, Nation-wide Enforcement Encounters: Title 8 Enforcement 
Actions and Title 42 Expulsions (April 7, 2021), available at 
www.cbp.gov/newsroom/stats/cbp-enforcement-statistics/title-8-and-
title-42-statistics.
    \16\ www.dhs.gov/news/2021/03/16/statement-homeland-security-
secretary-alejandro-n-mayorkas-regarding-situation.
    \17\ Haitian Bridge Alliance, The UndocuBlack Network, and The 
Quixote Center, The Invisible Wall: Title 42 and its Impact on Haitian 
Migrants (March 2020), available at www.quixote.org/wp-content/uploads/
2021/03/The-Invisible-Wall.pdf.
---------------------------------------------------------------------------
    The United States' public health laws should not be used to evade 
U.S. obligations under human rights and refugee law. The U.N. High 
Commissioner for Refugees has made clear that blanket measures 
restricting access to asylum on health grounds, without safeguards to 
protect against refoulement, is discriminatory, does not meet 
international standards for protection, and cannot be justified.\18\ As 
President Biden assumed office, UNHCR yet again reminded governments: 
``The right to seek asylum is a fundamental human right. The COVID-19 
pandemic provides no exception.''\19\ Yet, the Biden administration 
continues to use Title 42 to expel people seeing safety under the 
pretext of public health, violating their right to seek asylum and 
protection against refoulement--bedrock principles of refugee 
protection.
---------------------------------------------------------------------------
    \18\ UNHCR, Key Legal Considerations on access to territory for 
persons in need of international protection in the context of the 
COVID-19 response (March 16, 2020), available at www.refworld.org/
docid/5e7132834.html.
    \19\ UNHCR, UNHCR warns asylum under attack at Europe's borders, 
urges end to pushbacks and violence against refugees (January 28, 
2021), available at www.unhcr.org/en-us/news/press/2021/1/601121344/
unhcr-warns-asylum-under-attack-europes-borders-urges-end-pushbacks-
violence.html.
---------------------------------------------------------------------------
    Furthermore, the use of Title 42 does not advance the public health 
justifications on which it is purportedly based. The use of Title 42 
contradicts public health experts, who have clearly assessed and 
confirmed that there is no public health rationale for denying people 
their right to claim asylum at the U.S. border.\20\ Despite experts at 
the Centers for Disease Control and Prevention (CDC) determining there 
was no public health rationale to close the border, the order invoking 
the use of Title 42 was still issued over their objections.\21\
---------------------------------------------------------------------------
    \20\ See www.publichealth.columbia.edu/research/program-forced-
migration-and-health/letter-acting-hhs-secretary-cochran-and-cdc-
director-walensky.
    \21\ See www.cbsnews.com/news/trump-administration-closed-borders-
migrant-children-covid-19; https://apnews.com/article/virus-outbreak-
pandemics-public-health-new-york-health-
4ef0c6c5263815a26f8aa17f6ea490ae.
---------------------------------------------------------------------------
    Simply put: There is no public health rationale to treat immigrants 
and asylum seekers differently, but it is causing irreparable harm to 
them. Public health experts have published a series of recommendations 
on how to restart the asylum process safely by using common-sense 
measures.\22\
---------------------------------------------------------------------------
    \22\ See www.publichealth.columbia.edu/public-health-now/news/
public-health-experts-issue-recommendations-protect-public-health-and-
lives-asylum-seekers.
---------------------------------------------------------------------------
    The welcoming of children at the border--while continuing the 
expulsion of families with children as well as adults--demonstrates 
that the use of Title 42 is arbitrary and serves as a cruel and 
unlawful form of border management. UNHCR has warned that ``[m]easures 
restricting access to asylum must not be allowed to become entrenched 
under the guise of public health.''\23\ We urge the administration to 
heed that warning and stop the misuse of Title 42 and the practice of 
summarily expelling immigrants and people seeking safety--including 
families with children.
---------------------------------------------------------------------------
    \23\ UNHCR, Inclusion key to protecting refugees and their hosts 
amid COVID-19 pandemic (November 4, 2020), available at www.unhcr.org/
news/press/2020/11/5fa2f16b4/inclusion-key-protecting-refugees-hosts-
amid-covid-19-pandemic.html.
---------------------------------------------------------------------------
                     conclusion and recommendations
    In the midst of National debates urging the Biden administration to 
close the border and framing children as a threat to National security 
and the immigration system, the focus must remain on our collective 
humanity. These are children who are seeking safety. Their well-being, 
safety, and security must be the north star. The United States must 
take urgent steps to improve conditions at the border and ensure the 
safe, expedited release of children to their families and other 
sponsors. The alternative is unacceptable and unlawful: Children must 
not be expelled under Title 42. Children--and all people--seeking 
safety can and must be welcomed. It is the United States' legal and 
moral obligation, and it is their human right to ask for safety.
Amnesty International USA recommends:
  <bullet> Unaccompanied children should not be detained. However, if 
        detention is necessary, children should be placed for the 
        shortest period of time possible in foster care facilities or 
        small-size, State-licensed, permanent facilities while they are 
        reunified with their families or matched with other appropriate 
        sponsors.
    <bullet> ORR should fully utilize existing transitional foster care 
            (TFC) beds and long-term foster care (LTFC) beds and expand 
            available TFC and LTFC capacity so that more children can 
            be placed in foster care rather than congregate care 
            facilities.
    <bullet> ORR should immediately begin efforts to expand placement 
            capacity for permanent, licensed, small-scale facilities 
            containing under 25 beds.
  <bullet> Decisions regarding the release of unaccompanied children to 
        sponsors must always made in a child's best interests, 
        supported by adequate staffing and resources to ensure that 
        children are placed with appropriate sponsors as quickly as 
        possible, and not based on the sponsor's immigration status or 
        used for immigration enforcement. Whenever possible, all effort 
        should be made to place unaccompanied children in ORR 
        facilities as close to their potential sponsors as possible.
    <bullet> HHS should fully adopt co-location of HHS personnel at CBP 
            facilities to initiate the release of children arriving 
            with trusted caregivers at the border to facilitate 
            expedited, safe release of children. For children arriving 
            with trusted caregivers who are not their parents or legal 
            guardian, HHS personnel should be provided with a separate 
            space to initiate an evaluation of these caregivers as 
            potential sponsors while they are in CBP custody and, if 
            approved, release the child and caregiver together when 
            possible. This would avoid the need to separate children 
            from their caregivers, transfer them to ORR custody, and 
            only then begin the sponsorship process. Children who 
            arrive and are released with trusted caregivers meet the 
            legal definition of unaccompanied child and should be 
            afforded all protections for unaccompanied children 
            provided by the TVPRA. For children arriving alone, HHS 
            personnel should interview these children to identify any 
            special needs the child may have as well as any potential 
            sponsor(s), which should be shared immediately with the 
            child's case manager to speed up the sponsor vetting 
            process. All unaccompanied children whose family 
            reunifications are expedited, whether through direct 
            release at co-located CBP facilities or other means, should 
            be ensured legal counsel and post-release services.
    <bullet> ORR should implement intensive case management as standard 
            practice to safely expedite children's release.
    <bullet> ORR should increase post-release services to ensure 
            children's welfare.
    <bullet> ORR should continue the practice of paying for the child's 
            transportation to their sponsor once the release process is 
            approved. ORR should also pay for the care provider staff 
            member's transportation costs if necessary, to escort the 
            child to their sponsor.
    <bullet> ORR should not re-enter into any information-sharing 
            agreement regarding an unaccompanied child for use or 
            reference during removal proceedings or for immigration 
            enforcement.
  <bullet> Policies and practices regarding the care of unaccompanied 
        children conform to the best interests of the child standard as 
        outlined in domestic and international human rights standards, 
        no matter the type or location of ORR facility.
    <bullet> ORR should ensure that temporary influx facilities follow 
            State licensing requirements as well as the Flores 
            standards for permanent ORR shelters and international 
            human rights standards.
    <bullet> ORR should ensure that temporary influx facilities have 
            the same services and standards of care as permanent 
            facilities. The Government must also ensure regular access 
            to these facilities for independent monitors, child welfare 
            experts, and attorneys to ensure children's welfare and 
            oversight and accountability.
  <bullet> Access to counsel should be guaranteed.
    <bullet> Guarantee all children in Government custody legal counsel 
            to conduct ``Know Your Rights'' presentations, interview 
            children, conduct legal assessments, and establish contact 
            with representation in the community where the child will 
            be released.
    <bullet> Establish a right to counsel for children and ensure 
            children are guaranteed legal counsel in all immigration 
            court proceedings.
  <bullet> A far-sighted planning process should be developed that has 
        the elasticity and responsiveness necessary to accommodate 
        variations in unaccompanied children populations while 
        complying with domestic and international human rights 
        standards.
  <bullet> Congress should allocate funds for the above, and ensure 
        appropriate oversight.
  <bullet> Congress should place limitations on funding for contracts 
        with for-profit corporations, as they will not be properly 
        incentivized to care for children. The detention of children 
        should not be a business. Congress should place strict limits 
        on ORR's ability to contract with for-profit corporations to 
        ensure that corporations are not wrongly incentivized to cut 
        corners and prolong child detention, particularly detention in 
        influx facilities ill-suited to children's care.
    We urge the Biden administration to take critically-needed steps to 
uphold its rights obligations to meet the best interests of children 
through immediate and systemic change, as it works to welcome children 
with humanity, compassion, and care. We call on the Biden 
administration to approach this issue with the urgency, accountability, 
and transparency it deserves--the United States cannot be back here in 
another year. Children's futures depend on it.
    For more information, please contact Denise Bell at [] and 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="600402050c0c2001091513014e0f12074e">[email&#160;protected]</a>
            Sincerely,
                                                Joanne Lin,
                National Director, Advocacy and Government Affairs.
                                               Denise Bell,
                            Researcher, Refugee and Migrant Rights.
                                 ______
                                 
                  Statement of First Focus on Children
                             April 27, 2021
    Chairman Thompson, Ranking Member Katko, and Members of House 
Committee on Homeland Security, we thank you for the opportunity to 
submit this statement for the record. First Focus on Children is a 
bipartisan child advocacy organization dedicated to making children and 
families a priority in Federal policy and budget decisions. As an 
organization that advocates for the health and well-being of all 
children, we have long urged both Congress and various administrations 
to uphold the best interests of the child in all immigration policy. 
Approaching policy with this principle would lead to clear solutions 
for foreign policy, border policy, and care of children within the 
Office of Refugee Resettlement (ORR), ensuring that children are 
adequately cared for and have a fair opportunity to seek protection in 
the United States.
    It is imperative that we treat the current situation as one that 
originates in children's countries of origin. For many years, children 
have fled violence, abuse, and persecution in Central America and other 
countries of origin to seek protection in the United States.\1\ In 
2020, not only were these on-going safety crises continuing, but also 
the whole world was hit with a deadly pandemic that led to loss of life 
and livelihoods, putting children and families in even more dire 
situations.\2\ Additionally, in late 2020 Guatemala, El Salvador, and 
Honduras were hit by 2 hurricanes--Hurricanes Eta and Iota--which 
further exacerbated conditions in the region.\3\ With little protection 
from traffickers, gangs, and gender-based violence in the region and 
with no other channels to safely resettle, children and families are 
fleeing to seek safety at our borders.
---------------------------------------------------------------------------
    \1\ Central American Migration: Root Causes and U.S. Policy, 
Congressional Research Services (Apr. 22, 2021), https://
s3.amazonaws.com/fn-document-service/file-by-sha384/67af38233d69- 
4a1d8d7781e777d6b472dea23629425105dcacbb646e31d4fec58c4a8a98611df2b1aaac
4cc98a88- 1abb.
    \2\ Id.
    \3\ Id.
---------------------------------------------------------------------------
    Once children arrive, they face a complex immigration system set up 
for adults, with few but vital protections that take into account their 
status as children and their unique needs. Under the 2008 Trafficking 
Victims Protection Reauthorization Act (TVPRA), unaccompanied children 
from countries that do not border the United States are immediately 
transferred to the custody of the Office of Refugee Resettlement (ORR), 
where they are placed in shelters with access to legal, medical, and 
mental health services before being promptly and safely released to a 
sponsor, most often a family member.\4\ The TVPRA echoes protections in 
the Flores Settlement Agreement, which sets minimum standards for the 
care of children in Government custody.\5\ Unaccompanied children also 
have the right to first pursue their claim for protection in a non-
adversarial process before U.S. Citizenship and Immigration Services 
(USCIS), and are exempt from the safe third country and 1-year filing 
deadline bars for asylum.\6\
---------------------------------------------------------------------------
    \4\ 8 U.S.C.  1232(b-c).
    \5\ Stipulated Settlement Agreement, Flores v. Reno, No. CV85-4544-
RJK (Px) (C.D. Cal. Jan. 17, 1997).
    \6\ 8 U.S.C.  1158(a)(2)(E),(b)(3)(C).
---------------------------------------------------------------------------
    Other than these protections, unaccompanied children generally face 
the same complex immigration system as adults. They must still appear 
for adversarial proceedings before an immigration judge, without the 
guarantee of legal representation and often in some form of detention. 
Without a focus on their liberty and without legal representation, 
unaccompanied children are often deprived of a fair opportunity to make 
their claim in a manner that takes their status as children into 
account, which may likely result in their return to the very 
trafficking, abuse, or persecution situations that they fled.\7\
---------------------------------------------------------------------------
    \7\ As of August 2018, over half of children with pending cases did 
not have legal representation. Children with legal representation are 
granted relief 70 percent of the time, while children without 
representation are granted relief only 9 percent of the time. Karen 
Berberich & Nina Siulc, Why Does Representation Matter? The Impact of 
Legal Representation in Immigration Court, Vera Institute of Justice 
(November 2018), https://www.vera.org/downloads/publications/why-does-
representation-matter.pdf.
---------------------------------------------------------------------------
    We strongly opposed the previous administration's deterrent-focused 
approach to unaccompanied children arriving at our border, from family 
separation to children's prolonged detention in ORR custody, to 
expediting children's cases in a manner that denied them due process. 
We commend the Biden administration's commitment to build a more fair 
and humane immigration system, which includes the preservation of vital 
protections in the TVPRA and the Flores Settlement Agreement. However, 
we are concerned with continued policies that separate children from 
their families and deny children the family and community-based 
placements that are best for their healthy development.
    In particular, while the administration has exempted unaccompanied 
children from the misuse of Title 42 of the U.S. Code (otherwise known 
as the Title 42 policy), we note that the continued use of the policy 
has serious impacts for unaccompanied children and children in 
families.\8\ Despite unaccompanied children's exemption from this 
policy, a Human Rights First report found that unaccompanied children 
have been denied access to protection at ports of entry, forcing them 
back into danger in Mexico.\9\ Reports have also confirmed that because 
of Title 42, families who are returned to dire harm in Mexico have made 
the impossible choice to send their children to safety in the United 
States.\10\ Customs and Border Protection (CBP) officials have stated 
that over 400 children who arrive unaccompanied were previously 
expelled when they tried to seek safety with their parents.\11\ 
Separation from parents, particularly for children who have already 
experienced trauma, leads to additional toxic stress and negative 
impacts for children's mental, physical, and emotional health that 
could be life-long.\12\
---------------------------------------------------------------------------
    \8\ Letter to President Biden on Title 42, First Focus on Children 
(Apr. 12, 2021), https://firstfocus.org/wp-content/uploads/2021/04/
First-Focus-on-Children_Title42-2.pdf.
    \9\ Failure to Protection: Biden Administration Continues Illegal 
Trump Policy to Block and Expel Asylum Seekers to Danger, Human Rights 
First, Haitian Bridge Alliance, Al Otro Lado (April 2021), https://
www.humanrightsfirst.org/sites/default/files/
FailuretoProtect.4.20.21.pdf.
    \10\ Id.
    \11\ Rosa Flores, Sara Weisfeldt, & Catherine E. Schoichet, Her Son 
Held Hands, Cried, and Cross the Border Alone, CNN (April 14, 2021), 
https://www.cnn.com/2021/04/14/us/border-family-separation/index.html.
    \12\ Hajar Habbach, Kathryn Hampton, & Ranit Mishori, You Will 
Never See Your Child Again: The Persistent Psychological Effects of 
Family Separation, Physicians for Human Rights (February 25, 2020), 
https://phr.org/our-work/resources/you-will-never-see-your-child-again-
the-persistent-psychological-effects-of-family separation/.
---------------------------------------------------------------------------
    For a long time, the Government has interpreted the TVPRA to 
require children's separation from adult caregivers with whom children 
arrive who are not children's parents or legal guardians, including 
extended family members like older siblings, grandparents, aunts, and 
uncles. It is important that children arriving without a legal guardian 
retain the protections of unaccompanied status. However, evidence shows 
that children's separation from loving caregivers that they know and 
trust has the same impact as separation from a parent.\13\ 
Additionally, the Government's failure to track family relationships 
means this practice results in children's prolonged stay in ORR 
custody. Now is the time for the administration and ORR to think 
creatively about how to ensure that children retain their unaccompanied 
status while also preventing the prolonged separation of children from 
loving caregivers at the border and making better, more efficient use 
of Government resources. One solution is to co-locate HHS child welfare 
experts at the border to evaluate family relationships and expedite 
children's release to these caregivers as sponsors. Such a policy would 
also support better use of Government resources, focusing on providing 
children with legal, child advocate, and post-release services in the 
community rather than unnecessarily having children in ORR custody. HHS 
officials at the border could also jumpstart placement in custody and 
reunification services so that children are safely and promptly 
reunited with family.
---------------------------------------------------------------------------
    \13\ Key Points: Traumatic Separation and Refugee & Immigrant 
Children, The National Child Traumatic Stress Network, https://
www.nctsn.org/sites/default/files/resources/tip-sheet/
key_points_traumatic_separation_and_refugee_immigrant_children.pdf 
(last visited Apr. 23, 2021) (noting that a child's relationships with 
a primary caregiver is critical to a children's ability to thrive, and 
that separation is one of the most potent stressors a child can 
experience).
---------------------------------------------------------------------------
    Given the increasing numbers of unaccompanied children either newly 
arriving or returning to the border after being expelled, the Biden 
administration has sought to keep children out of inappropriate CBP 
facilities and transferred to the care of ORR by expanding capacity 
through the use of unlicensed influx facilities and large emergency 
intake sites (EIS).\14\ While we recognize that the previous 
administration failed to increase ORR capacity during the COVID-19 
pandemic when there were fewer children in care, the use of these 
facilities must be temporary. Social science shows that large, 
institutionalized settings are inherently inappropriate for 
children.\15\ In the immediate term, the Biden administration should 
ensure that these facilities meet State licensing standards for the 
care of children and have clear and consistent monitoring and 
oversight. They should also increase services, particularly case 
management and legal services, in these facilities to facilitate 
children's safe and quick release to sponsors. At the same time, the 
Biden administration must work to ensure that institutionalized 
settings are a thing in the past for the care of unaccompanied 
children. Rather, ORR's primary model of care--whether for a short 
period of time before release to a sponsor or for a longer period for 
children without a sponsor--should be family-based settings like foster 
care or small-scale group homes and shelters that allow individualized 
care for children.\16\
---------------------------------------------------------------------------
    \14\ Press Release, U.S. Department of Health and Human Services, 
Long Beach Emergency Intake Site for Unaccompanied Children Opens 
Today, (April 22, 2021), https://www.hhs.gov/about/news/2021/04/22/
long-beach-emergency-intake-site-unaccompanied-children-opens-
today.html.
    \15\ What are Outcomes for Youth Placed in Congregate Care 
Settings, Case Family Programs (February 5, 2018), https://
www.casey.org/what-are-the-outcomes-for-youth-placed-in-congregate-
care-settings/.
    \16\ Mary Dozier, et al., Consensus Statement on Group Care for 
Children and Adolescents: A Statement of Policy of the American 
Orthopsychiatric Association, American Orthpsychiatric Association 
(2014), https://www.apa.org/pubs/journals/features/ort-0000005.pdf.
---------------------------------------------------------------------------
    In addition to the recommendations above, we believe more can be 
done to consider the best interests of unaccompanied children, from the 
communities they and their families come from through to the end of 
their immigration case here in the United States. The American people 
agree that providing safe treatment for unaccompanied children at the 
border should be a high priority for the Federal Government.\17\ We 
encourage Congress and the administration to implement the following 
recommendations:
---------------------------------------------------------------------------
    \17\ Erin Snodgrass, New Poll Shows Majority of Americans Care More 
About Prioritizing the Safety of Children At the Border than Increased 
Security, Business Insider (April 6, 2021), https://
www.businessinsider.in/politics/world/news/new-poll-shows-majority-of-
americans-care-more-about-prioritizing-the-safety-of-children-at-the-
border-than-increased-security/articleshow/81922861.cms.
---------------------------------------------------------------------------
    1. Support children's well-being in their countries of origin and 
        through safe pathways to the United States.--U.S. foreign 
        assistance to Central America and other parts of the world 
        should prioritize outcomes that are in the best interests of 
        children, such as addressing child poverty, improving child 
        protection systems, better access to education, nutrition, 
        medical and mental health care, and support for whole families. 
        We applaud the administration for restarting the Central 
        American Minors Program and urge the expansion of that program 
        and the beginning of other programs that run parallel to the 
        asylum process.
    2. Preserve and build upon protections in the TVPRA and Flores 
        Settlement Agreement.--These laws represent the only 
        consideration of children's specific needs in our immigration 
        system. They should be championed and built upon so that our 
        immigration system keeps children safe and grants them a truly 
        fair opportunity to seek legal protection in the United States.
    3. Keep families together.--In addition to ensuring children are 
        not separated from their parents, the Government must ensure 
        that children are kept with their loving caregivers through 
        HHS-facilitated expedited release at the border. ORR should 
        also support family unity by streamlining the sponsor 
        reunification process to ensure safe and prompt release of 
        children to sponsors, acknowledging that parents have a unique 
        and Constitutional right to the care and custody of their 
        children.
    4. Establish a best interest standard for all immigration 
        decisions.--All Federal agencies that deal with unaccompanied 
        children should adopt a best interest of the child standard to 
        consistently guide all decisions made regarding their care and 
        their eligibility for humanitarian relief.\18\
---------------------------------------------------------------------------
    \18\ Jennifer Nagda & Maria Woltjen, ``Best Interests of the Child 
Standard: Bringing Common Sense to Immigration Decisions,'' Big Ideas 
2015--Pioneering Change: Innovative Ideas for Children and Families, 11 
March 2015, https://firstfocus.org/wp-content/uploads/2015/04/Best-
Interests-of-the-Child-Standard.pdf.
---------------------------------------------------------------------------
    We thank you again for this opportunity to submit this written 
testimony. We look forward to working with you to implement common-
sense policies that help children and families thrive, both in the 
United States and in their countries of origin. Should you have any 
further questions please contact Miriam Abaya, Senior Director for 
Immigration and Children's Rights at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb868299828a868aab8d8299989f8d84889e98c584998cc5">[email&#160;protected]</a>
                                 ______
                                 
     Statement of the Young Center for Immigrant Children's Rights
                             April 27, 2021
    As the Biden-Harris administration re-opens the border to people 
seeking protection, it must develop new strategies for caring for 
immigrant children who arrive at the border with non-parent family 
members. Because of the pandemic, it must prioritize opportunities to 
keep children out of congregate care settings, including unlicensed 
facilities.
    Many children arrive with trusted, loving caregivers with whom they 
can be safely released. At present, they are separated, and the 
children placed in ORR care. At that point, HHS begins the process of 
identifying family with whom the child can be reunified, including the 
same adult with whom the child arrived. To ensure children's rights to 
health, safety, and family unity are protected, we propose a model for 
expediting the release of children who arrive with non-parent family 
members directly from the border, using the existing expertise of ORR 
staff to evaluate family relationships in real time. We propose that 
the Government co-locate DHS and HHS staff at the border so that HHS 
can staff can assess the relationship, and if the relationship is 
confirmed and determined to be safe, approve the child's release to the 
adult family member while the child retains the legal designation of 
``unaccompanied,'' which preserves the legal protections for children 
who arrive without a legal guardian. This would avert some family 
separations, minimize health risks to both children and adults, 
preserve ORR's resources, and ensure children remain with their adult 
caregivers, avoiding the months needed to reunify them under the 
current process in which they are separated.
    This model can be implemented now by creating designated space for 
HHS within CBP facilities while the Government can work to establish 
new, integrated reception centers.
   parameters for expedited border reunification (co-location) model
  <bullet> CBP immediately transfers any unaccompanied child 
        apprehended with a non-parent, adult family member to a 
        designated reception center (ideally located within 4-6 hours 
        of CBP field stations or POEs, for prompt transport and to 
        maximize time for HHS screening).
  <bullet> HHS-ORR staff detailed to the reception centers work to 
        verify the relationship and screen the child for trafficking 
        and safety concerns; ORR staff use the same tools utilized in 
        ORR custody, including document review, observations, and 
        interviews of the child and family.
  <bullet> If ORR determines the accompanying family member to be a 
        safe sponsor using its existing expertise, CBP approves the 
        sponsor for release (absent exigent circumstances) and 
        transfers physical custody of the child from CBP to ORR in a 
        designated space within the reception center so that ORR can 
        promptly release the child directly to the adult sponsor.
  <bullet> The child will retain the ``UC'' designation and 
        accompanying legal protections as a child who lacks a parent or 
        legal guardian.
  <bullet> Reception centers must be staffed with NGO legal services 
        providers to provide KYR screenings to children and families 
        being considered for direct release.
  <bullet> ORR must make a reunification decision within 72 hours of 
        CBP's UC designation; children whose safe release cannot be 
        approved in that time will be transferred to ORR custody.
1. Release unaccompanied children with family members directly from the 
        border
    Children who arrive at the border with relatives or trusted 
caregivers who are not their parent or legal guardian must be 
designated as ``unaccompanied'' by CBP and transferred to the custody 
of HHS within 72 hours.\1\ To prevent separation of these families, HHS 
could conduct its evaluation of accompanying family members as sponsors 
for the child's care while they are in CBP custody, and release them 
jointly at the border. This would avoid a traumatic separation of the 
child from their adult caregiver, and reduce the number of children 
waiting for reunification in ORR placements. ORR staff would normally 
make these same evaluations after a child's traumatic separation, while 
the child is in ORR custody. Under a new model, if ORR staff determines 
that the relationship is legitimate and that the accompanying adult 
does not pose a risk to the child--work ORR already does after children 
are referred to its facilities--the child should be released into the 
family member's custody directly from the border. These adults are not 
legal guardians and therefore the child will maintain the 
``unaccompanied'' designation and the legal protections provided for 
children without a parent or legal guardian. In cases where ORR has 
concerns about the accompanying adults' legitimate relationship with 
the child or the child's safety it could decline to approve 
reunification and the child would be transferred to ORR.
---------------------------------------------------------------------------
    \1\ Trafficking Victims Protection Reauthorization Act 
Sec. 235(c)(2), 8 U.S.C. Sec. 1232(c)(2)(A) (2008).
---------------------------------------------------------------------------
2. Child protection agencies evaluate kinship relationships in this 
        time frame
    This can be done. Outside of the immigration context, child welfare 
experts evaluate the suitability of ``kinship'' care sponsors in 
similar time frames.\2\ Across the country, child protection agencies 
have developed a number of strategies to find safe placements for 
children in short time frames, to minimize children's time in 
Government custody. Many States have a process for placing children 
with relatives or even fictive kin in 48 hours.\3\ Federal law and HHS-
ACF policies (outside of ORR) increasingly prioritize keeping children 
with trusted family members as research shows that ``removing children 
from their families is disruptive and traumatic and can have long-
lasting, negative effects.''\4\
---------------------------------------------------------------------------
    \2\ Ana Beltran and Heidi Redlich Epstein, Improving Foster Care 
Licensing Standards around the United States: Using Research Findings 
to Effect Change 18-19 (2013), https://grandfamilies.org/Portals/0/
Improving%20Foster%20Care%20Licensing%20Standards.pdf (noting several 
States including Idaho, Illinois, and New York that provide for 
expedited approvals for relatives).
    \3\ Casey Family Programs, How Can We Ensure a Child's First 
Placement is With a Family?, https://caseyfamilypro-wpengine.netdna-
ssl.com/media/SF_First-placement-family-placement.pdf (last modified 
August 2018).
    \4\ Child Welfare Information Gateway, Placement of Children with 
Relatives, https://www.childwelfare.gov/pubPDFs/placement.pdf (last 
modified Jan. 2018).
---------------------------------------------------------------------------
    In select cases, there is no need to put immigrant children through 
the additional trauma of separating them from family members. 
Instituting a new procedure in which ORR staff evaluate family 
relationships at the point of arrival would not only kickstart the 
reunification process at the earliest stage, but also would avert some 
family separations, minimize health risks, and preserve ORR's resources 
and ensure children remain with the adults critical to their legal 
case.
3. Utilize CBP or integrated reception centers where ORR staff can 
        evaluate family caregivers; or in the alternative, release to 
        shelters while HHS completes its evaluation
    Over time, adapting larger CBP facilities into reception centers 
for evaluating the most vulnerable migrants--including unaccompanied 
children--would create an organized setting for authorities from CBP to 
complete their required tasks while qualified ORR experts provide 
child-appropriate and trauma-informed care for immigrant children, 
consistent with international standards.\5\
---------------------------------------------------------------------------
    \5\ U.N. High Comm'r for Refugees, Refugee Protection and Mixed 
Migration: A 10-Point Plan of Action 104 (Jan. 1, 2007), https://
www.unhcr.org/50a4c0e79.pdf (citing ``reception center'' models used 
throughout the world that offer a range of services addressing the 
``basic material and psychosocial needs of all arrivals (e.g., 
accommodation, food, clothing, and medical services),'' and provide for 
processing).
---------------------------------------------------------------------------
    But right now, before making these modifications, the Federal 
Government can quickly adapt existing CBP facilities to provide space 
for ORR staff to work with families--allowing conversations with 
children and family members apart from CBP officials and using HHS-
owned technology to review documents (computers, printers, scanners). 
The agencies must demarcate CBP functions from those of ORR; this could 
be as simple as separate rooms in which ORR can have confidential 
conversations with children and family outside of an enforcement 
context. In the longer-term, the 2 agencies could share a building or 
campus, allowing CBP to process families on arrival and providing a 
place for them to stay while ORR verifies family relationships and vets 
sponsors.
    Alternatively, CBP could release family units to non-governmental 
shelters at the border, where families could stay and receive emergency 
services while HHS evaluates the relationship and the ability of the 
adult family member to care for the child.
4. HHS expertise with unaccompanied children and sponsors could prevent 
        many separations
    This model capitalizes on HHS's existing expertise and will 
decrease the demand for placement in ORR facilities. Co-locating HHS 
staff in CBP facilities for the specific purposes of screening 
unaccompanied children for direct release to trusted caregivers would 
not require altering agency roles under existing law. CBP would 
continue to be responsible for designating a child who arrives without 
a parent or legal guardian as ``unaccompanied.'' As soon as CBP 
encounters an unaccompanied child--a child not with a parent or legal 
guardian--the agency would transfer the child, with any accompanying 
adult family members, to the nearest CBP reception center where ORR 
field staff would be on-site. These reception centers should be spaced 
out across the border, so that CBP officials could transport a child 
and family member(s) there within roughly 4 to 6 hours of apprehension.
    ORR would work with any unaccompanied child who arrived with an 
adult, non-parent family member for the remaining window in the 72 
hours before the child would be transferred to an ORR facility. During 
that time, ORR staff would screen the accompanying family member for: 
(a) Validity of the relationship; (b) ability to care for child; and 
(c) risk of trafficking or abuse. HHS field staff should be detailed to 
these facilities for brief periods--perhaps weeks--to do this work. 
This would allow for a speedier launch of the program and would help 
ensure the independence of the ORR field staff, allowing them to 
maintain their separate mandate and functions from those of CBP.
            a. ORR staff can and does evaluate relationships and 
                    ability to care for the child
    ORR staff will be able to evaluate relationships and complete 
sponsorship applications in short order for many families, using the 
same procedures ORR and facility staff undertake when a child is in its 
physical custody at an ORR shelter. Family members can be interviewed 
on the spot and can complete any necessary paperwork on-site. ORR will 
seek proof of the adult's relationship to the child, which would 
require evaluation of the same types of evidence ORR uses to vet 
potential sponsors for children in its custody, including interviews 
with the child, accompanying adult(s), or family members elsewhere 
(conducted by phone or video). Adults traveling with children may have 
photographs, signatures on school forms or hospital records, letters of 
designation or powers of attorney or can help to facilitate phone calls 
with the child's parents. If needed, ORR can run criminal background 
checks and take fingerprints on-site; but the biometrics and 
information obtained by ORR through this process must not be shared 
with ICE or CBP.
    ORR staff will interview the child both together and separately 
from the adult and ask the child questions about how long they have 
known the adult and in what capacity. For young children and infants, 
qualified social workers should spend time observing the interactions 
between adults and children in addition to evaluating the documentary 
evidence of relationship provided. Any case raising concerns, for 
example, a child who doesn't appear to know their relative, would be 
then be treated under existing processes: Referral to an ORR facility 
to identify and evaluate an appropriate sponsor.
            b. ORR staff can and does screen for trafficking and abuse
    Some may worry that an expedited reunification process will not 
provide the time or procedures required to adequately screen children 
who are at risk of being trafficked or harmed in some way by the adults 
with whom they are traveling. But there is no reason to believe that 
screenings for signs of trafficking or abuse at the border need to be 
any less robust than those performed in the sponsor verification 
process while a child is in an ORR shelter. ORR staff at reception 
centers can apply the same kinds of screening tools that facility staff 
rely on when working with children in ORR custody. If there are any red 
flags, ORR can decide not to reunify the child with the adult at the 
border.
    Qualified ORR staff conducting trafficking and abuse screenings at 
the border would also have the opportunity to observe family 
interactions before children are released--a benefit ORR does not 
currently have when deciding whether to release children to sponsors 
when children are in ORR care. ORR already employs staff trained to 
identify and support children who are victims of trafficking as well as 
children who are at greater risk for future victimization. By bringing 
these resources to families at the point of arrival, ORR can release 
children to relatives directly without the harms associated with 
congregate care.
5. Value of detailing HHS officials to the border
    ORR staff already make reunification decisions for immigrant 
children and their sponsors. While they typically rely on information 
gathered by staff at ORR-contracted facilities, they have the 
professional training and expertise to speak with children and family 
members (and often do so), and review documents showing family 
relationships and a history of safe care. They engage with legal 
service providers and refer vulnerable children for the appointment of 
child advocates. They have a mandate to act in children's best 
interests--not in the interests of law enforcement. They understand 
that immigrant children and their families arrive from all parts of the 
world, from a range of cultures, languages, and norms around family 
life, and they can help children connect with family and services 
across the country. Additionally, bringing ORR staff into CBP 
facilities will increase transparency and could even avert situations 
of deprivation or harm in CBP custody that create additional challenges 
for ORR staff when children who have experienced those situations are 
transferred into ORR custody.
6. Access to Legal, Child Advocate, Post-Release Services
    The Flores Settlement Agreement and TVPRA require the Government to 
provide all unaccompanied children with Know Your Rights (KYR) 
presentations and screenings for immigration relief. HHS could work 
with stakeholders to ensure that legal staff are detailed to these 
sites to provide KYRs and screenings to unaccompanied children who stay 
in CBP custody while their non-parent family member is evaluated by 
ORR; ORR must ensure the family is linked to funded LSP services at the 
immigration court where their case will be filed. Any children approved 
by ORR for release with their family sponsor should also be referred to 
a legal services provider who would be funded to represent the child 
post-release. By co-locating ORR staff at the border and providing 
KYRs, children would benefit from the expertise of Federal officials 
expert in child welfare concerns and trained lawyers who could connect 
them to programs to help them with their legal claims upon release. 
Children denied release under this model would be appointed independent 
child advocates upon arriving in ORR custody.
7. Cost savings
    Keeping children in Government custody is detrimental to their 
health and well-being and expensive; all the more so when the 
Government is relying on influx facilities. Many children arrive with 
trusted, loving caregivers with whom they can be safely released, and 
then access community-based services tailored to their needs. Funds 
saved from lower numbers of children in the physical custody of ORR 
should be reinvested into community-based legal, child advocate, and 
post-release services while children live at home with their family or 
sponsors. This would allow ORR to focus its resources, developing high-
quality foster care beds for children without sponsors and increasing 
post-release services for those living with family, all while 
decreasing the need for unlicensed influx facilities. CBP would also 
save the costs of transporting children to ORR facilities away from the 
border.
    For more information, please contact Jennifer Nagda 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c0aaaea1a7a4a180b4a8a5b9afb5aea7a3a5aeb4a5b2eeafb2a7">[email&#160;protected]</a>) and Mary Miller Flowers 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1dcdcd8ddddd4c3d7dddec6d4c3c2f1c5d9d4c8dec4dfd6d2d4dfc5d4c39fdec3d6">[email&#160;protected]</a>).

    Ms. Barragan. Hearing no further business, the subcommittee 
stands adjourned. Thank you all.
    [Whereupon, at 3:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
